<html>
<title> - HAZARD COMMUNICATION IN THE 21st CENTURY WORKPLACE</title>
<body><pre>[Senate Hearing 108-538]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-538

           HAZARD COMMUNICATION IN THE 21ST CENTURY WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON EMPLOYMENT, SAFETY, AND TRAINING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON



EXAMINING HAZARD COMMUNICATION IN THE 21ST CENTURY WORKPLACE, FOCUSING 
ON STEPS THAT THE OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION (OSHA) 
  IS TAKING TO IMPROVE IMPLEMENTATION OF OSHA'S HAZARD COMMUNICATION 
                                STANDARD

                               __________

                             MARCH 25, 2004

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


                    U.S. GOVERNMENT PRINTING OFFICE
92-926                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

            Subcommittee on Employment, Safety, and Training

                   MICHAEL B. ENZI, Wyoming, Chairman

LAMAR ALEXANDER, Tennessee           PATTY MURRAY, Washington
CHRISTOPHER S. BOND, Missouri        CHRISTOPHER J. DODD, Connecticut
PAT ROBERTS, Kansas                  TOM HARKIN, Iowa
JEFF SESSIONS, Alabama               JAMES M. JEFFORDS (I), Vermont

                    Ilyse W. Schuman, Staff Director

                William Kamela, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, MARCH 25, 2004

                                                                   Page
Hon. Enzi, Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     1
Hon. Murray, Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     4
Henshaw, John L., Assistant Secretary for Occupational Safety and 
  Health, U.S. Department of Labor, Washington, DC...............     6
    Prepared statement...........................................     8
Grumbles, Thomas G., President, American Industrial Hygiene 
  Association; Jon Hanson, Director of Safety, Wyoming Medical 
  Center, Casper, WY; Anne Jackson, Corporate Safety Director, 
  Pepperidge Farm, on behalf of the American Bakers Association; 
  Michele R. Sullivan, Chairman of the Board of Directors, 
  Society for Chemical Hazard Communication; and Michael J. 
  Wright, Director of Health, Safety and Environment, United 
  Steelworkers of America........................................    18
    Prepared statements of:
        Thomas Grumbles..........................................    20
        Jon Hanson...............................................    26
        Anne Jackson.............................................    42
        Michele Sullivan.........................................    48
        Michael Wright...........................................    54

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letter to Senator Enzi from Ron Hayes........................     4
    Questions of Senator Murray for OSHA.........................     6
    Studies submitted by Senator Murray:
        Congressman Dennis J. Kucinich, March 2004 Oversight 
          Report--OSHA's Failure to Monitor and Enforce Asbestos 
          Regulations in Auto Repair Shops.......................    63
        Asbestos in Brakes: Exposure and Risk of Disease.........    72
        The Asbestos Cancer Epidemic.............................    81
    American Society of Safety Engineers (ASSE)..................    86
    International Truck and Engine Corporation (ITEC)............    91
    Carolyn W. Merritt...........................................    92
    Karan Singh..................................................    95

                                 (iii)

  

 
           HAZARD COMMUNICATION IN THE 21st CENTURY WORKPLACE

                              ----------                              


                        THURSDAY, MARCH 25, 2004

                                       U.S. Senate,
   Subcommittee on Employment, Safety and Training, of the 
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Michael B. 
Enzi (chairman of the subcommittee) presiding.
    Present: Senators Enzi and Murray.

                   Opening Statement of Senator Enzi

    Senator Enzi. I will go ahead and call to order this 
hearing before the Committee on Health, Education, Labor and 
Pensions, specifically, the Subcommittee on Employment, Safety 
and Training, for a hearing on ``Hazardous Communication in the 
21st Century Workplace.''
    I want to begin by thanking the witnesses for participating 
in this important hearing.
    Hazardous chemicals pervade the 21st century workplace. An 
estimated 650,000 hazardous chemical products are now used in 
over 3 million workplaces across the country. Every day, more 
than 30 million American workers will be exposed to hazardous 
chemicals on the job. Whether or not they return home safely at 
the end of the day depends on their awareness of these hazards 
and appropriate precautionary measures.
    Communication is the key to protecting the safety and 
health of these 30 million workers. However, the protection is 
only as effective as the communication. Twenty years ago, the 
Occupational Safety and Health Administration, OSHA, adopted 
the Hazard Communication Standard. The stated purpose of the 
rule is to ensure that the hazards of all chemicals produced or 
imported are evaluated and the information concerning their 
hazards is transmitted to employers and employees.
    Material Safety Data Sheets are the cornerstone of hazard 
communication. OSHA's rule provides a generic framework for 
hazard communication. With over 650,000 chemicals in use and 
tens of thousands of chemical manufacturers, the content and 
format of the Material Safety Data Sheets varies widely.
    At least three different parties are involved in hazard 
communication. There is the chemical manufacturer, the 
employer, and the worker. Safety and health professionals and 
first responders are also often involved. Each of these parties 
has a different perspective, different resources, and quite 
frequently usually speaks a different language.
    Within OSHA's generic framework for hazard communication, 
clarity, consistency and accuracy get lost in the translation. 
The chemical manufacturer might prepare the Material Safety 
Data Sheet with an eye toward the courtroom or the laboratory--
usually not the factory floor.
    Workers should not need a Ph.D. in biochemistry to know how 
to protect themselves against hazardous materials. The 
complexity of Material Safety Data Sheets and hazard 
communication creates a particular problem for small business 
and their workers. With limited resources, many small 
businesses do not have the expertise to develop or interpret 
Material Safety Data Sheets. Small businesses want to promote 
the safety of their workers; they just need some assistance in 
doing so.
    I can speak from personal experience about the problems 
Material Safety Data Sheets pose for small business. There are 
a number of reports that have also called into question the 
quality of the Material Safety Data Sheets. A 1991 study 
commissioned by OSHA found that only 11 percent of the Material 
Safety Data Sheets examined were entirely accurate. That same 
year, the General Accounting Office issued a report that found 
that a substantial number--52 percent--of employers surveyed 
were not in compliance with OSHA's Hazard Communication 
Standard. More recently, the Chemical Safety and Hazard 
Investigation Board has investigated and issued reports on 19 
chemical accidents that killed or injured workers since 1998. 
In a total of nine cases, inadequate communication of hazards 
to workers or contractors was found to be a root or 
contributing cause of the accident.
    Twenty years after the Hazard Communication Standard was 
published, it is time for review. It is time to heed the call 
of workers and employers alike for more clarity, consistency, 
accuracy and guidance.
    Over the years, I have had the great fortune to work with 
Ron Hayes on improving the safety and health of American 
workers. Ron was not able to testify today, but he wrote me a 
letter that I would like to submit for the record.
    He writes that: ``Other standards cover many issues for the 
workers, but Material Safety Data Sheet paperwork is used 
millions of times each work day, and the accuracy of these 
sheets is of paramount importance for the complete protection 
of our most important resource--our great American workers.''
    Ron, of course, counsels people who have lost family 
members in industrial accidents. He himself lost his son in a 
grain elevator accident, and he has become a dedicated worker 
to making sure that people are safe on the job.
    In the 20 years since the Hazard Communication Standard was 
adopted, the American workplace has changed dramatically. Our 
economy has become more increasingly global. The chemical 
industry is one of the United States' largest exporting 
sectors. The manner in which other countries regulate hazardous 
chemicals impacts and affects American manufacturers' ability 
to compete in the global marketplace.
    The preamble to OSHA's 1983 Hazard Communication Standard 
included a commitment by the agency to pursue international 
harmonization of such communication. In 2002, the United 
Nations adopted the Globally Harmonized System for 
Classification and Labeling of Chemicals. The Globally 
Harmonized System is designed to improve the quality of hazard 
communication by establishing standardized requirements for 
hazard evaluation, safety data sheets, and labels.
    The Globally Harmonized System has the potential to address 
significant concerns with current hazard communication. Whether 
the United States adopts it cannot be decided by OSHA alone. 
Other agencies and key stakeholders in the hazard communication 
must also be involved.
    As the economy becomes increasingly global, and with worker 
safety at stake, this consideration cannot be delayed or made 
lightly. Some day, these Material Safety Data Sheets will be 
electronic for faster look-up and ease of answering questions 
with Blackberry-type devices doing all of the calculations. The 
sheets will even be updated daily and be wireless.
    Of course, tomorrow is already here thanks to a Wyoming 
company spelled, P-E-A-C, pronounced PEAC, that we know has 
simplicity and uniformity. I used to work with these sheets as 
an accountant for an oil well servicing company, and I 
mentioned that if they had more safety training, they could 
save money, and they said, ``Do it.'' And I said, ``I am an 
accountant; I do not do safety.''
    They said, ``Well, you know more about it than anybody 
else, because nobody has recommended that.''
    So they paid me to do some safety, and the Material Safety 
Data Sheets was one of the real problems. They came in a book 
that was about that thick, and we used red notebooks so they 
were more easily found in time of a crisis. But I showed people 
how to read those and use those and really felt fortunate if I 
could just get them to find the notebook at all.
    It is a terrible problem, and it is extremely complicated 
once they have a problem. They are always a little bit jittery 
and panicked, and they need easy information quickly to be able 
to solve the problem. They do not need a huge range of 
calculations that they have to recall or even try to follow on 
a sheet.
    So this is one of the ways that we can save lives most 
easily if we do the job right.
    I would like to read another statement from Ron Hayes, who 
I mentioned could not be here today--he had an operation 
recently. He writes that: ``Education and information is the 
key. Please help me make the changes that will protect all of 
our workers all of the time.''
    I could not agree more that education and information is 
the key to workplace safety. Those of you who know Ron know 
about his determination and commitment to the safety and health 
of American workers. We must rise to the challenge that he 
sets.
    [Letter from Mr. Hayes follows:]

                                                    March 15, 2004.
Hon. Michael B. Enzi,
United States Senate,
Washington DC.

     Dear Senator Enzi: Honorable Senators, staff, and witnesses, it is 
an honor for me to have a small part in this most important hearing on 
Hazard Communication (MSDS). I am very proud to have worked with you 
great statesmen over the years to better safety and health for our 
great American workers. Your work today in this hearing could be the 
most important advancement of OSHA's mission ever undertaken and more 
importantly provide guidance, leadership and much needed closer 
oversight to a slow moving, backward agency.
    No other standard or regulation in OSHA's responsibility covers or 
protects workers as much as the Hazard Communication standard does and 
especially the MSDS section of this standard. MSDS effects every worker 
everyday on every job. Other standards cover many issues for the 
workers but the MSDS paperwork is used millions of times each workday, 
and the accuracy of these sheets are of paramount importance for the 
complete protection of our most important resource--our great American 
workers.
    These men and women work and toil everyday to bring a better way of 
life for us all, they deserve to go home safe and sound everyday, to 
have the opportunity to live a long and happy life, free of injury and 
sickness. No one should die, be hurt or made sick at work.
    I can only pray that you will be so moved by God today, to make the 
much needed changes to this problem and find new ways to make sure all 
MSDS sheets are readable, understandable, and correct. Education and 
information is the key, please help make the changes that will protect 
all of our workers all the time.
    Please forgive me for being absent today but I look forward to 
working with you and this great committee in the future. I know in my 
heart you will do the right thing today and am confident new changes 
and new protection will come from this hearing. God bless, and thank 
you for your courageous stand for all American workers.
            Yours,
                                                 Ron Hayes.
                                 ______
                                 
    Senator Enzi. I appreciate the witnesses being here today.
    I will turn now to the ranking member.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much, Mr. Chairman, and I 
want to commend you for calling this hearing to make sure that 
workers and employers have the most accurate and complete 
information on the hazards associated with the chemicals that 
they use on their jobs.
    I also want to thank Mike Wright from United Steelworkers 
of America for making the trip down from Pittsburgh to be with 
us this morning.
    Mr. Chairman, under your leadership, we were able to 
develop a bipartisan approach to the reauthorization of the 
Workforce Investment Act. You have my commitment to work with 
you again on a bipartisan basis to adopt a solution which many 
experts around the world have spent years developing--a 
globally harmonized system for classifying and labeling 
chemicals.
    I believe that we have a real opportunity to again forge a 
bipartisan consensus, and I hope that our subcommittee will 
move quickly to adopt a globally harmonized approach to 
chemical safety. I believe such a system will benefit both 
employers and workers because a trained and informed work force 
is essential to a good safety and health program.
    This approach will also be crucial to the ongoing economic 
success of any business or industry, especially small 
businesses, which are becoming increasingly frustrated with 
confusing and misleading safety information they receive.
    In the Tri-Cities in Washington State, we have an ongoing 
example of the critical importance of providing workers with 
the most accurate information available on the dangers of the 
chemicals they work with. We are still struggling with the 
clean-up of the Hanford nuclear waste site, and as more work is 
done on the site's tank farms, workers are being exposed to new 
dangers from the vapors in the tanks. OSHA does not have 
jurisdiction in that case, leaving the Department of Energy 
with the responsibility for providing adequate warnings to 
workers. Workers on site are currently experiencing a number of 
troubling medical problems. The private contractors involved in 
the clean-up have a set of incentives which push them to limit 
the number of work days lost from exposure.
    I would like to work with OSHA to see how the agency's 
expertise could be helpful to the DOE and the thousands of 
workers who are currently at risk in my State.
    I do want to commend OSHA on the positive steps it has 
taken on this issue, including forming a partnership with the 
Society for Chemical Hazard Communications, and for its recent 
hazard communication initiative. I hope that as OSHA moves 
forward, the agency will take into account the views of workers 
and the public, and not just the chemical suppliers.
    OSHA must also solicit the input of small businesses that 
often do not have the technical expertise on site to wade 
through the often complex and confusing Material Safety Data 
Sheets that they receive.
    Finally, Mr. Chairman, I hope that OSHA will be more 
responsive to Members of Congress on issues of concern to their 
constituents. As you know, I have been leading the fight in 
Congress to ban the production and importation of asbestos. 
OSHA has had a very poor track record of enforcing asbestos 
regulations in the workplace over the last 30 years. Auto 
repair workers are particularly vulnerable. Several months ago, 
I wrote to the EPA and OSHA on their intent to reexamine the 
Gold Book Guidance for Brake Mechanics. After a number of 
months, I finally received a response from OSHA, but it is 
inadequate at best.
    As part of this hearing record, I will be submitting 
several questions to OSHA on issues related to the enforcement 
of asbestos regulations, and I hope that the assistant 
secretary will provide more timely responses to my questions 
and that he will work with my office to make the enforcement of 
workplace asbestos regulations a priority for OSHA.
    Again, Mr. Chairman, I appreciate your efforts, and I look 
forward to working with you as we move forward together on this 
critical issue.
    As you know, I have three hearings at the same time this 
morning, so I will not be able to stay, but I will be 
submitting my questions for the record, and I appreciate the 
opportunity to be here this morning.
    Senator Enzi. I thank you for your cooperativeness on this 
hearing and all others, and the way that you so diligently work 
on the pieces of legislation so that we can come up with 
solutions. I appreciate your recognition that the solution is 
where we are trying to go.
    So thank you for being here.
    Senator Murray. Thank you, Mr. Chairman.
    [The prepared questions of Senator Murray follow:]

                  Questions of Senator Murray for OSHA

    Numerous research opinions and findings by scientists, government 
agencies, and international organizations have agreed that asbestos 
exposure from brake servicing is a mortal hazard.
    Question 1. How does OSHA weigh this considerable scientific 
evidence against the published positions of General Motors, Chrysler, 
Ford and their expert witnesses?
    Question 2. Does OSHA reaffirm its policy expressed in their 
current 1994 asbestos standard requirements that brake mechanics are at 
risk of asbestos diseases, including cancer from their exposure to 
asbestos?
    Question 3. Does OSHA believe that dust control safeguards and 
worker education programs are needed--especially given the significant 
imports of asbestos brake parts into the US?
    Question 4. What evidence if any does OSHA have that mechanics 
doing brake work in typical service stations are taking any more 
precautions now than they were 30 years ago to reduce/eliminate 
airborne asbestos dust from grinding, beveling, and blow-out with 
compressed air?
    Question 5. Why doesn't OSHA propose a ban on the use of asbestos 
by industry?
    Question 6. What regulatory steps and or other actions is OSHA 
contemplating to encourage the use of substitutes for asbestos in 
brakes and other uses of asbestos?
    Question 7. Could OSHA please provide me with the measures of 
exposures for asbestos for the years from 1990 on?
    Question 8. Has OSHA contemplated a warning label survey of 
asbestos-containing friction products, especially from countries like 
Mexico, Colombia, China, Canada and Brazil where the volume of export 
of products that contain asbestos have been rising into the US?

    [Response to questions were not available at print time.]
    Senator Enzi. Our first panelist today is Mr. John Henshaw, 
who is the Assistant Secretary for Occupational Safety and 
Health.
    Assistant Secretary Henshaw will discuss OSHA's review of 
hazard communication issues involving Material Safety Data 
Sheets. He will also discuss OSHA's recently announced Hazard 
Communication Initiative.
    I want to thank you for all of your efforts on behalf of 
the workers across the country and look forward to your 
testimony.
    Mr. Henshaw.

     STATEMENT OF JOHN L. HENSHAW, ASSISTANT SECRETARY FOR 
   OCCUPATIONAL SAFETY AND HEALTH, U.S. DEPARTMENT OF LABOR, 
                         WASHINGTON, DC

    Mr. Henshaw. Thank you, Mr. Chairman.
    I want to thank you for the opportunity to discuss the 
steps that the Occupational Safety and Health Administration is 
taking to improve the implementation of OSHA's Hazard 
Communication Standard.
    I would also like to thank the chairman for holding this 
hearing to help draw attention to this important safety and 
health issue.
    Our goal is to adapt hazard communication to the workplaces 
of the 21st century, and OSHA is doing that through this new 
initiative that I recently announced and will describe in just 
a moment.
    More than 30 million workers in this country are exposed to 
hazardous chemicals in their work environment. To protect these 
workers, OSHA adopted the Hazard Communication Standard, which 
I will refer to as the HCS, in November of 1983, as you 
mentioned, Mr. Chairman.
    The HCS covers about 650,000 hazardous chemical products in 
over 3 million work establishments across this country. The 
standard requires chemical manufacturers and importers to 
evaluate the hazards of chemicals that they produce and 
distribute.
    The HCS also requires information about hazards and 
protective measures to be disseminated on container labels and 
Material Safety Data Sheets.
    Over the past 20 years, OSHA has reviewed the enforcement 
of its Hazard Communication Standard and modified its practices 
and guidance to the regulated community to reflect these 
lessons learned over the last 20 years. In response to concerns 
about the accuracy of MSDSs used in the American work force, 
Secretary of Labor Elaine Chao asked me to review the current 
requirements under the Hazard Communication Standard and 
recommend any needed changes.
    Following an extensive review of the Hazard Communication 
Standard, OSHA has concluded that changes in the text of the 
Hazard Communication Standard are not needed at this time to 
improve the accuracy of MSDSs. Inaccuracies arise from failure 
to comply with the existing requirements under the Hazard 
Communication Standard.
    To address the inaccuracies and concerns raised about the 
quality of hazard information presented to employers and 
employees, OSHA has announced a new Hazard Communication 
Initiative. There are three components to the program--number 
one, compliance assistance, including additional guidance 
materials, a new portal on OSHA's website, and added outreach 
and education through new alliances.
    The second component is enforcement, and number three would 
be consideration of adopting the Global Harmonization System 
for Classification and Labeling of Chemicals, or the GHS system 
that you referred to, Mr. Chairman.
    Now let me explain these. OSHA has developed three guidance 
documents to improve the Hazard Communication Standard or 
compliance with the HCS. The first is a guide on performing a 
hazard determination under the requirements of the Hazard 
Communication Standard. The second document is a model training 
program which will provide employers with information on how to 
train their employees to understand the hazards identified on 
the labels as well as the MSDSs and, more important and 
appropriately, take appropriate cautions to prevent adverse 
effects.
    The third document is to guide the manufacturers and 
importers on how to prepare the MSDSs, and we will provide 
assistance on how to write clear and complete MSDSs, using the 
suggested format.
    To assist us in our compliance assistance and outreach 
efforts, last October, OSHA signed an alliance with a group 
that is testifying here today, called the Society of Chemical 
Hazard Communication. This organization is working with us to 
develop a short course on the preparation of MSDSs directed 
primarily to small businesses that prepare MSDSs, as well as a 
number of other joint projects we have underway with other 
organizations to help us with communication to small businesses 
and others around the requirements under hazard communication.
    We will continue to focus our enforcement on hazard 
communication and ensuring that it is properly implemented in 
workplaces across the country.
    While violations of the Hazard Communication Standard 
provisions are often cited during inspections, the accuracy of 
information has not been the focus of these citations most 
recently. Under the new initiative, however, OSHA will notify 
manufacturers in writing of critical deficiencies or 
inaccuracies on selected MSDSs. Manufacturers will be required 
to correct and update these MSDSs as a result. They will then 
have to respond back to OSHA and inform the agency of the steps 
taken to correct and update these data sheets. Those 
manufacturers who fail to respond or do not update their MSDSs 
can potentially be cited under the Hazard Communication 
Standard.
    OSHA has a great deal of hazard communication information 
available on its website. We have established a portal page now 
to consolidate this information and allow access directly from 
OSHA's home page. This will make it easier for the public and 
especially small businesses to find the information needed on 
hazard communication and find the guidance and compliance 
assistance material involved in developing MSDSs and complying 
with the standard.
    In the long-term, global harmonization of chemical 
information and labeling will improve communication of chemical 
risk. Standardized presentation of information on labels and 
MSDSs through the industrialized world can address many of the 
concerns about comprehensibility of chemical hazard 
information.
    To increase awareness of the GHS, OSHA is preparing a guide 
on the classification and labeling system that was adopted by 
the United Nations in December of 1992.
    Mr. Chairman, it is not surprising that problems arise from 
time to time when there is such a large universe of chemicals, 
and there are millions of workers exposed to these chemicals 
every day. I believe that the steps that we have taken in OSHA 
that we have outlined today will actively address the problems 
that you and Ron Hayes and others have pointed out, and these 
will significantly raise awareness among our employers and 
employees of the need to provide information on the chemicals 
used in American workplaces and, more important, provide the 
protection that every American worker in this country deserves.
    I will be happy to answer any questions, Mr. Chairman.
    [The prepared statement of Mr. Henshaw follows:]

                 Prepared Statement of John L. Henshaw

    Mr. Chairman, Members of the Subcommittee: Thank you for the 
opportunity to discuss the steps that the Occupational Safety and 
Health Administration (OSHA) is taking to improve implementation of 
OSHA's Hazard Communication Standard. I would also like to thank the 
Chairman for holding this hearing to help draw renewed attention to the 
need to provide accurate information to employees who work with 
potentially hazardous chemicals. Our goal is to adapt hazard 
communication to the workplaces of the 21st century and OSHA is doing 
that through a new initiative that I announced last week and will 
describe later in my testimony.
    More than 30 million workers in this country are exposed to 
hazardous chemicals in their work environment. To protect these 
workers, OSHA adopted the Hazard Communication Standard (HCS) in 
November 1983. The standard requires chemical manufacturers and 
importers to evaluate the hazards of chemicals that they produce and 
distribute. The HCS requires information about hazards and protective 
measures to be disseminated on container labels and Material Safety 
Data Sheets (MSDSs). All employers with employees exposed to regulated 
chemicals must provide access to the labels and the MSDSs. Employers 
using the manufactured chemicals must also train their employees to 
understand the information provided by the MSDS and the labels and how 
to use the information to protect themselves.
    The HCS covers all chemicals used in American workplaces. It is 
criteria-based, so the standard is not limited to a list of chemicals 
at any given point in time. The standard addresses trade secrets to 
ensure protection of legitimate claims of confidentiality at the same 
time that it requires disclosure of safety and health information.
    The HCS covers about 650,000 hazardous-chemical products in over 
three million work establishments. It has made the dissemination of 
hazard information about chemical products a standard business practice 
in the United States. There is now a generation of employers and 
employees who have continuously worked in an environment in which 
information about chemicals in their workplaces has been freely 
available.
    MSDSs are the primary means of transmitting detailed chemical-
hazard information to employers that use them and to their employees. 
The MSDS is a technical bulletin, which contains information such as 
chemical composition, health hazards, and precautions for safe handling 
and use. Most safety and health professionals consider MSDSs to be a 
primary component of their company's hazard communication programs. 
Even prior to promulgation of the HCS, many chemical manufacturers and 
importers included MSDSs with hazardous chemicals as a good business 
practice.
    The HCS places primary responsibility for preparing and 
disseminating the MSDSs with the chemical manufacturer. The HCS states 
clearly that manufacturers, importers, and employers preparing MSDSs 
shall ensure that the recorded information accurately reflects the 
scientific evidence used in making the hazard determination. However, 
MSDSs alone cannot protect workers from chemical hazards. The HCS also 
requires manufacturers to place labels on containers of hazardous 
chemicals and for employers using the manufactured chemicals to train 
their workforce.
    Due to its broad scope and significant impact, the HCS has been 
discussed, debated, and amended over the last 21 years. OSHA has 
reviewed its enforcement of the rule and modified its practices and 
guidance to the regulated community to reflect lessons learned. OSHA 
has also been careful in considering changes to the HCS because 
modifications to the labels and the MSDS would be costly and time-
consuming for the private sector. In response to concerns about the 
accuracy of MSDSs used in American workplaces, Secretary of Labor 
Elaine L. Chao asked me to review current requirements under the HCS 
and recommend any needed changes.
    In response to the Secretary's request, OSHA staff reviewed the 
available evidence, including scientific literature and studies; 
considered OSHA's institutional knowledge, including experience 
implementing the standard; and assessed the practical issues faced by 
employers and manufacturers in complying with the standard. We have 
concluded that changes to the text of the HCS are not needed to improve 
the accuracy of MSDSs. Inaccuracies arise from failure to comply with 
existing requirements. OSHA's review of the HCS and MSDSs has 
identified many of the reasons why there are problems with MSDS 
accuracy and the Agency is addressing those problems through our new 
initiative, announced last week and described later in this statement.
    At the time the HCS was adopted, available MSDSs followed different 
formats. Chemical manufacturers that had been providing MSDSs for many 
years were concerned about being required to change what they had been 
doing voluntarily. OSHA thus adopted a performance-oriented requirement 
that allowed variations in format as long as all the necessary 
information appeared on the MSDS. The HCS also required more extensive 
information than had been previously provided, particularly for health 
effects of chemicals. Thus, the two-page format common in the past is 
rarely used now. Most MSDSs contain a minimum of four pages and many 
exceed that length.
    The value of properly completed MSDSs has been demonstrated 
repeatedly. However, there have been a number of limited studies and 
investigations indicating that some MSDSs may contain errors. While 
this information indicates there are inaccurate MSDSs in circulation, 
there has never been a comprehensive study on this topic that provides 
more than anecdotal evidence about a limited number of MSDSs. This is 
not surprising since a study of that magnitude would be far-reaching, 
costly, and time-consuming. However, lacking such a study, it is 
difficult to determine how widespread the problem is today. The 
previously conducted studies mentioned above are quite old in some 
cases. In others, the authors have made assumptions about what they 
consider to be compliance with the standard that may not be consistent 
with the standard's requirements. For example, in a study regarding 
MSDSs on toluene diisocyanate, the authors assumed the MSDS was 
inaccurate if it did not explicitly refer to occupational asthma, but 
discussed respiratory sensitization. Since respiratory sensitization is 
the health hazard defined in the HCS, either term would be accepted as 
compliance for OSHA.
    In addition to issues of accuracy, there have been complaints that 
MSDSs are not comprehensible to workers and to small employers. The HCS 
was designed to address problems of comprehensibility by providing 
general information on labels in conjunction with the MSDSs and other 
information available to employees. Training programs are a critical 
component of hazard communication because they help ensure that workers 
understand the information they receive from labels and MSDSs. One 
reason why there are concerns regarding comprehensibility is that there 
are multiple audiences for MSDS information--workers, employers, and 
safety and health professionals. What may be comprehensible to an 
experienced professional in the field of safety and health may be 
difficult for an employer or an employee to understand. In addition, 
Title III of the Superfund Amendments and Reauthorization Act mandates 
that MSDSs be made available to State emergency-response commissions, 
local emergency-planning committees, and fire departments to assist in 
planning for emergencies. It is difficult, if not impossible, to design 
a document that meets the informational needs of each of these 
audiences and is universally comprehensible as well.
    Disparity in the qualifications of those who prepare MSDSs is 
another significant reason for variability in quality. OSHA's HCS does 
not address the qualifications needed to prepare an MSDS. Those who 
write MSDSs come from a wide variety of educational backgrounds, and 
there is little training available that is specific to this task. 
Accurately depicting the health effects of chemicals requires a 
technical background to review relevant scientific literature. Large 
chemical manufacturers often have multidisciplinary staffs of experts 
devoted to this task, but smaller manufacturers may not have such 
resources. Thus, the disparity in qualifications can lead to 
differences in the quality of information included in an MSDS.
    A cause of incomplete MSDS information is the lack of data on the 
health effects of some chemicals. The HCS does not require testing of 
chemicals or protective measures; it is based on available information. 
The chronic- or long-term health effects of many chemicals are not 
always well-known.
    In addition, most chemical products on the market are mixtures 
unique to a single manufacturer. The HCS provides manufacturers of 
mixtures a number of alternatives to determining hazards. A chemical 
manufacturer could choose to test a mixture as a whole through a full 
range of tests, including tests to determine health risks and physical 
hazards. Another accepted approach to hazard determinations is for the 
manufacturer to test certain properties of a chemical and to rely on 
the available research for others. If the manufacturer does not test 
the mixture as a whole, the mixture is assumed to present the same 
hazards as its individual-component parts, and the manufacturer may 
rely on the upstream chemical manufacturers' hazard determinations for 
those constituent substances. The MSDS for the mixture would then be 
comprised of the MSDSs for each component. Because of the variations in 
methods used to determine hazards, employers using chemical mixtures 
must make some judgments about how to apply the information provided by 
manufacturers to the conditions in their individual workplace.
    The amount and quality of research on chemical hazards also has an 
impact on the accuracy of information on the MSDS. Even the best 
available evidence may not provide sufficient information about 
hazardous effects and protective measures.
    OSHA staff has discussed these issues informally with 
representatives from other nations that have MSDS requirements and they 
report similar problems regarding the quality of MSDS information.
    OSHA has been studying ways of improving the accuracy and 
comprehensibility of MSDSs for many years. In May 1990, the Agency 
issued a request for information about MSDSs in the Federal Register. 
From those who responded, there was general support for consistent 
information on MSDSs and a standardized format. In September 1995, OSHA 
asked its National Advisory Committee on Occupational Safety and Health 
for recommendations on how to improve chemical-hazard communication, 
including methods of simplifying MSDSs and reducing paperwork for 
employers and manufacturers. After hearing from the public, including 
representatives of small businesses and unions, the Committee 
reaffirmed the importance of the HCS, and concluded that MSDSs have 
become long and complicated because they are used for many purposes 
other than to meet OSHA requirements. OSHA has no control over such 
nonOSHA purposes. A majority of the Committee supported the use of a 
standardized format such as that developed by the American National 
Standards Institute. OSHA has indicated this preference in its 
enforcement directives for the HCS.
    To address concerns raised and to enhance the quality of hazard 
information presented to employers and employees, OSHA has announced a 
new hazard-communication initiative. There are three components of the 
program: (1) compliance assistance--including additional guidance 
materials, a new portal on OSHA's Web Site, and added outreach and 
education through new alliances; (2) an enforcement initiative; and (3) 
consideration of adopting the Globally Harmonized System of 
Classification and Labeling of Chemicals (GHS), and preparation of a 
guide to raise awareness of the GHS.
    OSHA has developed three guidance documents to improve the HCS. The 
first is a guide to performing a hazard determination under the 
requirements of the HCS. An accurate hazard determination is the first 
step to an accurate MSDS and label. The guidance provides details on 
how to identify the appropriate information necessary for a hazard 
determination, and further how to evaluate it and determine what 
hazards are covered. The second document is a model training program, 
which will provide employers with information on how to train their 
employees to understand hazards identified on labels and MSDSs and take 
appropriate precautions. These two documents are currently on OSHA's 
Web Site to allow public comment for 30 days. The third document is a 
guide to preparing MSDSs, and will provide assistance on how to write 
clear and complete MSDSs with a suggested format. The document will 
list sources of information and include suggestions for the type of 
information to complete each section of the MSDS. This guidance will be 
available in draft form on OSHA's Web Site after the comment period for 
the first two documents closes.
    Last October, OSHA signed an alliance with the Society for Chemical 
Hazard Communication, a professional society that promotes improvements 
in chemical-hazard communication. This organization is working with us 
to develop a short course on preparation of MSDSs, directed primarily 
to small businesses that prepare MSDSs. The Society--including more 
than 600 members representing industry, academia, and government--has 
considerable expertise in hazard communication and experience in 
putting together professional-development courses. The Society is also 
working with OSHA on a checklist that can be used to review MSDSs for 
accuracy. A number of other joint projects with this organization are 
being planned.
    In addition to the training and other initiatives described above 
and the development of a review tool such as a checklist, the HCS will 
also continue to be a focus of OSHA enforcement. While violations of 
HCS provisions are often cited during inspections, the accuracy of 
information is not the focus of these citations in most situations. 
Therefore, OSHA is developing an enforcement initiative for compliance 
officers to review and evaluate the adequacy of MSDSs. Under this 
program, the Agency will choose a certain number of chemicals, and 
following the requirements in the HCS, identify some critical elements 
(phrases, words, etc.) that should appear on an accurate MSDS. 
Compliance officers would use this information as they encounter MSDSs 
for these chemicals at worksites. Where MSDSs are found that do not 
contain these critical elements, OSHA will notify the manufacturer in 
writing of the deficiencies or inaccuracies. Manufacturers will be 
required to correct and update their MSDS. They will then have to 
respond to OSHA and inform the Agency of the steps taken to correct and 
update their data sheet. Those manufacturers that fail to respond or do 
not update their MSDS can potentially be cited under the HCS.
    In addition, compliance staff and the public are being made aware 
of the availability of International Chemical Safety Cards on OSHA's 
Web Site. These cards are similar to MSDSs in terms of the information 
provided. They are internationally developed and peer-reviewed, cover 
over 1,300 substances, and are available in fourteen languages. They 
are a good screening tool to be used when reviewing MSDSs on covered 
substances, and are going to be modified to be consistent with the GHS 
classification criteria and MSDS format.
    OSHA has a great deal of hazard-communication information available 
on its Web Site. We have established a portal page to consolidate this 
information and allow access directly from OSHA's homepage. This will 
make it easier for the public to find the HCS, and guidance and 
compliance-assistance materials involving the standard. Other sources 
of information helpful to employers and employees will also be 
accessible through the portal page. OSHA expects that almost 50 million 
visits will be made to its Web Site this year.
    In the long-term, global harmonization of chemical information and 
labeling will improve communication of chemical risks. Standardized 
presentation of information on labels and MSDSs throughout the 
industrialized world can address many of the concerns about 
comprehensibility of chemical-hazard information. Consistent 
presentation of information would simplify the task of reviewing MSDSs 
for accuracy, allowing those who prepare and review the documents to 
find missing elements more easily and OSHA compliance officers to 
examine MSDSs more efficiently when conducting inspections. OSHA has 
worked with the international community on global harmonization since 
the HCS was promulgated. In addition to the benefits associated with 
improved comprehensibility and communication, implementation of the GHS 
around the world could also facilitate international trade in 
chemicals. In the United States, there would also be a benefit of 
domestic harmonization if all of the affected agencies adopt the GHS. 
To increase awareness of the GHS, OSHA is preparing a guide on the 
classification and labeling system that was adopted by the United 
Nations in December 2002. The United States is now considering adoption 
of the GHS. Further information about the GHS is available on OSHA's 
Web Site.
    Mr. Chairman, it is not surprising that problems arise from time to 
time when there is such a large universe of chemicals and there are 
millions of workers exposed to these substances. I believe that the 
steps I have outlined today will actively address the problems that you 
and others have pointed out and will significantly raise awareness 
among both employers and employees of the need to provide information 
on chemicals used in America's workplaces. I will be happy to answer 
any questions.

    Senator Enzi. Thank you very much for your testimony. It 
has been very helpful to have you go over the number of things 
that you have been working on with this. I know that you have 
been pushed a lot by Ron Hayes to do it, but you have been 
extremely responsive on it and I think have some great ideas. I 
do have a few questions.
    I want to congratulate you for the guidance materials that 
you are providing so people can do these sheets better and the 
model training program that you have. I will be anxious to see 
how that works and how it gets revised, because I know a first 
product is never a final product, either. But I think those 
will make a tremendous difference.
    Compliance assistance and training are keys to preventing 
injuries and illnesses in the workplace, and I know that small 
businesses particularly have very limited resources and are in 
most need of assistance. You mentioned some things. If you 
could reiterate those and also tell me what OSHA is doing to 
make its compliance assistance and outreach efforts more 
effective for small business, I would appreciate it.
    Mr. Henshaw. Mr. Chairman, as you know, we have created 
over the last year and a half a new Office of Small Business, 
and that office is directing a lot of our compliance assistance 
efforts to deal with the issues that small businesses have to 
deal with in respect to complying with our standards. And 
obviously a critical one is the Hazard Communication Standard.
    So we are working closely with that Office of Small 
Business. And the materials that we have up on our website--we 
have two draft documents that are up for review currently. One 
is the training materials or model training program, as well as 
the hazard determination guidance. Those documents are prepared 
to help small business make some of these critical decisions as 
to what is a hazard and how to make those determinations, as 
well as how to properly train their employees based on the 
labels and MSDSs.
    I would like to clear up the understanding of the intent 
behind the Hazard Communication Standard and the purpose behind 
the Material Safety Data Sheets. The Material Safety Data 
Sheets are not the only tool by which an employer communicates 
to his employees as to hazards in the workplace. They are one 
of the tools they should use.
    So the model training program is a way to take the 
information that the employer has, small or large, and 
disseminate the right information and communicate the right 
information to the employee so the employee knows what the 
hazards are based on, the information the employer has and the 
employee has that is included in the MSDS and the label.
    So just purely laying down an MSDS to an employee and 
saying you have been properly trained is inadequate. There is a 
training process. There is a communication process. There is an 
understanding process that must take place.
    So the model training program is geared to help the 
employer, specifically the small employer, to make that 
communication as effective as he possibly can. What we like to 
do through our alliances is to develop model training programs 
from this larger program that we have up on our website now, 
hone it down specifically to small business or to a small 
business sector so that they can communicate more effectively 
to their employees.
    This is what we hope to do through our alliances and other 
partnerships that we have underway at the present time.
    Senator Enzi. By honing it down--I know we talked about the 
650,000 different chemicals out there, and on any one job site, 
they are not going to come in contact with nearly that many--so 
are you talking about making it more specific by type of job? I 
am not sure I understand the concept on honing it down.
    Mr. Henshaw. Generally, if it is a construction site, you 
may see various different exposures or potential exposures, 
depending on the tasks being performed. And the employer's job 
is, based on those tasks that the employee will perform, to 
make sure the employee understands what those hazards are and 
takes the appropriate precautions.
    So it may be a task-oriented program, or it may be this is 
the job we are hiring you for, there are four different tasks 
that you are going to be performing in this job, and each one 
of those tasks may involve this chemical or that chemical, and 
here are the precautions you need to take as a result of using 
those chemicals. The basis for those cautions, the basis for 
that communication, will be the label and the MSDS.
    Senator Enzi. That sounds like it will be a tremendous help 
to small business. Going back again to when I was doing some 
training in that area, the important thing was to make sure the 
employee was safe and knew what to do in case of a problem, and 
I really did not find the sheets to be all that helpful. I did 
find that if they could find them, then we would not be fined 
by OSHA.
    I appreciate your explanation on the honing down, and I do 
hope everybody will look at that website. As I mentioned, I 
have seen these MSDS sheets with complex terminology that I 
think only a Ph.D. in biochemistry could understand, and even 
if it is accurate, if the employee does not understand it, it 
is probably not going to do any good.
    I also ran into some employees who had very limited English 
capability, and I wondered what the OSHA plan was doing to make 
these sheets more easily understood by workers, including those 
with more limited English proficiency. Is there an effort that 
way, too?
    Mr. Henshaw. I think that is going to be addressed to a 
great extent in the model training programs. As you know, in 
our Hazard Communication Standard, English is the preferred 
language. It was primarily established as we received products 
from outside the U.S. We wanted to make sure that at least we 
had a common language, an MSDS in our common language here in 
the U.S., so we would not receive a Chinese MSDS and be 
required to translate that here in this country.
    So English is the primary language according to the Hazard 
Communication Standard. I do not think it is feasible to 
require a different MSDS in every conceivable language that we 
may have in this country. I do not think that is a doable 
process. What we do require--and this is why this is a 
performance-oriented standard--is that the employer, as he 
takes the MSDS--and again, we need to make sure it is accurate, 
because if the employer is working off of an inaccurate MSDS is 
communicating inaccurate information no matter how they are 
communicating to the employee--so we have got to make sure from 
the very beginning that the MSDS is accurate. Now it is the 
employer's job to communicate in whatever language, whatever 
technique, whatever process is appropriate so that the employee 
understands the hazard and knows what precautions to take.
    We have some tools that can help the employer make this 
translation or make this bridge if the employee does not 
understand English as well as, obviously, the communicator. We 
have these international chemical cards, which are also on our 
website, and about 1,300 different chemicals are included in 
those, in 14 different languages. They are also a way that we 
can communicate in different languages to employees. However, 
they are not part of the MSDS, but they are a technique that 
the employer can use, and as I said, they are available to any 
employer if they want to pull those down.
    But it is the employer's responsibility to communicate to 
that employee, and if that employee only understands Spanish, 
we need to make sure that we have the communication done in the 
language, or in a technique--it could be pictures, it could be 
some other process--that the employee understands, because the 
most important part is that the employee understands what the 
hazards are and how to protect himself.
    Senator Enzi. Excellent. I will shift gears now, because 
part of it is getting the right information on the data sheets 
to begin with. Is there a mechanism by which OSHA can better 
detect consistent problems in the way a manufacturer or 
importer prepares those Material Safety Data Sheet? How do you 
go about checking the sheets themselves?
    Mr. Henshaw. Yes, sir. We have had a process under way, and 
we are going to reenergize that and improve on it, which is 
part of this initiative, on the enforcement part. We are going 
to do several things. One, using our partners in the alliance, 
we are going to identify a checklist or complete a checklist on 
various compounds, and as the OSHA inspector visits that 
location, he will use this checklist to make sure these MSDSs 
have the right phrases and the right information on the MSDS. 
If they find there is a problem there, that they are not using 
the right phrase, or it is inaccurate, we will, through our 
phone and fax investigation process, communicate back to the 
supplier and ask the supplier to respond. If the supplier does 
not respond or does not provide the right information as far as 
updating their MSDS and prove that they are updating their 
MSDS, they are subject to violation under the Hazard 
Communication Standard.
    The other thing we are asking is that employers, especially 
small employers, if they have a question around the accuracy of 
their MSDS, they ought to come to us; they ought to refer that 
to us and let us contact the supplier and ask the supplier to 
respond appropriately in respect to the accuracy of the MSDS.
    Senator Enzi. This brings me to the other area of interest, 
which is how does the employer know that he has the latest 
sheet.
    Mr. Henshaw. That is a difficult issue. We hope through our 
guidance material on our website, not only the hazard 
determination but also model training, as well as the future--
the one that we do not have yet, but we will be posting it 
after we get the comments from the other two--on how to prepare 
MSDSs, as well as the international cards. I mentioned the 
international cards. There are 1,300 chemicals addressed there, 
and the small employer can also refer to that and see if those 
phrases are included in their MSDS, and if they are not, we may 
have a problem in the accuracy of that MSDS, and they should 
call us.
    So that is another tool from our website.
    Senator Enzi. I guess I am not quite clear on this, because 
when we talked about how you find out if there is a consistent 
manufacturer or importer consistently making inaccuracies in 
their data sheet, it sounds like it comes down to the field 
inspections where you are checking the sheets in the field to 
see if there is an inconsistency there. There is not some kind 
of clearinghouse where they can see if they are using the right 
form, and it is clear enough, before it gets out to the worker?
    Mr. Henshaw. We do not have that process. I mean, we do not 
require suppliers or importers to send us copies of their 
MSDSs, so we do not have that information. The only way we will 
know what is out there is to go into the individual workplace 
and examine those MSDSs. That is the only process we have.
    Senator Enzi. If the employer downloads from these 1,300 
different chemicals they have, are those sheets acceptable as 
opposed to the one from the manufacturer directly?
    Mr. Henshaw. These are not MSDSs.
    Senator Enzi. OK.
    Mr. Henshaw. These are not model MSDSs. These are sheets 
that cover relevant phrases and hazard determinations. They 
would not be considered a complete MSDS. But they are sources 
of information that the employer can look at and see if--if it 
is supposed to say respiratory sensitization for a certain 
compound, like isocyanide, they will see that on one of the 
1,300 cards out there, and if the MSDS that they have from 
their supplier, they know there is a discrepancy. But these 
1,300 cards would not be considered as an MSDS.
    Senator Enzi. OK. It still sounds like quite a burden on 
the small business, which is what I am trying to get around. I 
appreciate that you have done the website, and I see some 
tremendous potential for the website, but only if it can be 
accessed for some of these sheets, or if there are providers 
that could do that, particularly electronically. I was not just 
doing a pitch for a company from Wyoming. I know that when we 
had the September 11th problem, they donated a lot of their 
electronic devices to the first responders in New York, and 
first responders particularly have a huge problem because they 
are not normally working at that site and may now know what 
chemicals are at that site and consequently may not have the 
data to be able to handle the situation; but if they have these 
electronic devices that have a whole range of things in there, 
and they can just type in the name of whatever they determine 
to be the chemical or the characteristics of what they are 
seeing, and the computer rifles through it and suggests what it 
might be and asks some additional questions to more carefully 
identify it, and then, when it has been identified, asks more 
questions to the extent that a person can answer them, and they 
plug those in, and then it gives you as much of an indication 
of what to do as possible, seems to me to be really the only 
kind of technique that stands a chance, because a first 
responder carrying a 5-pound notebook around just is not going 
to happen, and then having to do the look-up process, because 
you do not know whether it is by the name of the company, the 
name of the chemical--I am just trying to convey a little bit 
how difficult this is for the employer out there and the worker 
out there.
    So I am hoping that through your electronic mechanisms, 
there are ways that employers could download actual MSDS sheets 
that would comply and answer the questions as best possible--
and I do not expect an answer to that; I am just giving a 
suggestion.
    Mr. Henshaw. Senator, with respect to helping small 
business, another avenue we have is of course our consultation 
services. We have 54 different consultation units around the 
country in all States and territories, and they are there for 
small employers to call if they have questions, and that is 
free service. So I would encourage small employers to contact 
our consultation services, and we have those numbers and 
addresses on our website, so if they need information or if 
they have a question, they should be calling our consultation 
services.
    Senator Enzi. Excellent. It is always nice to have somebody 
on the other end of the phone line.
    Now, the Chemical Safety and Hazard Investigation Board 
investigates major chemical accidents, and according to the 
Chemical Safety Board, they identified inadequate communication 
as a contributing cause in 9 of the 19 cases that they 
investigated. How do OSHA and the Chemical Safety Board 
coordinate their efforts to address this hazardous 
communication problem?
    Mr. Henshaw. The Chemical Safety Board has done its part. 
We have an MOU with them as to how we will communicate and 
respond, and they have already submitted their recommendation 
and highlighted the issue about inaccurate MSDSs. So that has 
been communicated. Now our job is to take that and do something 
with it, and this initiative that we are embarking on now is an 
effort to address that.
    What I hope is that as they continue on with their 
investigations--and my hope is fewer and fewer and fewer 
investigations--but as they uncover other issues around MSDSs, 
we need to know about it, and I am sure they will communicate 
to us.
    So based on their recommendations that were submitted some 
time ago to us, this initiative is intended to address those 
problems.
    Senator Enzi. And of course, the Chemical Safety Board is 
not the agency working on some of these things; there would 
also be the Environmental Protection Agency and the Department 
of Transportation and the Consumer Product Safety Commission--
and there are probably a whole bunch of others.
    How are you working with these other agencies particularly 
regarding the Globally Harmonized System?
    Mr. Henshaw. In respect to the Globally Harmonized System 
or the GHS, we have been active in that process, and for the 
last pretty close to 15 years it has been in discussion. And 
Jennifer Silk, who is behind me, is world-renowned in this area 
of harmonizing as well as hazard communication. She has been 
actively involved in the process of getting this harmonization 
initiated and to reach some sort of conclusion, and the 
conclusion was the recommendation from the United Nations, as 
you mentioned, in December 2002 to go forward with the 
implementation of the GHS system.
    OSHA is not the only agency involved in that process. DOT, 
EPA, the Consumer Product Safety, and a number of other 
agencies will have to be players in this as we determine how 
the United States will respond to this recommendation from the 
United Nations.
    We have been actively involved in discussions with the 
various agencies, and we need to continue to pursue that. The 
deadline or the target date that the United Nations has 
established is 2008, and that is coming very quickly.
    Senator Enzi. Thank you very much for your testimony this 
morning, and we will leave the record open so that others can 
submit questions. This is perhaps too detailed for many, but 
there will be staff members who will be intricately interested 
in this and will help to move the system along.
    I want to congratulate you. I think that not having people 
here asking you a lot of different questions says that you have 
been doing a good job. So thanks to you and your staff, and 
keep up the good work.
    Mr. Henshaw. Thank you, Senator.
    Senator Enzi. I will ask the next panel to come forward as 
I introduce them.
    We have with us today on our second panel Tom Grumbles, who 
is president of the American Industrial Hygiene Association. He 
is a certified industrial hygienist and manager of product 
safety and health for Sasol North America, Inc., an 
international chemical manufacturer. He has been involved in 
the occupational safety and health profession for nearly 30 
years. He will discuss hazard communication from the 
perspective of occupational safety and health experts.
    As the manager of product safety and health for an 
international chemical manufacturer, Mr. Grumbles is also well-
positioned to discuss the global implications of hazard 
communication and the Globally Harmonized System.
    I will do one introduction at a time, and each of you will 
speak, and then we will have questions to the panel as a whole. 
I would ask that you summarize your information so we can keep 
it within the 5-minute time frame, and your entire statement 
will be a part of the record, though, and anything you wish to 
submit after you have heard additional questions or have 
thought of some other things will also be a part of the record. 
We will leave the record open for a while.
    Mr. Grumbles.

     STATEMENTS OF THOMAS G. GRUMBLES, PRESIDENT, AMERICAN 
INDUSTRIAL HYGIENE ASSOCIATION; JON HANSON, DIRECTOR OF SAFETY, 
  WYOMING MEDICAL CENTER, CASPER, WY; ANNE JACKSON, CORPORATE 
  SAFETY DIRECTOR, PEPPERIDGE FARM, ON BEHALF OF THE AMERICAN 
BAKERS ASSOCIATION; MICHELE R. SULLIVAN, CHAIRMAN OF THE BOARD 
 OF DIRECTORS, SOCIETY FOR CHEMICAL HAZARD COMMUNICATION; AND 
MICHAEL J. WRIGHT, DIRECTOR OF HEALTH, SAFETY AND ENVIRONMENT, 
                 UNITED STEELWORKERS OF AMERICA

    Mr. Grumbles. Senator Enzi, we appreciate the opportunity 
to be here representing AIHA to comment on these issues today.
    The good news is that I will depart a lot from my written 
testimony, mostly because Mr. Henshaw has already said most of 
what I wanted to say.
    I think the fact is this is an issue where there are a lot 
of common ideas and common beliefs as to what the issues are 
and what can be fixed.
    It has been over 20 years since OSHA adopted the Hazard 
Communication Standard. There is absolutely no doubt in my work 
every day and I think in most people's minds that it has 
improved the availability and the understanding of information 
on hazardous materials in the workplace. But there is also no 
doubt that as the pressures have grown on what the MSDS as 
meant to do--and it should be stated again that it was never 
meant to be a stand-alone document to create all the hazard 
information in the workplace, that it was meant to be used with 
education and labeling along with it--but the pressures have 
grown on what the MSDS has meant to do and what it has asked to 
do. It has been said time and time again that the intended 
audiences for the MSDS have expanded over time, in some cases 
explicitly by regulation, and in other cases simply based on 
the business demands that are put on chemical manufacturers 
like my company to provide information to our customers.
    Can the MSDSs be better regulated? In our minds and at 
AIHA, it is not clear that additional regulation will 
necessarily improve all the issues associated with MSDSs. 
Existing problems with MSDSs should first be considered in 
light of noncompliance with existing regulations, not the need 
for new regulations. If the conclusion is drawn that additional 
regulatory action is needed, full consideration must be given 
to the Globally Harmonized System to avoid possible concerns 
with international commerce.
    This truly is an international issue. We are in a global 
economy--nobody can argue with that. And as an international 
chemical company, I see the problems we have every day trying 
to communicate in different regions of the world with MSDSs for 
in essence the same product or the same chemical produced in 
different regions of the world.
    It truly is an international problem, and we need to work 
on it together with the rest of the industrialized countries of 
the world to solve it. So I think our first point would be 
please, if additional regulation is anticipated, it should be 
done with full recognition of the Globally Harmonized System.
    On the issue of competency of MSDS writers, hazard 
communication does not address that issue. There is nothing in 
there about qualifications needed to prepare MSDSs. Clearly, we 
believe the quality, accuracy, and usefulness of MSDSs can be 
improved by increasing the competency of MSDS authors through 
development of appropriate and practical guidelines on the 
preparation and aggressive outreach on those guidelines.
    Nobody who does what I do went to school to get a degree on 
writing an MSDS. There are few programs you can go to to learn 
how to do that. It really does come from experience and using 
whatever scientific background you have to learn how to do 
that.
    So we are faced with a situation, and I do believe that the 
impact on small business is disproportionate in terms of the 
technical resources needed and available to write the MSDSs.
    I think that working with the many OSHA alliances, not just 
SCHC, but with all the alliances together, we can probably 
create a greater market force, in essence, for the quality of 
MSDSs. Providing information to people who must use them to 
help them understand and evaluate the quality of the 
information they receive, and encouraging them to go back to 
their suppliers to ask for good MSDSs, I believe could in 
essence create a market force that will help to improve the 
quality of the MSDSs.
    The impact on small business must be considered, and 
certainly the outreach that we have heard about already this 
morning and working further through the alliances that OSHA has 
developed throughout the last 2 years can perhaps provide that 
aggressive outreach to small businesses, and perhaps through 
the combined efforts of experts in the field, the alliances and 
the small baseness development centers, we could create that 
outreach network to improve the understanding of, the quality 
of the MSDSs, as well as improve the competency and the work of 
the people who must write those and provide them to the 
consumers of chemicals.
    The Globally Harmonized System clearly addresses a number 
of the issues raised regarding the current Hazard Communication 
Standard requirements. The major goal of the GHS is to improve 
the quality and consistency of chemical hazard information; 
creating a more consistent format so that people know, 
regardless of where they are, what region they are in, what 
page on the MSDS would have the most important information; 
creating a system that provides more consistent hazard 
communication phrasing, so that, to be honest, we can get rid 
of some of the adjectives and modifiers and other things that 
go into most MSDS statements that leave you generally with the 
conclusion in many cases that we are not sure if this is 
hazardous or not, but we are providing you all this wonderful 
information; providing a more consistent methodology to do 
that, down to the point of actually consistent pictograms so 
that you can begin to deal with the language issue. Those 
things that are embodied in the GHS we believe certainly can 
move toward improving the quality, the consistency, and the 
information that is in the MSDS for the ultimate user of that 
information.
    That still does not necessarily deal with the competency of 
the MSDS writers, and once again, we certainly applaud the 
efforts of OSHA on the outreach and believe that OSHA can work 
even more aggressively with all the alliances they have to get 
this information out, and particularly to assist small 
business.
    OSHA had stated that the original approach to hazard 
communication, training, labels, and MSDSs was based in part on 
information regarding communication theory. AIHA would suggest 
that there probably is a need for a review of the most current 
science of communication and perhaps new scientific studies to 
determine the comprehensibility of model language for each of 
the target audiences that we know the MSDS must now reach.
    So AIHA certainly stands ready to assist you, Congress or 
OSHA and others, in every possible way. We also have an 
alliance with OSHA, and we will be happy to work with them 
through that alliance as well as work with the other alliances 
to try to assist in this, what we believe to be an essential 
outreach effort that is needed.
    We thank you for the opportunity to comment.
    Senator Enzi. Thank you very much.
    [The prepared statement of Mr. Grumbles follows:]

                Prepared Statement of Thomas G. Grumbles

    My name is Tom Grumbles and I am President of the American 
Industrial Hygiene Association (AIHA). I am a certified industrial 
hygienist and have been involved in the occupational health and safety 
profession for nearly 30 years. I am also the Manager of Product Safety 
and Occupational Health for Sasol North America, Inc., an international 
corporation involved with chemical manufacturing. I appreciate the 
opportunity to appear before this hearing of the Senate Subcommittee on 
Employment, Safety and Training and provide testimony on the issue of 
Material Safety Data Sheets (MSDSs) and hazard communication. I would 
ask that my entire written testimony be inserted into the record.
    Before I begin Mr. Chairman, I would like to take this opportunity 
to thank you on behalf of both employees and employers who desire a 
healthy and safe workplace for your past and present involvement in 
occupational health and safety. Your leadership is crucial if we are to 
improve this country's record of workplace-related injury and illness 
that affects workers and their families and impacts our communities. I 
applaud your efforts.
    The American Industrial Hygiene Association (AIHA) appreciates the 
opportunity to provide input and offer recommendations in support of 
the overall goal of this Senate hearing to address improving the 
accuracy, quality, and maintenance of Material Safety Data Sheets 
(MSDSs). Founded in 1939, AIHA is a nonprofit international 
organization comprised of 12,000 members and more than 75 local 
sections. AIHA's more than 30 technical committees deal with the health 
and safety challenges facing occupational health experts and workers 
everywhere. AIHA's Stewardship and Sustainability Committee is an 
active participant in the development of the revised ANSI Standard on 
MSDS Preparation Z400.1.
    AIHA shares the concerns that inaccurate, incomplete and outdated 
MSDSs can increase risks of illnesses and injuries and environmental 
consequences arising from the handling, storage, transportation and use 
of hazardous chemicals. Industrial hygiene, safety, emergency response 
and environmental health professionals rely on MSDSs as a source of 
information to assist employers and employees properly manage hazardous 
chemicals.
    It has been almost 20 years since the Occupational Safety and 
Health Administration (OSHA) adopted the Hazard Communication Standard 
with its provisions for development and distribution of MSDSs for 
hazardous chemicals. As originally intended, a MSDS was not meant to be 
a stand-alone document. It was part of an overall hazard communication 
program designed to include labeling and, perhaps most importantly, 
training in the hazards and use of labels and MSDSs. The target 
audience for MSDSs at that time was employers, employees, industrial 
hygiene and safety professionals and occupational physicians and 
nurses. We believe there is little doubt that the implementation of 
this standard by chemical producers and employers has improved the 
availability and understanding of information on hazardous chemicals in 
the workplace. In fact, the provision of MSDSs and labels is a standard 
business practice today, even resulting in many employers having MSDS 
requirements for everything they purchase, including products that are 
not hazardous as defined by the hazard communication standard.
    Today, audiences for MSDSs continue to expand beyond the workers 
handling chemicals, IHs, and others. Target audiences now include 
emergency response personnel, environmental professionals, R&D 
chemists, process engineers and product stewards. The content of MSDSs 
attempting to meet these needs varies and the value to target audiences 
needs to be improved.
    In addition, we are now in a truly ``global economy'' where 
international cooperation and harmonization is required. If MSDSs are 
to remain a valuable tool in the protection of workers and others, all 
industrialized countries must work together to see that they contain 
the most reliable and accurate data available. The quality and accuracy 
of MSDSs is an international one and we should work on international 
solutions.
    Last October it was reported that in the ECLIPS (European 
Classification and Labelling Inspections of Preparations) project 
participating countries evaluated the data of about 900 inspected 
preparations in about 200 companies. The goal of the project was to 
inspect companies and their handling and labelling of preparations 
containing dangerous substances. The emerging results of the ECLIPS 
project show that only 38 percent of the labelling and 25 percent of 
the safety data sheets were fully correct. There have been similar 
studies in the US with similar results.
    To address the problem we are discussing today, questions need to 
be asked:

Can MSDSs Be Better Regulated?
    It is in no way clear that additional regulation will improve the 
accuracy and quality of MSDSs. Events cited as highlighting the 
problems with MSDSs should first be considered in light of 
noncompliance with the existing regulations, not the need for new 
regulations. If the conclusion is drawn that additional regulatory 
action is needed, full consideration must be given to the Globally 
Harmonized System (GHS) to avoid possible concerns with international 
commerce.

Is the Existing Hazard Communication Standard too Generic?
    AIHA does not believe the hazard communication standard is too 
generic, but there are areas where it can be improved. AIHA supports 
the overall goals of both the ANSI Standard on MSDS Preparation Z400.1 
and the GHS in that they improve the quality of the MSDS by 
establishing a structure and providing meaningful recommendations on 
content. However, caution is warranted because following ANSI 
guidelines or GHS will still not ensure that information is accurate or 
reliable.

Can the Competency of MSDS Writers Be Regulated?
    The Hazard Communication Standard does not address what 
qualifications are needed to prepare MSDSs. The disparity in the 
qualifications of MSDS preparers is one significant reason for the 
disparity in the quality of MSDSs. There are no degrees in this type of 
product stewardship work, so experts in label and MSDS requirements 
usually come from backgrounds such as chemistry and industrial hygiene 
and receive on-the-job training. There are few recognized courses 
available for those newly tasked with writing MSDSs.
    AIHA believes that the quality, accuracy and usefulness of MSDSs 
can be improved by increasing the competency of MSDS authors and the 
development of appropriate and practical guidelines on the preparation 
and maintenance of MSDSs. It is essential that MSDS authors have both 
the necessary technical skills to write MSDSs and the tools necessary 
to ensure that MSDS information is accurate and written in clear and 
understandable language.
    AIHA recommends consideration of a nonmandatory appendix to the 
Hazard Communication Standard (29 CFR 1910.1200) that addresses 
training guidelines for MSDS authors. This action, coupled with an 
aggressive outreach effort by OSHA to develop and provide resources to 
accomplish such training, seems essential at this point. OSHA 
recognizes the need for this Compliance Assistance outreach in its 
recent document titled ``Hazard Communication in the 21st Century''. In 
that document OSHA speaks of the alliance with the Society for Chemical 
Hazard Communication. AIHA believes that work with this alliance is not 
enough. OSHA should work through its alliances with AIHA, the American 
Society of Safety Engineers, and many others to create a wide 
recognition of the issues and needs, and the outreach materials that 
are part of the solution.
    Working with the many OSHA alliances with groups representing 
companies that are a recipient of MSDSs, and who rely on this 
information, could create a greater ``market force'' for quality MSDSs. 
Alliances and partnerships between regulators, professional 
organizations, universities, educators, and the regulated community to 
develop best practices and metrics would serve to improve the current 
situation. Considering the 10 years it took to finalize the first 
hazard communication standard these types of efforts should be much 
more efficient than new regulation in improving the situation with 
MSDSs.
    This issue also has a significant impact on small business where 
technical resources may be limited. To address this problem, AIHA 
believes that outreach assistance on MSDS and hazard communication 
should be provided to small business. This assistance could be 
accomplished through combined efforts of experts in the field, perhaps 
utilizing the existing Small Business Development Centers.

Should There Be Different MSDSs for Employers and Employees?
    The AIHA fully supports one MSDS format for all target audiences. 
The AIHA encourages the use of international standards/guidelines 
(including recommended phrases and symbols) that allow MSDS preparers 
to communicate hazards in an understandable way to each of the various 
MSDS users. The AIHA recognizes that providing information on an MSDS, 
beyond that required by the OSHA Hazard Communication Standard, is 
necessary to fulfill needs of the variety of target audiences (e.g., 
transportation, global inventory status, waste disposal information). 
Specific formatting and content guidelines or regulations can 
facilitate this need. One must remember that the MSDS is a reference 
document meant to be used with education and labeling to communicate 
hazards. It is not meant to be a stand-alone document.

How Does the Existing MSDS System in the United States Interact With 
        the United Nations Global Harmonization Standard (GHS)?
    Since the US is both a major importer and exporter of chemicals, 
the manner in which other countries choose to regulate has an impact on 
the protection of workers in the US as well as on possible barriers to 
international trade in chemicals, and vice versa. The GHS clearly 
addresses a number of the issues raised regarding the current Hazard 
Communication Standard requirements.
    The GHS is intended to accomplish a number of objectives. A major 
goal is to improve the quality and consistency of chemical hazard 
information. It is also anticipated that the GHS, if implemented, will 
facilitate international trade in chemicals and provide a recognized 
framework for those countries without an existing hazard communication 
system.
    A standardized 16-section format is established for safety data 
sheets to provide a consistent sequence for presentation of 
information. With the exception of the order of two headings being 
reversed, the harmonized data sheets are the same as the ANSI standard. 
Items of common interest to workers are presented at the front of the 
document, while more technical information is presented later. Headings 
for the sections (e.g., First Aid Measures, Handling and Storage) are 
standardized to facilitate locating information of interest. Thus, with 
the exception of differences in language, only one label and one data 
sheet would be necessary for national and international commerce for 
any given product.
    The GHS establishes standardized criteria for determining the 
health, environmental, and physical hazards associated with chemicals. 
GHS establishes standardized and more detailed requirements for labels 
and safety data sheets, including consistent use of pictograms (e.g., 
skull and crossbones), signal words (e.g., Danger), and harmonized 
hazard statements (e.g., Fatal if Swallowed). Under this approach, 
employers would know exactly how to convey the hazards of the chemical 
once they complete the hazard classification. The harmonized label 
elements are provided for each hazard category and class within that 
category.
    The details of the elements of the GHS are still being worked out, 
but the AIHA supports the overall goals of the GHS. However, if the GHS 
is to be adopted in the United States, it would undoubtedly require 
Federal rulemaking. This Federal rulemaking would also likely have to 
include more than one Federal agency. And last, prior consideration 
must be given to the stakeholders involved in the issue. Such a list of 
stakeholders is extensive (i.e., MSDS preparers, employers, employees, 
occupational health and safety professionals, emergency response 
personnel, process engineers, R&D chemists) and should be discussed 
prior to any movement toward rulemaking.

What About the Science of Hazard Communication?
    OSHA has stated that the original comprehensive approach to hazard 
communication, training, labels and MSDSs together was based in part on 
information about communication theory that was identified during the 
rulemaking. For example, the more information that appears on a label, 
the less likely it is that someone will read it and use it.
    The AIHA suggests that there is a need for a review of the most 
current science of communication and perhaps new scientific studies 
that determine the comprehensibility of model language for each target 
audience. Scientific studies
    that demonstrate efficacy of language to the target audiences could 
greatly improve MSDS effectiveness.
    Mr. Chairman, when these questions are addressed, I believe the US 
will have taken the correct path to ensure that valuable information 
and guidance is provided to IH professionals and others that utilize 
MSDSs to anticipate, recognize, evaluate and control workplace 
exposures and for those that prepare MSDSs.
    AIHA believes that industrial hygiene professionals have a key role 
in improving the quality and value of information available on a MSDS. 
We intend to educate our members and others about the current 
activities related to the preparation and use of MSDSs, including 
efforts to increase their quality and utility, implementation of a 
globally
    harmonized approach to their presentation, and updating the 
existing voluntary consensus standard that provides guidance for 
development.
    In closing, AIHA stands ready to assist you, Congress, and others 
in every possible way. Together we can move MSDSs into the 21st century 
workplace.
    Again, I appreciate the opportunity to appear here today and 
provide some of my experience and knowledge. At this time I would be 
more than happy to answer any questions you may have. Thank you.

    Senator Enzi. The next person to testify is Jon Hanson, who 
is director of safety at the Wyoming Medical Center in Casper, 
WY. Mr. Hanson will discuss the issues he has faced in 
protecting hospital workers from chemical hazards.
    Mr. Hanson.
    Mr. Hanson. Thank you, Mr. Chairman, for inviting me to 
testify this morning.
    I am the director of safety at the Wyoming Medical Center 
in Casper. It is my honor to appear before you today and help 
you better understand the issues that I confront on the front 
lines daily in hospital risk management.
    Before I discuss recommendations that I have for improving 
the Federal Hazard Communication Standard, I would like to 
share some personal stories of why I believe these improvements 
are necessary in the first place.
    At our facility, we inventory over 2,500 chemicals 
representing more than 20,000 pages of MSDSs. They are manually 
archived into 26 4-inch binders. These sheets are developed to 
inform me and my fellow employees to include physicians, 
nurses, cooks, and even environmental service workers of the 
potential physical and environmental risks, hazards and threats 
for each chemical.
    You can just imagine the chaos that ensued when two gallons 
of a chemical, xylene, was spilled in my lab. By the time the 
hospital employee had noticed that the spill had happened, the 
HVAC system had picked it up and sucked it into the 
ventilation. Not knowing that xylene was heavier than air, she 
decided, by the time she realized it was there, she was going 
to call engineering and just clean it up with solid waste rags.
    During this time frame, it had suspended in the ceiling 
tile over our radiology department and sent 12 people to the 
emergency room for exposure. So in essence, she took solid 
waste rags known for spontaneous combustion, not knowing as 
well that xylene had a flash point of 75 degrees fahrenheit, 
cleaned up this chemical and put it into a plastic bag full of 
air and walked it to our incinerator room.
    During this process and what led her to do this is she 
became frantic and started trying to thumb through the MSDS 
book in her area, unable to find xylene, and when she did find 
xylene, there were eight different types of xylene based off 
the percentages.
    All I can say is she was very frantic. She kept stating 
that she could not find the MSDS, she could not find the MSDS, 
and when she found it, she could not understand it.
    Mr. Chairman, this story is not unique. Every workplace 
that houses chemicals has potential victims. What happened to 
my employees can happen to anybody. And ironically, the system 
which was designed to promote chemical safety in the workplace, 
the MSDS, is actually contributing to the fear that hospital 
employees endure on a daily basis.
    With this as a backdrop, I urge the subcommittee to 
consider my recommendations. One, plain and simple, the 
regulations governing HAZMAT communications in the workplace 
are too lengthy, much too vague, and way too confusing to 
effectively empower me to do my job. I recommend that Congress 
work with OSHA to provide workplaces with the clear and 
specific means of complying with the standard.
    My job is to ensure the safety of the entire facility, all 
the staff and anyone who enters, including patients. I should 
be spending my time on those critical responsibilities, not 
trying to interpret the technical language in the Federal 
regulations.
    I have seen MSDSs ranging in length from a single page all 
the way up to 65 pages. Manufacturers use their own formats to 
detail the information required by the Federal law. They are 
written defensively and in a language too technical for an 
audience that needs to rely on the ability to act quickly in 
case of an incident.
    There is no doubt we are dealing with a multilingual and 
somewhat illiterate society. We have to be able to educate 
these people, and they have outlined the educational 
requirements, saying here is what you need to educate. However, 
OSHA has no vertical as far as competencies or documentation of 
education. There is no safeguard to put in place where the 
employer says, okay, I have to document and retain these 
records of education for a duration of time--now, if you are 
exposed, yes, there are mandates--but there is nothing that 
says the employer has to document that he has educated and that 
the employee has a level of competency for understanding. So 
this again puts it back on the employee to be able to decipher 
what is going on.
    The new format should be a single page for each chemical. 
Potential hazardous chemicals, safety precautions, emergency 
response and first aid could be easily documented on a single 
page or sheet, written in sixth-grade language.
    An appendix to my testimony includes a six-page MSDS for a 
chemical, glutaraldehyde. It includes a much more sufficient 
version of an MSDS that was developed by a chemical 
categorization company in Arizona. My hospital has used this 
version for the past 2 years, and it has created a magnitude of 
efficiencies.
    I think that instead of looking at how are we going to 
train on the work process, we need to train on the chemical 
categorization. For emergency response people, it is the same 
thing--they need to know if it is flammable, combustible, 
oxidizer, and if not, they refer to their ERG for clean-up 
instead of trying to figure out what is what off the MSDS.
    In my hospital lab, all the employees are required to be 
trained on the safety and potential risk for each of the 
chemicals in the facility. In our lab, we house 800 chemicals 
and we have 40 FTEs, and again in the lab, we have MSDSs that 
go all the way up to 65 pages, in the event that a chemical 
changes, or additions or subsequent training is required.
    For improved efficiency, I recommend that Congress work 
with OSHA to develop a standardized training program based on 
chemical categorization. It cannot be disputed that the 
650,000-some chemicals used today fall into much smaller 
categories. Under the category-based training program, less 
time would be necessary to train staff on these risks and 
interventions, without compromising the safety and training of 
the people who use them, the end-users.
    Education is only the first step. Labeling comes into it as 
well. When you take a chemical from its original container and 
put it into a secondary container, it has to be labeled with 
all the same requirements. What happens--if you picture a 
plastic glass or a plastic cup here, you put masking tape on it 
and write with a marker on it what it is, and if you can 
interpret the handwriting, that is one thing. The person sets 
it down and walks away. His right-to-know has been established. 
If that chemical spills, and the people who are coming to 
respond to the spill do not know what it is, so they either 
have to wait for that user to come back and identify what it 
is, or they have to expose themselves by picking up the 
container and trying to read this now blurred marker on this 
masking tape. So what is establishing their right-to-know?
    Mr. Chairman, I applaud OSHA's work to start promoting 
workplace safety. However, 20 years have passed since the 
regulations were published, and it is now time to harness the 
power of technology to finish the job. The current MSDSs are 
antiquated, archaic, and they simply do not work. Plus, when 
you talk about the cost to comply with them in a health care 
setting, it is more of a burden than a necessity.
    Information included in these documents is written in a 
language that can even stretch an engineer's capability to 
interpret it.
    Given these liabilities, I strongly urge you to remove the 
complexity of the Hazardous Communication Standard by 
developing a national framework for hazard determination, 
employee training, with competencies, and preparation of 
chemical-related documentation.
    For example, I recently reviewed two cleaning chemicals at 
our facility for approval for use. Each, although from 
different manufacturers, had exactly the same chemical 
information, the same ingredients, make-up, percentages of 
ingredients used. However, one chemical was listed as having a 
health hazard of one, while the other had a health hazard of 
three.
    So it is obvious that things need to be done, and I think 
we need to take a more specific approach to things instead of 
having 50 fires burning in one basket. We need to get back to 
the basics. This is what we need to focus on.
    I thank you for inviting me to testify, and I would be 
happy to answer any questions.
    Senator Enzi. Thank you very much, particularly for the 
examples.
    [The prepared statement of Mr. Hanson follows:]

                    Prepared Statement of Jon Hanson

                              INTRODUCTION

    Chairman Enzi, Senator Murray, and Members of the Subcommittee, 
thank you for inviting me to testify this morning. My name is Jon 
Hanson, and I am the Director of Safety at Wyoming Medical Center in 
Casper, Wyoming. The issue under the subcommittee's consideration this 
morning will have a significant impact on the future of workplace 
safety, and it is my honor to appear before you today to help you 
better understand the issues that I confront daily on the frontlines of 
hospital risk management.
    Before I detail the specific recommendations I have for improving 
the Federal Hazard Communication Standard, I would like to share some 
personal stories about why I believe these improvements are necessary 
in the first place. These two stories, together with the expert 
testimony you will have received by the end of this historic hearing, 
should provide the evidence necessary for the subcommittee to begin 
exploring mechanisms for reform.

                   MSDS: A RECIPE FOR DISASTER PART 1

    As the safety director at Wyoming Medical Center, I am responsible 
for managing the inventory, use, and safety applications for 
approximately 2,500 chemicals. As you know, current law requires me to 
maintain an archive of material safety data sheets, or MSDSs, for each 
chemical in my hospital. These sheets were developed to inform me and 
my fellow hospital employees (including physicians, nurses, cooks--even 
environmental service workers) of the potential physical and 
environmental risks, hazards, and threats of each chemical.
    These MSDSs vary significantly in length. I have one chemical in my 
hospital which has an accompanying MSDS from the manufacturer that is 
one page long. In the other extreme, I have another chemical with an 
MSDS from the manufacturer that is 65 pages long. All of the 2,500 
MSDSs in my hospital fall somewhere between these two in length. This 
represents more than 20,000 pages of MSDSs, which I had manually 
archived in 26, four-inch binders.
    Now, fast forward to July of 2000 when two gallons of the chemical 
Xylene spilled in the lab of my hospital. By the time an employee had 
noticed the spill, the ventilation had already sucked most of the 
vapors into the HVCA. This, in turn, became suspended in the ceiling 
tile over our radiology department. Twelve employees were sent to the 
emergency room. To make the matter worse, the lab employee was 
frantically searching through the MSDS binder in her area for the 
Xylene MSDS. Once she found it, she had difficulty locating the spill 
response section. After notifying our engineering department, she began 
to clean up the spill with solid waste rags, known for spontaneous 
combustion, and placing the rags into a clear plastic bag for disposal. 
She did not know that Xylene has a flash point of 75 degrees 
Fahrenheit. She then walked the bag down to our incinerator room and 
left it there, basically creating a live bomb. Twelve people were 
treated from this exposure. The lab employee was very upset and 
concerned about the safety of the affected employees and visitors, and 
hysterically kept stating that she could not find the necessary spill 
response information.

                   MSDS: A RECIPE FOR DISASTER PART 2

    The next story is equally as frightening. An industry colleague of 
mine recently shared his experience with me in conducting HAZMAT and 
MSDS training on an excavation site for a pipeline company in Colorado. 
He had no more finished the training when a project engineer noticed 
several five-gallon buckets placed in the dirt all along the site. The 
gentleman read the labels on the buckets as he was trained. It read 
``de-greaser, clear, colorless, odorless standard PH.'' He then placed 
his foot on top of the bucket to give him an extra boost to call his 
supervisor over to this find. His foot went directly into the top of 
the bucket, and the substance inside came splashing out. The blue-green 
substance smelled of ammonia and gelled when it hit the ground. The 
chemical was indeed a de-greaser, but not the one on the label. It was 
Monster de-greaser. The facility had extra buckets left over, and used 
them to store other chemicals to be used on the pipeline at a later 
time. Because of the inaccuracies in labeling, the employee ended up 
losing his leg from the knee down.
    Mr. Chairman, Wyoming Medical Center is not unique here. Every 
hospital, healthcare facility, manufacturing plant, and other 
workplaces that house chemicals has potential victims. What happened to 
these employees can happen to anybody. And, ironically, the system 
which was designed to promote chemical safety in the workplace--the 
MSDS--is actually contributing to the fear that hospital employees 
endure on a daily basis.
    I was asked to come this morning to offer specific recommendations 
for changing the Federal Hazard Communication Standard. With my 
personal stories as a backdrop, please consider the following 
recommendations.

         REGULATORY TREATMENT OF TOXIC AND HAZARDOUS SUBSTANCES

    Title 29 of the Code of Federal Regulations, 1910.1200--Subpart Z 
was written to provide me with clarity on how to do an effective job of 
managing hazardous material communications. The problem is the section 
is much too lengthy. Many different sections offer multiple ways to 
comply with the Federal standard. It is a challenge, though not 
insurmountable, to effectively translate the information in these 
regulations to ensure my hospital's compliance with Federal law. Couple 
this with the 64 Federal and State agencies that have each promulgated 
regulations governing my department, and you have a bureaucratic maze 
that is seemingly impossible to navigate. In short, the section is too 
vague and leaves significant margin for error in interpretation.
    I recommend that Congress work with the Occupational Safety and 
Health Administration (OSHA) to provide workplaces with a clear and 
specific means for complying with the standard. My job is to ensure the 
safety of the physical plant and that of the hospital's staff and 
patients. I should be spending my time on that critical responsibility 
and not on trying to interpret the technical language in Federal 
regulations.

                            THE MSDS FORMAT

    As I reported, I have seen MSDSs ranging in length from a single 
page to 65 pages. Every chemical manufacturer uses different formats to 
detail the information required by Federal law. They are written 
defensively, with an eye toward litigation, in a language that is too 
technical for an audience who needs to rely on the ability to act 
quickly in the case of an incident. I have numerous certifications and 
accreditations in engineering, safety, and risk management, and even I 
have a difficult time in interpreting these technical documents. I ask 
you to consider the outcome of a chemical spill when the hospital's 
night environmental service crew, with only basic English language 
skills, happened upon the incident.
    I recommend this morning that Congress and OSHA, in concert with 
industry, work to produce a standardized format for the MSDS in the 
HAZCOM arena. The new format should be a single page for each chemical. 
The following could easily be documented on a single sheet in language 
a 6th grade student could easily understand:
    1. Potential hazards (fire or explosion, health)
    2. Safety precautions
    3. Emergency response (fire, spill)
    4. First aid
    As an example, an appendix to my testimony includes a six-page MSDS 
for the chemical Glutaraldehyde. It also includes a much more succinct 
version of the MSDS that was developed by a chemical categorization 
company in Arizona. My hospital has used this version for the past 2 
years, which has created a multitude of efficiencies. I ask, Mr. 
Chairman, that these be included as part of the hearing record.

                      TRAINING ON CHEMICAL SAFETY

    In my hospital, our laboratory alone houses more than 800 chemicals 
and employs more than 40 full time employees. Each of these employees 
is required to be trained on the safety and potential risks of each of 
the 800 chemicals before they commence working. In the event there are 
chemical changes or additions, subsequent training is required. Couple 
this training requirement with thousands of pages of MSDSs, and chaos 
ensues.
    I recommend that Congress work with OSHA to develop a standardized 
training program based on chemical categorization. Many toxicologists 
and chemists agree that each of the more than 2 million chemicals in 
use today can undoubtedly fall into a much smaller number of specific 
categories, based on their potential hazards, safety precautions, and 
emergency responses. Under a category-based training program, less time 
would be necessary to train staff on these risks and interventions, 
without compromising the safety that the training is designed to 
advance. This would enable staff to spend more time doing the jobs they 
were hired to do, and less time on overly burdensome administration.
    As an example, an appendix to my testimony details the chemical 
categorization program in use at Wyoming Medical Center. We have 2,500 
chemicals at my hospital that can fall into every category. Rather than 
spend time training staff on each of the chemicals, we provide training 
on the identified categories. We have found this to result in 
significant cost savings. I ask, Mr. Chairman, that these be included 
as part of the hearing record as well.

          IMPACT OF HCS REFORM ON GLOBAL HARMONIZATION SYSTEM

    The hearing this morning also provides an opportunity to comment on 
the Global Harmonization System. As you know, international trade in 
chemical products brings differences in hazard determination, criteria 
for defining cutoffs, classifications, as well as language and cultural 
sensitivities. In 1992, an international effort to develop a globally 
harmonized system for hazard classification and labeling was adopted at 
a United Nations conference on Environment and Development. Part of the 
mandate was a globally harmonized classification and compatible 
labeling system, including MSDSs and easily understandable symbols, 
which was to be made available by the year 2000. The United States is a 
member of the development team, but has not yet committed to the 
Globally Harmonized System involving OSHA, EPA, Department of 
Transportation, and many other regulatory agencies.
    MSDSs in the United States, as it stands, is no small issue. The 
original, two-page MSDS has grown to a dozen or more pages. This 
suggests that substantial proportions of MSDSs today have serious 
deficiencies.
    For example, I recently reviewed two cleaning chemicals at our 
facility for approval of use. Each chemical, although from different 
manufacturers, had the exact same chemical ingredients and make up, 
with the exact same percentages of ingredients used. However, one 
chemical was listed as having a health hazard of three while the other 
a health hazard of one. This inadequacy and inefficiency is among the 
current public health problems Congress should work to address.

                               CONCLUSION

    Mr. Chairman, the Federal effort to strengthen the standards for 
workplace safety more than two decades ago should be applauded. The 
pioneering work of OSHA in this regard should be recognized. But 20 
years have passed since these regulations were published, and it is now 
time to harness the power of technology to advance workplace safety 
once and for all. The current paper-based system has run its course, 
and desperately needs to be updated. The current MSDS model is 
antiquated and archaic. We are suffocating under the countless reams of 
paper that are causing more problems than solutions. A majority of the 
MSDSs in use today are inaccurate, and there is no standard for how the 
embedded information is relayed from the manufacturers to the 
workplace. Information included in these documents is written in a 
language that would stretch even an engineer's capacity to interpret 
them.
    Given these liabilities, I strongly urge you to remove the 
complexity from the Hazard Communication System by developing a 
national framework for hazard determination, employee training, and the 
preparation of chemical-related documents.
    Thank you for inviting me to testify, and I would be happy to 
answer any questions.
                               APPENDIX A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               APPENDIX B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               APPENDIX C

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Enzi. Our next presenter is Anne Jackson, who is 
the corporate safety director for Pepperidge Farm. Ms. Jackson 
is testifying on behalf of the American Bakers Association. She 
oversees the health, safety and workers' compensation programs 
for Pepperidge Farm's eight manufacturing plants and its thrift 
stores and sales distribution centers.
    Ms. Jackson will discuss the challenges for effective 
hazard communication in her facilities.
    Ms. Jackson.
    Ms. Jackson. Thank you. Good morning.
    As you said, my name is Anne Jackson. I am the corporate 
safety director for Pepperidge Farm, and I am based in Denver, 
PA. I am pleased to testify this morning on behalf of the 
American Bakers Association.
    We thank the subcommittee and Chairman Mike Enzi for 
holding this important hearing on OSHA's Hazard Communication 
Standard and the utility of MSDSs in protecting employees.
    ABA is the trade association that represents the Nation's 
wholesale baking industry and has devoted substantial efforts 
to enhance workplace safety. Pepperidge Farm is based in 
Norwalk, CT. As you said, we have 5,000 employees at eight 
bakery facilities across the United States, including a brand 
new, $72 million state-of-the-art bakery in Bloomfield, CT. We 
make a variety of high-quality bakery goods, including bread, 
rolls, cookies, and crackers.
    My responsibilities at Pepperidge Farm include the 
management of all company health and safety programs and 
initiatives, including safety training programs. In this role, 
I am an advocate for our employees and their families in 
maintaining a safe workplace. Safety is an integral part of our 
company's value system. This commitment to safety has helped us 
maintain a superior safety record.
    Protection from hazardous substances is of paramount 
importance to Pepperidge Farm and the baking industry as a 
whole. Material Safety Data Sheets are the cornerstone of 
fulfilling employees' right to know about chemicals in the 
workplace. MSDSs must clearly provide the necessary information 
to employees, supervisors, and in the worst case scenario, to 
first responders. Sadly, MSDSs seem designed for liability 
protection rather than employee protection.
    We are extremely excited to hear about OSHA's decision to 
review MSDSs in the workplace. If done properly, this is an 
excellent opportunity to improve the quality of information 
available to employees, as well as streamline the 
administrative burdens on safety professionals. However, OSHA 
must open its process to those who work with MSDSs every day, 
employees and employers. Failure to do so will result in 
guidance that provides no increase in safety for employees and 
no assistance to safety professionals.
    To give you some perspective, we receive thousands of MSDSs 
into our system. Every manufacturer sends us MSDSs, including 
our own parent company, Campbell Soup. We receive them for 
cleaners, solvents and maintenance supplies. We receive them 
for the printing materials that we use on packaging and, 
despite exemptions under the Hazard Communication Standard for 
food products, we also receive MSDSs for ingredients.
    At Pepperidge Farm, we include any and all substances that 
employees may come in contact with, including food ingredients. 
One never knows if an employee may have a sensitivity to a 
particular ingredient.
    Managing the sheer volume of incoming MSDSs is an enormous 
administrative challenge. This is one binder. This is just the 
maintenance department--and I brought the MSDS binder--just for 
the maintenance department at one facility. Even minor changes 
in the composition of substances requires an update to our 
files. In addition, we must follow up with our suppliers to 
receive missing or new MSDSs.
    Our industry buys many of the substances in use in our 
facilities in bulk quantities. As you have talked about, after 
receiving these products, they are redistributed into smaller 
containers. Unfortunately, they arrive with a single MSDS and 
no labels for the smaller containers.
    The most important thing is to quickly and accurately 
communicate to employees about workplace substances. 
Unfortunately, this is where the current MSDSs fail miserably. 
The shortcomings start with a lack of focus by OSHA and by 
suppliers on their true purpose--protecting employees.
    The MSDSs that I work with fall into two categories--those 
written by attorneys for attorneys, and those written by 
chemical engineers for chemical engineers. Most of our safety 
professionals and our production employees are neither. The 
most important improvement that OSHA could make would be to 
standardize the MSDS format.
    I just brought several--I did not even choose them for any 
particular reason other than that they were the first few in 
the binder--and each one has a different format. I have a one-
page, I have a 3-page, I have a 6-page here with different 
sections included. Some MSDSs have the information up front, as 
I said. Some are one or two pages of overly brought 
descriptions and no useful exposure information. Many are 
multipage chemical abstracts or legal treatises. Some MSDSs are 
identified by chemical names, brand names, or some other 
proprietary label.
    One challenge--and this was mentioned before--facing our 
industry is the growing work force diversity. Some bakers have 
30 countries and a dozen separate languages represented. In our 
bakery in the heart of Pennsylvania Dutch country, you would 
not think we would have this issue. In fact, we have Ukrainian, 
Spanish, Vietnamese, Korean, Laotian, and many other dialects.
    The diverse population includes wide-ranging education and 
literacy levels as well, even for native English-speakers. Many 
entry-level employees require assistance in reading and basic 
math training to meet their duties.
    With the sheets barely comprehensible in English, 
attempting to train someone from another country or with 
limited literacy skills is very daunting. I am concerned about 
whether we are reaching employees so that they understand what 
substances they need to be careful around and how to respond in 
the case of potential exposure.
    As I said, we are pleased to see that OSHA is addressing 
the shortcomings of the MSDSs. OSHA should actively reach out 
to all stakeholders in this process. If OSHA attempts to make 
unilateral decisions about MSDSs, then it risks wasting a 
tremendous opportunity to improve employee protection. We would 
like to make the following recommendations to the subcommittee 
and to OSHA.
    First, clarify the requirements of when and where to 
provide MSDSs. The first step toward making MSDSs less 
confusing is to definitively State when and where MSDSs are to 
be provided. OSHA needs to clearly delineate between those 
common products that pose no risk to employees and those that 
have the potential to cause serious harm.
    Second would be to develop uniform standard MSDS formats. 
ABA strongly recommends that OSHA develop uniform standard 
formats for MSDSs. This month's ``Facility Safety Management 
Magazine,'' which I brought a copy of here, notes that many 
manufacturers include--and this is a quote--``so many health 
hazards that the average worker would need a doctorate in 
toxicology just to decipher the information, defeating the 
purpose of the standard in the first place.''
    OSHA needs to lay out a standard format that includes all 
of the information necessary to identify and educate employees 
on the potential hazards of the substance and what to do in 
emergency situations--on the front page. They should include 
brief information on hazards, exposure limits, reactivity, 
flammability. The MSDSs then can contain brief descriptions and 
information for first responders.
    OSHA should also decide how MSDSs should be catalogued, 
either by chemical name or by manufacturer or brand name. It 
makes no sense to sort through MSDSs in our binder here that 
can be kept in any number of ways. OSHA needs to look at the 
ANSI Z400.1-1993 consensus standard for guidance. This standard 
recommends a voluntary 16-section format for MSDSs.
    Currently, MSDSs suggest that personal protective equipment 
be used but do not answer the important question of what type 
of protective equipment to use and at what levels. Many bakers 
struggle with this vital question, especially when trying to 
conduct employee training.
    OSHA should also set guidance on how often MSDSs need to be 
updated by the manufacturer. Many manufacturers are still using 
generic MSDSs developed when the Hazard Communication Standard 
was first issued. The MSDS could also contain an expiration 
date for when it needs to be replaced--if you will allow me a 
baking analogy.
    The proposed Globally Harmonized System may present a good 
opportunity for OSHA to implement MSDS standards. Even in the 
baking industry, we face a global marketplace. Pepperidge 
Farm's parent company, for example, Campbell Soup, might 
benefit from a more uniform MSDS standard, and that would 
obviously impact us as well.
    One caveat we would add, however, is to examine the impact 
of such a standard on ABA's smaller members. Adding another 
layer of hazard communication bureaucracy should be avoided.
    The third recommendation is to promote the use of 
electronic MSDS systems. These systems can be very effective in 
collecting, storing, updating MSDSs on literally millions of 
substances. The benefit is obvious during potential exposures, 
situations when we can receive immediate treatment, exposure, 
and first aid information on any substance.
    While we fully comply with the paper requirements of the 
Hazard Communication Standard, we rely on electronic MSDS 
service for actual safety issues. Our provider keeps an up-to-
date repository of all the substances in our facilities. They 
do provide a fax copy within minutes if we have a situation 
that requires it. This immediate access is far more preferable 
to thumbing through binders with thousands of MSDSs.
    I can honestly say that employees have only asked on a 
couple of occasions to see the paper MSDSs, but I can 
personally attest to the strength of the system we do use. We 
put it through extensive testing before agreeing to bring it 
into our facilities.
    OSHA needs to do more to encourage companies to utilize 
emerging technologies. If doctors and surgeons can rely on 
wireless and handheld technology to effectively diagnose 
patients from a distance, employers should be able to use the 
same technology to protect and train employees.
    The fourth and final recommendation would be to use labels 
more effectively in employee communication. OSHA could 
incorporate into HAZCOM and MSDSs the use of labels for 
immediate response. Requiring a label that includes some 
universally-recognized symbols, such as the National Fire 
Protection Association coding or the Hazardous Materials 
Identification system, would be far easier to explain and 
understand in a diverse workforce like ours. Training on these 
labels would be far more effective than the complex and 
confusing MSDSs we currently use.
    In conclusion, thank you again for the opportunity to share 
the wholesale baking industry's thoughts on OSHA's Hazard 
Communication Standard and the role of MSDSs in informing, 
educating, and protecting employees. We offer these suggestions 
on how to improve the quality of MSDSs, but clearly, OSHA must 
be willing to open this process. This opportunity to improve 
hazard communication, to everyone's benefit should not be 
missed.
    Thank you, Mr. Chairman and Members of the Subcommittee.
    Senator Enzi. Thank you.
    [The prepared statement of Ms. Jackson follows:]

                   Prepared Statement of Anne Jackson

                        INTRODUCTION AND SUMMARY

    The American Bakers Association (ABA) thanks the Senate 
Subcommittee on Employment, Safety and Training, and especially 
Chairman Mike Enzi, for holding this important hearing on the 
Occupational Safety and Health Administration's (OSHA) Hazard 
Communication Standard, particularly the role and utility of Material 
Safety Data Sheets (MSDS) in informing and protecting employees.
    By way of background, ABA is the trade association that represents 
the Nation's wholesale baking industry. Its membership consists of more 
than 200 wholesale bakery and allied services firms. These firms 
comprise companies of all sizes, ranging from family-owned enterprises 
to companies affiliated with Fortune 500 corporations. Together, these 
companies produce approximately 80 percent of the Nation's baked goods. 
The members of the ABA collectively employ tens of thousands of 
employees nationwide in their production, sales and distribution 
operations. The ABA, therefore, serves as the principal voice of the 
American wholesale bakery industry.
    My name is Anne Jackson and I am the Corporate Safety Director for 
Pepperidge Farm and am based in Denver, Pennsylvania. I am pleased to 
be testifying this morning on behalf of the American Bakers 
Association. Pepperidge Farm is a moderately sized wholesale baking 
company based in Norwalk, Connecticut with 8 bakery facilities spread 
across the United States, including a new $72 million state-of-the-art 
bakery in Bloomfield, Connecticut. In total, the company employs around 
5,000 employees. Our facilities make a variety of high quality bakery 
goods including breads, rolls, cookies and crackers with which I am 
sure you are familiar. Our delicious and healthy products are available 
nationwide and in 40 countries around the world.
    My responsibilities at Pepperidge Farm include the management of 
all company safety and health programs and initiatives, including 
regulatory accountability and workers compensation. Employed by 
Pepperidge Farm since 1998, I have held the position of Corporate 
Safety Director for the past 3 1\2\ years. Prior to my current 
position, I was Employee Relations Manager at Pepperidge Farm's Denver, 
PA plant, where safety was one of my principle responsibilities. I 
currently oversee the health, safety, and workers' compensation 
programs for Pepperidge Farm's eight manufacturing plants and its 
thrift stores, and sales distribution centers. In addition, I develop 
and deliver 2-day safety training programs to all levels of employees 
at our plant locations. Prior to joining Pepperidge Farm, I had 15 
years of human resources experience for several other companies.
    In my role as Corporate Safety Director, I work very closely with 
both facility leadership and production employees to help ensure our 
company is a safe place to work for all. I consider myself an advocate 
for our employees and their families in the ongoing business of 
maintaining a safe work environment. Pepperidge Farm is strongly 
committed to providing a safe and healthy workplace to our highly 
trained and valued employees. Our objective is to provide all 
Pepperidge Farm employees with a work experience so special it changes 
their lives. We seek to create an environment where inspired people set 
and achieve high standards in everything they do. We try to achieve 
these goals by hiring, engaging and retaining passionate individuals . 
. . and by living the values of our founder, Margaret Rudkin, 
throughout the company every day:
    <bullet> Passion for our products, our community, our dreams and 
our combined power to achieve them
    <bullet> Uncompromising commitment to Quality
    <bullet> Genuine Caring about people as individuals, ensuring that 
everyone's role is valuable and valued
    <bullet> Teamwork as a strategy for success
    <bullet> A continuous drive for Innovation in everything we do--
including safety.
    Safety is an integral part of our company's value system. This 
front line commitment to Safety at all levels of our organization has 
helped us maintain superior performance when it comes to preventing the 
occurrence of significant injuries and illnesses in our facilities. Our 
OSHA Recordable Injury and Illness Rate has been lower than the baking 
industry average for the past 4 years according to the Bureau of Labor 
Statistics.
    The ABA and its member companies long have devoted substantial 
efforts to enhance workplace safety and health programs in the 
industry, and to share expertise for the benefit of injury and illness 
prevention activities at individual facilities. Towards these ends, 
ABA's Safety Committee--comprised of corporate safety directors at ABA-
member companies of various sizes--has routinely focused on the impact 
of OSHA compliance obligations on company operations, as well as other 
pro-active measures that reduce illnesses and injuries in bakery 
production and distribution activities. As a result, wholesale baking 
operations have substantially improved their safety and health 
performance in recent years. For a number of industry facilities, these 
improvements have been reflected in the rates of injuries and illnesses 
that are recorded on OSHA logs, as well as their workers compensation 
cost experience, which reflect both the frequency and severity of 
compensable work-related injuries and illnesses.
    The ABA, through the active participation of its Safety Committee, 
also develops numerous strategies and training programs to address 
specific workplace safety and health issues including hazard 
communication. The comments that follow largely are based on the 
observations and experience of the corporate safety directors, from 
large and small wholesale baking companies, who are active members of 
the ABA's Safety Committee.
    The identification and protection from hazardous substances in the 
workplace, is of paramount importance to Pepperidge Farm and the 
wholesale baking industry. Towards that end we spend a tremendous 
amount of time and resources implementing hazard communication plans as 
spelled out by our own company policies and by OSHA's Hazard 
Communication Standard. Material Safety Data Sheets (MSDSs) are the 
cornerstone of fulfilling employees' right to know about chemicals in 
the workplace requirements as embodied in the Hazard Communication 
Standard. It is critically important that those MSDSs be clear, concise 
and provide the necessary information to employees, supervisors and in 
the worst case scenario--first responders. Sadly, the proliferation of 
MSDSs designed solely for liability protection rather than employee 
protection has led to widespread confusion and can be particularly 
intimidating for employees.
    Therefore, we are extremely excited to learn about OSHA's decision 
to review the role and composition of MSDSs in the workplace. If done 
properly, this is an excellent opportunity to improve the quality of 
information available to employees as well as streamline the 
administrative burdens on safety professionals. However, in order to 
achieve these needed results, OSHA must be willing to open its process 
to the ones who work with MSDSs every day--employees and employers. 
Failure to do so will result in a rule that provides no increase in 
safety for employees and no assistance to safety professionals such as 
myself. Here is an opportunity to improve hazard communication to 
everyone's benefit that should not be missed or diverted due to 
inertia. To assist the Subcommittee and OSHA in this effort, I would 
like to share with you my perspective as a safety professional who 
works on these issues with employees every day.

                           OVERVIEW OF MSDSS

    Let me take a few moments to describe for the subcommittee how 
MSDSs are handled in our company and for most baking companies. To put 
this in perspective you need to understand that we literally get 
thousands of MSDSs coming into our system. Every manufacturer that we 
receive materials from sends us MSDSs, including our own parent company 
Campbell Soup. We receive them for all types of cleaners, solvents and 
maintenance supplies. We also receive them for the printing materials 
that we use on packaging. And despite broad exemptions under the Hazard 
Communication Standard for food products we also receive MSDSs for 
ingredients. At Pepperidge Farm, our policy is to include any and all 
substances that employees may come in contact with, including food 
ingredients. One never knows if an employee may have a particular 
sensitivity to an ingredient and we like to have that information 
available.
    Managing the sheer volume of MSDSs we receive is an enormous 
administrative challenge. Even minor changes in the composition of 
substances we use require an update to our files. In addition, we need 
to follow up with our suppliers when we do not receive MSDSs with 
shipments or to determine if we need to receive updated MSDSs for 
substances already in the facility.
    Another important issue is that of items purchased in large bulk 
quantities. Pepperidge Farm and most wholesale bakers now buy many of 
the substances in use in our facilities in large bulk quantities in 
order to save on expenses. After receiving the products in bulk form 
they are commonly redistributed into smaller containers for use within 
our operations. Unfortunately, when these products are delivered in 
bulk they come with a single MSDS and no labels for the smaller 
containers.

               COMPOSITION OF MSDSS CRITICALLY IMPORTANT

    The most important aspect of the Hazard Communication Standard is 
the ability to quickly and concisely communicate to employees the 
information they need to know about the substances with which they 
work. Unfortunately, this is where the current MSDSs fail miserably. 
The shortcomings of today's MSDSs are numerous, but it all starts with 
a lack of focus by OSHA and by suppliers on what their true purpose 
is--protecting employees.
    The MSDSs that I have to work with at Pepperidge Farm usually fall 
into one of two categories--those written by attorneys for attorneys 
and those written by chemical engineers for chemical engineers. Most of 
our safety professionals and certainly our production employees are 
neither. The most important improvement OSHA could make would be to 
have a standard format that is developed by all of the people that have 
to use MSDSs--specifically employees and company safety professionals.
    What is particularly troubling with MSDSs is it seems that every 
substance has a different type of MSDS. Some have critically important 
information up front where it can be quickly referenced. Some are one 
or two pages of overly broad descriptions of the substance and no 
useful information on what to do in cases of exposure. On the opposite 
extreme, many are multipaged with lengthy chemical abstracts or 
extensive legalese. Some MSDSs are identified by complex chemical names 
while others include the manufacturers' brand name or other proprietary 
label.
    Additionally, many of the MSDSs don't truly match the substance 
with which they arrive. On many occasions, very dated MSDSs will arrive 
with similar but different types of products. Worse are the MSDSs that 
arrive with commonly available products, such as cleaners, but are 
identifying full strength substances when in reality the product 
contains very small percentages of the substance. This provides 
employees with misleading information or a false sense of concern. For 
employers it gives little useful information to assist in potential 
exposure situations.

                 EMPLOYEE DIVERSITY PRESENTS CHALLENGES

    A particular challenge facing the wholesale baking industry, and I 
would suggest probably many other industries, is the growing diversity 
of our workforce. Some bakers in major metropolitan areas have upwards 
of 30 countries and a dozen separate languages represented on their 
workforces. This situation is not limited to just metropolitan areas. 
In our Denver, Pennsylvania bakery located in the heart of Pennsylvania 
Dutch country we have several different languages spoken including 
Ukrainian, Spanish, Vietnamese, Korean, Laotian and several other 
southeastern Asian dialects.
    The baking industry's diverse population also includes wide ranging 
education and literacy levels as well. More and more entry level 
employees require some assistance in reading and basic math training in 
order to fully participate in the workforce and meet the duties of 
their employment.
    Whether it is ethnic, cultural or educational diversity, there are 
enormous challenges in training on MSDSs. With the sheets barely 
comprehendible in English, attempting to train someone from another 
country or with limited literacy skills is daunting to say the least. 
As a safety professional, I am concerned about whether we are reaching 
employees so that they understand what substances they need to be 
careful around and how to respond in the case of a potential exposure.

                            RECOMMENDATIONS

    As I said at the outset, we are particularly pleased to see that 
OSHA is trying to address some of the shortcomings of the MSDSs. The 
key to success is for OSHA to recognize that the MSDSs are designed to 
inform employees and their employers--both large and small--on 
hazardous substances in the workplace, how to handle them and what to 
do in an emergency situation. OSHA should be actively reaching out to 
include all interested stakeholders in this important process. If OSHA 
attempts to make unilateral decisions about MSDSs then it risks wasting 
a tremendous opportunity to improve employee protection as well as 
allow safety professionals and employers to maximize their safety and 
health resources.
    Specifically, we would like to make the following recommendations 
to the subcommittee and to OSHA:

1. CLARIFY REQUIREMENTS OF WHEN AND WHERE TO PROVIDE MSDSs

    The first step to making MSDSs less confusing and more effective is 
to definitively State when and where MSDSs are to be provided. You have 
no doubt heard ad nauseam about the confusion of whether common retail 
products, food items and ingredients must be accompanied by an MSDS 
from the manufacturer. OSHA needs to clearly delineate between those 
common products that pose no risk to employees from those that have the 
potential of causing serious harm to employees.
    One area OSHA could easily address is the arbitrary and ambiguous 
reliance upon outside nonconsensus organizations standards that are 
based on conjecture and perception rather than peer-reviewed scientific 
and medical evidence. Some groups issue their own standards without 
regard for transparency, public input or scientific fact--the biggest 
violator being the American Conference of Governmental Industrial 
Hygienists (ACGIH). OSHA should never rely upon ACGIH standards unless 
it can independently verify, with proper public participation, the 
validity of science underpinning ACGIH's arbitrary standards.

2. DEVELOP UNIFORM, STANDARD FORMATS

    ABA strongly recommends that OSHA meet with all interested 
stakeholders to develop uniform, standard formats for MSDSs. As 
mentioned earlier, there are almost as many formats as there are MSDSs. 
The important information--that most needed to protect employees--can 
be located just about anywhere on the MSDS. In addition, there is way 
too much non essential information on the sheets. In fact, this month's 
Facility Safety Management magazine notes ``many manufacturers include 
so many health hazards that the average workers would need a doctorate 
in toxicology just to decipher the information--defeating the purpose 
of the standard in the first place''.
    OSHA needs to lay out a standard format that includes all of the 
information necessary to identify and educate employees on the 
potential hazards of the substance and what to do in emergency 
situations--on the front page. They should be as brief as possible 
without losing the important information of hazards, exposure limits, 
reactivity and flammability. The MSDSs then can contain brief 
descriptions and information for first responders. It also is important 
to note that OSHA could do safety professionals a big favor by deciding 
how MSDSs should be catalogued--either by chemical name or by 
manufacturer brand name. It makes no sense if the purpose is safety to 
have to sort through MSDSs that can be kept in any number of ways. At 
the very least, OSHA needs to look at the ANSI Z400.1-1993 consensus 
standard. This standard which recommends a voluntary 16-section 
standard format was enacted to combat quality problems with MSDSs.
    All too often an MSDS will suggest that personal protective 
equipment be used with a particular substance. Unfortunately the MSDS 
will not answer the important question of what type of protective 
equipment and at what protection level it should be used. Many bakers 
struggle with this vital question especially when trying to conduct 
proper employee training. OSHA also could go a long way toward 
providing meaningful safety information if it required MSDSs to 
specifically what type and level of protection is required to protect 
employees.
    OSHA should also set standards on how often MSDSs need to be 
updated by the manufacturer. Many substance manufacturers are still 
using overly generic MSDSs developed when the Hazard Communication 
Standard was first issued--despite the fact that there have been 
formula changes that have made the MSDS obsolete. The MSDS also could 
contain an easily identifiable code or id that indicates when it 
``expires'' and needs to be replaced--expiration date if you will allow 
me a baking analogy.
    Finally, it seems like the proposed globally harmonized system is a 
good opportunity for OSHA to implement these recommended MSDS 
standards. While most of my comments today have been focused on U.S. 
operations, even in the baking industry we are facing a more global 
marketplace. Pepperidge Farm's parent company, Campbell Soup, sets many 
safety and health policies for the entire company. As a global company, 
Campbell Soup might benefit from a more uniform MSDS standard and that 
would obviously impact Pepperidge Farm as well.
    One caveat we would add, is that the impact of such a globally 
harmonized standard might have on ABA's small members. It is difficult 
enough to manage the MSDSs and conduct appropriate safety training with 
limited resources that adding another layer of hazard communication 
could be particularly burdensome. Before OSHA moves the U.S. toward 
this new global standard it may need to determine if it is just for 
those involved in the global marketplace or can the standard be used to 
bring OSHA's standards in line and alleviate many of the burdens of the 
current Hazard Communication Standard on small businesses.

3. PROMOTE USE OF ELECTRONIC MSDS SYSTEMS

    One area that OSHA seems extremely reluctant to embrace is the use 
of electronic MSDS systems. These systems can be tremendously effective 
in collecting, storing, updating MSDSs on literally million of 
substances. The benefit of such systems really comes through during 
potential exposure situations when we can receive immediate treatment, 
exposure and first aid assistance on any substance.
    While Pepperidge Farm is in full compliance with all of the paper 
requirements of the Hazard Communication Standard, we rely on an 
electronic MSDS service for actual safety related issues. Our third-
party provider keeps an up-to-date listing of all of the substances in 
our facilities. They provide a copy of the appropriate MSDS if we have 
a situation that requires us to identify potential hazards and 
appropriate safety measures. We have access via fax to the precise 
safety information in a matter of a couple of minutes. We also have 
poison control access through this same system at all of our locations.
    This immediate access is far more preferable to thumbing through 
binders with thousands of MSDSs. (Refer to binders again.) The binders 
literally sit on shelves in various parts of our facilities gathering 
dust. I can honestly say that employees have only asked on a couple of 
occasions to see the paper MSDSs.
    We can appreciate OSHA's concerns about having immediate access to 
electronic MSDSs via fax or the Internet, however, I can personally 
attest to the strength of the system we use. I put it through extensive 
testing before agreeing to bring it into our facilities and I still 
randomly test the system to make sure our third-party vendor is keeping 
up to date.
    As the technology continues to advance at breakneck speed, OSHA 
needs to do more to encourage companies to utilize the technology. If 
doctors and surgeons can rely on wireless and handheld technology to 
effectively diagnose patients from a distance, then employers should be 
able to use the same technology to protect and train employees about 
hazardous substances in the workplace. It isn't hard to imagine a 
wireless handheld where a safety manager or first responder scans a 
substance package or even the substance itself and gets an immediate 
response about the identity, concentration and abatement measures for 
that substance.

4. USE LABELS MORE EFFECTIVELY IN EMPLOYEE COMMUNICATION

    One aspect of the globally harmonized system for hazardous 
substances that OSHA could incorporate into updating the Hazard 
Communication Standard and MSDSs is the reliance upon proper labeling 
for immediate situation response. Requiring substance manufacturers to 
include a label on their substances that includes some universally 
recognized symbols such as the National Fire Protection Association 
coding or the Hazardous Materials Identification System would provide 
employees with important information that would be far easier to 
explain and understand than the current MSDSs. Similar labels to be 
attached to small volume containers also would be very helpful.
    I mentioned earlier the diversity of our workforce and the simplest 
way to communicate the proper use and protection of hazardous 
substances is through universally recognized labels. Training on these 
labels would be far more effective than on the overly complex and 
confusing MSDSs we currently rely upon.

                               CONCLUSION

    Thank you again for the opportunity to share the wholesale baking 
industry's thoughts on OSHA's Hazard Communication Standard, 
particularly the role and utility of MSDSs in informing and protecting 
employees. We are extremely excited about the opportunity to improve 
the quality of information available to employees as well as help 
safety professionals effectively protect employees on hazardous 
substances. We offer these suggestions on how to achieve these results 
but clearly, OSHA must be willing to open its process to the ones who 
work with MSDSs every day--employees and employers. This opportunity to 
improve hazard communication to everyone's benefit should not be 
missed.
    Thank you, Mr. Chairman and Members of the Subcommittee. I would be 
happy to take any questions you have.

    Senator Enzi. Our next presenter is Dr. Michele Sullivan, 
who is a hazard communication consultant. Dr. Sullivan is 
chairman of the board of directors of the Society for Chemical 
Hazard Communication, which has entered into an alliance with 
OSHA to provide training and information on hazard 
communication.
    As an internationally recognized hazard communication 
specialist, Dr. Sullivan participated in the development of the 
Globally Harmonized System of Classification and Labeling of 
Chemicals.
    Dr. Sullivan.
    Ms. Sullivan. Thank you, Mr. Chairman.
    I appreciate this opportunity to appear before the 
subcommittee as it considers hazard communication.
    The Society for Chemical Hazard Communication, known as 
SCHC, is a professional society of individuals who are engaged 
in the business of hazard communication. The Society's purpose 
is to educate and provide information on hazard communication.
    The Society offers over 25 professional development 
courses, and these courses mainly focus on the information and 
guidance needed to prepare the global 16-section MSDSs. The 
courses are open to members and nonmembers, and as has been 
mentioned several times earlier, there are no degrees currently 
in MSDS and label-writing.
    Recently, SCHC and OSHA have signed an alliance to provide 
information and training on hazard communication MSDSs and the 
GHS. Through the alliance, SCHC and OSHA will work 
collaboratively to promote effective hazard communication.
    As Mr. Henshaw mentioned, alliance activities currently 
under discussion include the development of MSDS training for 
OSHA staff and also for small businesses. We are also working 
on the development of MSDS checklists to be used by OSHA, and 
we will be working on ways to promote awareness of the Globally 
Harmonized System.
    The Globally Harmonized System could be viewed as the next 
step in the hazard communication journey of continuous 
improvement. Representatives from government, industry, 
workers, and international organizations all participated in 
developing the GHS. These representatives were all experts in 
areas of hazard communication, and they worked not only to 
create a Globally Harmonized System but to incorporate 
enhancements based on their knowledge, experience, and past 
learning.
    Adopting the GHS would harmonize hazard communication 
requirements among U.S. regulatory agencies, as mentioned 
earlier, agencies like EPA, OSHA, CPSC, and DOT, as well as 
globally.
    The GHS would promote consistency and improve the quality 
of MSDSs. The GHS requires the defined sequence for the MSDS 
section, it specifies minimal information requirements for each 
section, and it prioritizes the placement of different types of 
information.
    Adopting the GHS would standardize hazard definitions, both 
domestically and globally; standardize hazard warnings and 
hazard symbols on labels, both domestically and globally; and 
standardize MSDS format and information, domestically and 
globally.
    The GHS can improve hazard communication by allowing 
information to be more easily compared by utilizing symbols and 
by utilizing standard phrases to improve awareness and 
understanding. Consistent information would be communicated on 
labels and MSDSs, and therefore, workers should have improved 
comprehensibility. By providing detailed and standardized 
physical and health hazard definitions, the GHS can lead to 
better-quality information. Facilitation of international trade 
in chemicals is also expected to be a GHS benefit.
    However, implementation of the GHS offers challenges for 
industry, probably particularly for small businesses, and 
government. The hazard definitions for all chemical products 
would have to be reviewed and their MSDSs and labels 
potentially revised, and as was mentioned earlier, it is 
estimated that there are over 650,000 chemical products.
    The interests of workers, users of chemicals, the public, 
regulators, and the chemical industry could be served by 
adopting the GHS. A major benefit would be improved safety for 
workers through consistent and simplified communication on 
chemical hazards and practices to follow for safe handling and 
use.
    I appreciate the opportunity to provide you these comments, 
Mr. Chairman, and I would be happy to answer any questions.
    Senator Enzi. Thank you very much, Dr. Sullivan.
    [The prepared statement of Ms. Sullivan follows:]
               Prepared Statement of Michele R. Sullivan
    Mr. Chairman, Members of the Subcommittee: My name is Michele 
Sullivan. I am a hazard communication professional with over 20 years 
experience in industry, trade associations and consulting for 
companies, government agencies, and international organizations. I was 
a member of the National Advisory Committee on Occupational Safety & 
Health (NACOSH) Hazard Communication Work Group (1995-96). I 
participated on the Organization for Economic Cooperation & Development 
(OECD), the International Labor Organization (ILO) and international 
groups that developed the new Globally Harmonized System (GHS) of 
Classification and Labeling of Chemicals. I have been a member of the 
Society for Chemical Hazard Communication (SCHC) for over 20 years and 
I'm the Chairman of the SCHC Board of Directors.
    I appreciate this opportunity to appear before the Subcommittee on 
Employment, Safety, and Training this morning as it considers hazard 
communication.

                                  SCHC

    SCHC is a professional society of individuals who are engaged in 
the business of hazard communication. The members' jobs are diverse. 
Many prepare labels and material safety data sheets (MSDSs) for their 
employers' products. Others train users of hazardous chemicals, act as 
expert witnesses or implement government regulations. They work in 
industry, government and academia. SCHC membership has grown from 40 
people in 1979 to approximately 700 today.
    SCHC's purpose is to promote effective communication about chemical 
hazards. The Society is committed to sharing knowledge and resources 
and educating its members and the public about communicating chemical 
hazards on product labels, MSDS and other literature.
    SCHC strives to keep its members aware of the latest developments 
concerning hazard communication. The Society holds meetings to provide 
up-to-date information on current developments and education and 
networking opportunities for its members. Recently the development, 
content and implementation of the new Globally Harmonized System (GHS) 
of Classification and Labeling of Chemicals have been covered. Training 
workers about hazard communication is frequently a topic at meetings.
    The Society's purpose has always been to educate and provide 
information on hazard communication. Today the society offerings have 
grown to over 25 professional development courses. These courses mainly 
focus on information and guidance needed to prepare a global 16-section 
MSDS. The students in these courses are generally people involved in 
writing or developing MSDSs. The courses range from introductory MSDS 
workshops, to courses on first aid statements and advanced courses on 
assessing and communicating toxicological results. SCHC also offers 
several courses on the diverse hazard communication labeling 
requirements for the USA and other countries. SCHC students have a 
broad range of occupations--for example chemistry, industrial hygiene, 
and toxicology. There are no degrees in MSDS and label writing.
    SCHC is one of the organizations canvassed for the American 
National Standards Institute (ANSI) Z129.1 Labeling Standard and the 
ANSI Z400.1 MSDS Standard. The society compiles comments on the draft 
standards from its members and provides the comments to the ANSI 
committees for consideration.
Outreach/Alliance
    The Society has a history of collaboration and outreach. Shortly 
after the OSHA Hazard Communication Standard, 29 CFR 1910.1200, (HCS) 
was published, SCHC and OSHA collaborated to educate stakeholders by 
jointly sponsoring seminars on a regional basis with both OSHA and SCHC 
participating.
    Recently, SCHC and OSHA have signed an Alliance to provide 
information and training on hazard communication, MSDSs and the new 
Globally Harmonized System (GHS) of Classification and Labeling of 
Chemicals. Through the Alliance, SCHC and OSHA will work 
collaboratively to promote effective hazard communication.
    Some Alliance activities that SCHC is pursuing include: Creating an 
Alliance page on the SCHC website that highlights hazard communication 
and GHS resources and links; Having OSHA speakers participate at SCHC 
meetings; and Serving on the editorial board for OSHA's Hazard 
Communication Safety and Health Topics page.
    Promoting awareness of the GHS by: Participating in the MSDS Round 
Table at American Industrial Hygiene Association (AIHA) 2004 spring 
conference; Sponsoring GHS sessions at the 2004 National Safety 
Council's Annual Congress and 2005 World Safety Congress; and Including 
GHS topics on SCHC programs.
    Alliance activities under discussion include the development of 
MSDS training and checklists to be used by OSHA, and more GHS forums.

                                  GHS

    As an internationally recognized hazard communication expert, I had 
the opportunity to participate in developing the GHS. Representatives 
from governments, industry, workers and international organizations all 
participated. These representatives were all experts in areas of hazard 
communication. These specialists worked not only to create a globally 
harmonized hazard communication system but to incorporate enhancements 
based on their knowledge, experience, and past learnings. The GHS could 
be viewed as the next step on the hazard communication journey of 
continuous improvement.
    Traditionally, hazard communication has had a three-prong approach: 
labels, MSDSs and training for workers. These hazard communication 
elements are all interrelated. While recognizing the importance of 
training, the GHS focuses mainly on hazard definition, labels and 
MSDSs.
    It is instructive to examine the hazard communication elements and 
how the GHS could enhance them.
Hazard Definitions
    The starting point for all hazard communication is the definition 
of what is hazardous. This forms the foundation for understanding a 
product's characteristics and how to safely handle and use the product. 
It triggers label warnings, hazard and precautionary information on 
MSDSs, and packaging, transport and storage requirements.
    The definition of what constitutes a hazardous chemical product 
varies today among USA government agencies that regulate consumer 
products, pesticides, transport, workplace, etc. Generally, the same is 
true for most other industrialized countries that have a mature 
chemical industry. What this means is that the same chemical product 
can be hazardous and nonhazardous for different end uses in the USA, 
requiring different labels. In the workplace workers can see labels 
with different warnings for the same product and different MSDSs.
    The GHS has criteria-based hazard definitions. The GHS would 
harmonize hazard definitions among domestic regulatory agencies as well 
as globally. Since hazard definitions are the starting point for hazard 
communication, global adoption of the GHS elements could promote 
consistency and comprehensibility.

                                 MSDSS

    In 1983 the OSHA Hazard Communication Standard's performance 
oriented approach for MSDS seemed appropriate. Twenty years later, the 
benefits of a standardized MSDS format have been recognized.
    The Chemical Manufacturers Association (CMA) and the American 
National Standards Institute (ANSI) developed the first 16-section MSDS 
(ANSI Z400.1). The format was not selected randomly. Information needed 
in an emergency appears first and useful nonemergency information on 
what regulations apply and toxicological/ecological data, etc., appear 
later in the MSDS. The 16-section MSDS sequence is based on 4 
questions:
    1. What is the material & what do I need to know in an emergency?
    2. What should I do if a hazardous situation occurs?
    3. How can I prevent hazardous situations from occurring?
    4. Is there any other useful information about this material?
    This MSDS format prioritizes the placement of different types of 
information.
    The International Standards Organization (ISO), the International 
Labor Organization (ILO) and the European Union all adopted similar 16-
section MSDS formats during the 1990's. The 16-section MSDS format is 
common today for companies doing international business.
    The audience for MSDSs has expanded from health and safety 
professionals, workers, employers and customers to include fire 
departments, emergency responders, State and local emergency planning 
groups and members of the community. In recognizing that MSDS are 
complex technical documents, the ANSI Z400 MSDS Standard currently 
lists target audiences for each MSDS section so that the MSDS writer 
can determine the appropriate language level. It recommends using 
nontechnical lay language for the worker MSDS sections. Such an 
approach to writing MSDSs could help readability.
    Near the beginning of the MSDS, the ANSI MSDS format includes an 
emergency overview that provides health, physical and environmental 
hazards in straightforward language. This corresponds in the new GHS 
MSDS to requiring hazard and label information in MSDS section 2. 
Providing hazard information on MSDSs in an way that can be easily 
identified and understood by nontechnical people is in agreement with 
the NACOSH Hazard Communication Work Group (1995-96) recommendations.
    The GHS requires a defined sequence for the 16 MSDS sections. It 
specifies minimum information requirements for each section. Adoption 
of the GHS would promote consistency and the quality of MSDS.
Labels
    Guidance for labeling industrial chemicals has existed for many 
years. Initially there was a Labels and Precautionary Information 
(LAPI) Manual (1945-75) developed by CMA. This evolved to the ANSI 
Z129.1 Labeling Standard which is a voluntary industry standard often 
used to decide what is an appropriate hazard warning for performance-
oriented regulations. However, not all companies use the ANSI hazard 
statements on labels and workers see different statements for the same 
hazards.
    In other countries many workplace hazard communications systems 
require hazard symbols or pictograms as well as hazard statements. USA 
workers currently see these different symbols on imported products. The 
GHS will standardize hazard statements and hazard symbols. To reinforce 
understanding, the GHS conveys information in more than one way--using 
symbols with colored frames, signal words and hazard statements. Under 
the GHS, words used in hazard statements would have a precise meaning 
that would not change from company to company. Although training would 
be necessary, particularly on the use of symbols, this standardization 
should help with worker comprehensibility.
    The GHS also includes an option for ``supplemental information''. 
This is label information that is not standardized. Considering the 
liability situation and the duty to warn requirement in the USA, 
``Supplemental Information'' could be a key GHS label element for 
companies.

                      SUPPORT/GUIDANCE/ASSISTANCE

    Hazard communication and MSDSs are complex technical topics. It 
requires expertise in many different areas to develop a quality MSDS. 
It requires resources that are scarce in major corporations and often 
lacking in small businesses. The necessary tools/assistance/guidance 
should be available for small businesses to enable them to handle this 
complex subject in-house, if so desired.
    There is more information available today than ever before. 
However, this can make the task more difficult. It is helpful for small 
and medium enterprises to know what are good sources of information for 
hazard communication. Information is needed on chemical hazards. But 
information on related topics is also needed: personal protective 
equipment, controls, decomposition products, process hazards, first 
aid, fire-fighting measures, spill and leak control, disposal, etc.
    Some excellent information is available on the Internet. OSHA has 
recently updated its hazard communication page so that it is easier to 
access and has new links. Some organizations (e.g., NIOSH) have 
published CDs with hazard related information and made them available 
for free or at nominal costs. Many types of guidance and assistance 
could be valuable in promoting effective hazard communication: e-tools, 
local training, distance learning, mentoring, etc. Guidance and 
assistance would be particularly helpful in relation to the GHS.
    Assistance with obtaining quality information and how to use that 
information in hazard communication is an area that could be looked 
into. There are opportunities for government agencies, trade 
associations, professional associations, alliances/consortiums and 
companies to contribute. There could be value in exploring partnerships 
to promote effective hazard communication.
    It is hard to imagine that any company would intentionally develop 
poor quality MSDSs. With that in mind, one approach would be that 
whenever inadequate or poor quality MSDSs are found, assistance could 
be offered the company to improve its hazard communication program.

                                SUMMARY

    The GHS would: standardize hazard definitions; standardize hazard 
warnings and hazard symbols on labels; standardize MSDS format and 
information.
    The GHS can improve hazard communication by allowing information to 
be more easily compared and by utilizing symbols & standard phrasing to 
improve awareness and understanding. Consistent information will be 
communicated on labels and MSDSs. Therefore, workers should have 
improved comprehensibility. By providing detailed and standardized 
physical and health hazard criteria, the GHS can lead to better quality 
information. By providing an infrastructure for the establishment of 
national chemical safety programs, the GHS can promote the sound 
management of chemicals globally. Facilitation of international trade 
in chemicals is also expected to be a GHS benefit.
    Implementation of the GHS offers challenges for both industry and 
government. The hazard definitions for all chemical products would have 
to be reviewed and their MSDSs and labels potentially revised. OSHA has 
estimated that there are over 650,000 chemical products.
    The USA has some unique issues that affect hazard communication. 
Liability and the duty to provide an adequate warning have always been 
considered in developing USA labels. These considerations are now also 
being applied to MSDSs. In considering the GHS as a means to improve 
hazard communication, these issues should be kept in mind.
    The GHS does NOT require hazard or other testing of chemical 
products. Some of the differences in hazard communication, particularly 
for topics like personal protective equipment, controls, decomposition 
products, process hazards, first aid, fire-fighting measures, etc., can 
be related to lack of knowledge, testing and standardization in these 
areas. The GHS does not address these issues.
    Implementation of effective hazard communication provides benefits 
for governments, companies, workers, and members of the public. The 
interests of workers, users of chemicals, the public, regulators and 
the chemical industry could be well served by pursuing the GHS. A major 
benefit would be improved safety for workers through consistent and 
simplified communications on chemical hazards and practices to follow 
for safe handling and use.
    If the USA adopts the GHS, there will be some discretion in 
implementation. However, modifications could cause loss of global 
harmonization.
    Again, I appreciate the opportunity to appear here today and to 
provide input on the issue of hazard communication, MSDSs and the GHS. 
Mr. Chairman, I would be pleased to answer any questions the committee 
may have.

    Senator Enzi. The next presenter is Michael Wright, who is 
director of health, safety and environment for the United 
Steelworkers of America. Mr. Wright is a former member of the 
National Advisory Committee on Occupational Safety and Health 
and is a current member of EPA's Clean Air Act Advisory 
Committee and NIOSH's Mine Health Research Advisory Committee. 
He also served on the international coordinating group 
overseeing the development of the Globally Harmonized System of 
Classification and Labeling of Chemicals.
    Mr. Wright.
    Mr. Wright. Thank you, Chairman Enzi, and thank you also 
for your great leadership on this issue. If we get to a 
Globally Harmonized System in this country, it will be largely 
through your efforts.
    My written comments include a history of the continuing 
effort to achieve effective hazard communication in the U.S. 
and worldwide. I will not repeat that here, because it is in 
the written comments, but I do want to restate the two 
conclusions that can be drawn from it.
    First, workers' unions and the public health community work 
so hard for good hazard communication not just because it is a 
good idea for improving safety, although it is, but because we 
believe that right to know--in this case, the right to know the 
names and hazards of the chemicals you are exposed to--is a 
fundamental right that should be enjoyed by all workers.
    Second, right to know is an international issue, one that 
can only be addressed internationally, and as the other 
participants have said, we now have a magnificent new tool for 
addressing it, and that, of course, is the Globally Harmonized 
System. What remains is for countries of the world, including 
the United States, to adopt it.
    Currently, there are three major systems in place in the 
U.S., Canada, and the European Union. A dozen or so other 
countries have systems of their own, usually based on one of 
those three. Those systems all work pretty well within their 
own countries, but internationally, they conflict with each 
other, which creates major problems for global public health 
and for global trade.
    In my office, I have a bag that is designed to hold a 
particular toxic chemical. If you count the front and the back 
and the bottom and the sides, it has about 12 square feet of 
surface area on that bag. Every square inch contains a label or 
a hazard warning required by one of those systems--every square 
inch. There must be 14 different labels on that bag, because 
the different systems require different labels. I thought to 
bring it as a visual aid this morning, and then I realized if I 
tried to get that through Senate security, both I and the bag 
would be in a holding cell someplace--but it makes a statement.
    In addition, and I think more seriously, most workers in 
developing countries and countries in transition still lack the 
right to know the names and hazards of the chemicals they use 
on the job. The International Labor Organization estimates that 
2 million people die worldwide each year from workplace 
injuries and disease, most of them from disease. Many of those 
deaths could be prevented if workers and their employers had 
good chemical information in their own language.
    However, countries without effective systems rarely have 
the resources to develop one of their own. And whose system 
should they model it after? Existing systems are after all 
incompatible.
    The GHS would solve both of these problems by establishing 
a single unified system in and between countries that adopt it. 
And since the technical work of developing the criteria and 
designing the information system has already been done, 
countries without a system could adopt the GHS relatively 
easily.
    Earlier I said that most systems work pretty well in their 
own countries. But there are in fact two problems with the OSHA 
Hazard Communication Standard. The first--and you have heard 
about this extensively--is the low quality of the Material 
Safety Data Sheets, and the second is the lack of an effective 
training requirement. I will leave training to my written 
statement. I do want to talk a little about the quality of 
Material Safety Data Sheets.
    Many manufacturers produce clear, readable, and informative 
labels and Material Safety Data Sheets. However, we have seen 
many that seemed designed to hide information rather than 
communicate it. Some are internally inconsistent, and some are 
just plain wrong. Let me give just two examples.
    Several years ago, one of our local unions sent me two 
safety data sheets for a type of refractory fiber from two 
different manufacturers. They wanted to know which was safer. 
In fact, the two products were identical. But the hazard 
warning on one data sheet stated, and this is a quote: 
``Warning: Similar material has been shown to cause malignant 
and nonmalignant neoplasms in experimental animals exposed via 
interperitoneal installation. As this route of exposure does 
not mimic the human experience, the significance of this 
finding is uncertain.''
    The other safety data sheet said: ``Warning: Causes 
cancer.'' Both warnings are accurate and both are legal under 
the OSHA Hazard Communication Standard.
    A second example can be found in almost every plant that I 
or members of our staff visit. We almost always look at the 
safety data sheets for the chemicals used in the plant, and we 
can usually find one that says at the top ``This product 
contains no hazardous ingredients.'' At the bottom, it says: 
``Use with adequate ventilation. Do not breathe vapors. Avoid 
skin contact. Use approved respiratory protection and 
protective closing''--for a product that contains no hazardous 
ingredients.
    The GHS would solve this problem. Safety data sheets 
prepared under the GHS contain specific elements in a specified 
order. Hazard and warning phrases would be standardized and 
comprehensible. In addition, there would be pictograms for 
workers with low literacy.
    I want to commend OSHA for its partnership with the Society 
for Chemical Hazard Communication and for its recent Hazard 
Communication Initiative. The initiative will be more effective 
if it is informed by the views of chemical workers and small 
business, and not just chemical suppliers and experts.
    In addition, Congress should provide an adequate budget for 
the initiative without detracting from OSHA enforcement or 
other OSHA programs.
    But OSHA's voluntary initiative can only go so far. The 
problem with voluntary initiatives is that not everybody 
volunteers. There is a role for the U.S. Congress, and that 
role is legislative. In the last few years, we have seen lots 
of ideas for tinkering with safety data sheets or establishing 
yet another group to study the issue. Those ideas are well-
intentioned, but most of them would have little impact.
    One thing, however, would make a dramatic difference. Mr. 
Chairman, we would urge the Congress, beginning with your 
subcommittee, to begin the work of adopting the GHS. In fact, 
the only effective way for the United States to adopt the GHS 
is through legislation. The ordinary OSHA rulemaking process is 
too cumbersome and too constricted for ordinary standards, much 
less one derived from a decade of international negotiations 
that will have to be adopted as is to be effective with respect 
to international trade. There will have to be OSHA rulemaking 
to decide how the elements of the GHS best fit into existing 
U.S. law and regulation. But Congress can set the stage by 
requiring the adoption of those elements.
    Mr. Chairman, in a period of intense partisanship, this is 
not a partisan issue. Today you heard widespread agreement on 
the value of workplace hazard communication, on the right of 
workers to good information about the chemical hazards they 
face, and on the virtue of U.S. leadership on the issue of 
chemical safety. The participants in this hearing often 
disagree on health and safety issues, but not on this one.
    You and your subcommittee have a rare opportunity. By 
taking the lead on the GHS, you can speak to the needs of 
chemical users, especially small business, who are so 
frustrated with the confusing and misleading safety data sheets 
they often receive. You can support the efforts of responsible 
chemical manufacturers who have worked to supply good 
information to the users of their products. You can make 
workplaces safe in the U.S. and, by example, around the world. 
And you can demonstrate strong U.S. leadership on chemical 
safety.
    Finally, and to us most important, you can contribute to 
what we think is a fundamental right of workers--the right-to-
know.
    Thank you very much. I would be glad to answer questions 
either orally today or in writing later.
    [The prepared statement of Mr. Wright follows:]

                Prepared Statement of Michael J. Wright

    Mr. Chairman, and Members of the Subcommittee: Thank you for the 
opportunity to appear before you this morning on the issue of hazard 
communication in the workplace. My name is Michael Wright. I am a 
member of the United Steelworkers of America, and I lead the union's 
Health, Safety and Environment Department. The USWA has approximately 
600,000 members in the United States and Canada. Notwithstanding our 
name, we represent workers in virtually every segment of the 
workforce--steel of course, but also mining, aluminum and other 
nonferrous metals, chemicals, plastics, tires and rubber, plastics, 
glass, health care, services, and even public employment.
    Like other participants in this hearing, I have spent a large part 
of the last 25 years on the issue of workplace hazard communication. 
Often, however, we in the labor movement called it by a different 
name--``the right to know,'' specifically the right of every worker to 
know the names and the hazards of the chemicals to which he or she is 
exposed. Indeed, the history of chemical hazard communication is a 
history of the struggle to assure the ``right to know,'' first in the 
United States and other developed countries, and now, through 
instruments like the Globally Harmonized System (GHS), worldwide.

Right-To-Know in the United States

    Perhaps a brief review of that history would be useful. In the late 
1970s, the labor movement in the United States began working toward an 
OSHA Right-to-Know Standard. It was an uphill battle. Sadly, most 
corporations and trade associations opposed us. The prevailing view was 
that workers did not need, would not understand, and would probably 
misuse information about toxic chemicals. I still have a copy of a 
safety and health guide published by a large steel company, warning 
managers not to give workers access to chemical information, on the 
grounds that it would complicate labor relations. Safety and health 
professionals, within both OSHA and industry, too often saw chemical 
safety as their job exclusively, with no real role for workers except 
to follow instructions. Nevertheless, OSHA began work on a Hazard 
Communication Standard, and released a proposal in the closing days of 
the Carter Administration. That proposal was promptly withdrawn by the 
incoming Reagan Administration.
    Of course, the issue did not die. Spurred by coalitions of unions 
and environmentalists, State legislatures across the country began to 
pass worker and community right-to-know laws. These laws often 
conflicted, potentially forcing chemical manufacturers and suppliers to 
use different labels for different States. Chemical users and 
purchasers began to realize that the lack of chemical information hurt 
them as well. And, safety and health professionals in industry and 
government increasingly came to understand that a trained and informed 
workforce is essential to a good safety and health program.
    As a result, OSHA published a new Hazard Communication proposal in 
1982, and issued the final standard in 1983. Organized labor strongly 
supported the standard, but we thought it was deficient in two areas. 
First, it applied only to manufacturing, leaving millions of workers in 
other sectors unprotected. Second, the trade secret exemption was much 
too broad, allowing chemical manufacturers and formulators to hide 
information from workers, even when that information was known to 
competitors. We asked for judicial review on those two issues in the 
Third Circuit Court of Appeals, even as the standard went into effect. 
We won that case in 1985, although it took 2 years and a subsequent 
court order before OSHA finally fixed the deficiencies in the original 
standard. Even then, the Office of Management and Budget attempted to 
revoke parts of the standard by administrative fiat. It took a 
subsequent decision by the Third Circuit, upheld in 1990 by the U.S. 
Supreme Court, to turn back OMB's end run around the legitimate 
rulemaking process. It had taken more than a decade but most American 
workers had finally achieved the right to know the names and the 
hazards of chemicals they use on the job. (The major exceptions were 
miners, and public employees in those States without a State plan. MSHA 
finally promulgated a final hazard communication rule in 2002; public 
employees still lack coverage.)

Right-To-Know Internationally

    Meanwhile, right-to-know was becoming an issue internationally. 
Workers in Canada won the Workplace Hazardous Materials Information 
System in 1988. Some European countries had effective systems in place 
at the beginning of the 1980s; European Union directives ultimately 
created a unified system across the continent.
    By the end of the 1980s, two problems remained. First, the systems 
in place in the United States, Canada and the European Union were 
mutually inconsistent. Labels and Safety Data Sheets produced in one 
country often were not acceptable in another. This is especially a 
problem in trade between the United States and Canada. The Canadian 
WHMIS system specifies a detailed format for chemical labels; the U.S. 
Hazard Communication standard does not. As a result, chemicals labeled 
in Canada can be sold freely in the U.S., while most chemicals labeled 
in the U.S. have to be relabeled before they can be sold in Canada. As 
more countries adopted chemical labeling and information regulations, 
this problem only became worse. In my office, I have a bag designed to 
hold 10 kilograms of a toxic chemical called acrylamide. The bag has 
about 12 square feet of surface area, and almost every square inch is 
needed to contain the different labels required for the United States, 
Canada, the European Union, Japan, and other countries.
    Second, and more serious, most workers in developing countries and 
countries in transition still lack the right to know the names and 
hazards of the chemicals they use on the job. The International Labor 
Organization estimates that two million people die worldwide each year 
from workplace injuries and disease. Many of those deaths could be 
prevented if workers and their employers had good chemical information 
in their own language. However, countries without effective systems 
rarely have the resources to develop one on their own. And whose system 
should they model it after? Existing systems are, after all, 
incompatible.
    There is an answer to both these problems--global harmonization, 
the worldwide adoption of a single unified system, combining the best 
elements of existing national systems. Happily, we have achieved the 
first step toward global harmonization. After a decade of work by a 
number of international organizations, we have a Globally Harmonized 
System for the Classification and Labeling of Chemicals. What remains 
is for countries to adopt it.
    The idea of a globally harmonized system was first proposed at the 
1989 Conference of the International Labor Organization in Geneva. One 
of the items on the Conference's agenda was a new international 
convention on ``Safety in the Use of Chemicals at Work.'' ILO 
conventions normally require discussion at two consecutive ILO 
conferences. The draft convention that emerged from the first year's 
discussion in 1989 contained extensive language on chemical labeling 
and the right of workers to good chemical information. But for a 
country to fulfill those obligations, it would have to adopt a system 
for chemical classification and labeling. Developing countries 
maintained that they could never adopt such a system unless there was a 
globally harmonized system to adopt. Led by the Government of India, 
they pushed through a resolution calling for such a system. (The ILO is 
a tripartite organization; I am proud to have been the chair of the 
workers delegation in the discussions on the Chemicals Convention. In 
1990 the Convention was adopted by the full ILO Conference by a near 
unanimous vote. The only vote not in favor was an abstention by the 
United States employers delegation.)
    Three years after the ILO Resolution, the United Nations Conference 
on Environment and Development identified harmonization as one of its 
action programs. Working groups were set up under the ILO, OECD, and 
the UN Committee of Experts on the Transport of Dangerous Goods. The 
work was coordinated by the Interorganizational Program for the Sound 
Management of Chemicals. Jennifer Silk of OSHA chaired that group; 
Michelle Sullivan, who testified earlier, represented industry. I was 
one of the labor representatives. We quickly agreed on a set of general 
principles--most importantly, that the GHS should not weaken protection 
in any existing system. However, the technical work on classification 
criteria, and the painful political work of reconciling differing 
systems took the better part of a decade.

The Road Ahead

    I included this history to make two points. First, ``hazard 
communication'' is more than a technical measure designed to increase 
safety. It is also at the heart of what should be seen as a fundamental 
worker right--the right to know.
    Second, right-to-know is a worldwide issue best addressed by a 
worldwide instrument--the Globally Harmonized System. In fact, the GHS 
would help with what I think are the two most serious problems of the 
OSHA Hazard Communication Standard--the low quality of Material Safety 
Data Sheets and the lack of an effective training requirement.
    The OSHA HazCom Standard is an almost pure ``performance'' 
standard. During the original rulemaking, chemical manufacturers urged 
OSHA to let each company decide how best to communicate chemical 
information on its own labels and safety data sheets. Unions and some 
chemical users thought a specified format and phrasing would make 
labels and safety data sheets more readable and more easily understood, 
but the manufacturers' views prevailed.
    Indeed, many manufacturers produce clear, readable and informative 
labels and safety data sheets. The American Chemistry Council and the 
Synthetic Organic Chemical Manufacturers Association have produced 
useful guidance to their members, and the American National Standards 
Institute has provided a model format to the industry as a whole. 
However, most chemical suppliers are not members of the ACC or SOCMA, 
and relatively few companies have adopted the ANSI format. The problem 
with voluntary standards is that not everyone volunteers. We have seen 
many safety data sheets that seem designed to hide information, rather 
than communicate it. Some are internally inconsistent or just plain 
wrong.
    Let me give just two examples. Several years ago one of our local 
unions sent me two safety data sheets for a type of refractory fiber 
from two different manufacturers. They wanted to know which was safer. 
In fact, the two products were virtually identical. But the hazard 
warning on one data sheet stated: ``Warning: similar material has been 
shown to cause malignant and nonmalignant neoplasms in experimental 
animals exposed via interperitoneal installation. As this route of 
exposure does not mimic the human experience, the significance of this 
finding is uncertain.''
    The other safety data sheet said: ``Warning: causes cancer.'' Both 
warnings are legal under the OSHA HazCom standard.
    Incidentally, the local union was far more worried about the first 
product. They worked with carcinogens all the time. They knew what 
precautions to take. But they thought that if the first company had 
taken the trouble to write such an incomprehensible statement, their 
product must be especially dangerous.
    The second example can be found in almost every plant I or our 
staff visit. We usually look at the safety data sheets for chemicals 
used in the plant. We almost always find one that, at the top, says: 
``This product contains no hazardous ingredients.'' At the bottom it 
says: ``Use with adequate ventilation. Do not breathe vapors. Avoid 
skin contact. Use approved respiratory protection equipment and 
protective clothing.''
    As for training, there is no question that good training greatly 
improves the ability to understand chemical labeling and safety data 
sheets. Unfortunately, the OSHA standard is vague, requiring only that: 
``Employers shall provide employees with effective information and 
training on chemical hazards in their work area.'' [29 CFR 1910.1200 
(h)(1)] That training need only be provided once in the employee's 
entire working life, unless new chemical hazards are introduced into 
the work area. OSHA provides additional guidance in a nonmandatory 
appendix to the standard, but the guidance is unenforceable.
    OSHA has written many citations to companies that did no training 
at all, but to the best of my knowledge, they have never written a 
citation for inadequate training. In my office, we have a betting pool 
to see who can find the company that got away with the shortest HazCom 
training. So far, the record is 7 minutes. In contrast, when the USWA 
does HazCom training for safety representatives and first responders, 
it takes 6 hours. The training done by the University of Oregon Labor 
Education and Research Center--typical of university-based extension 
programs--takes 4 hours. And those sessions only include the standard 
itself and the fundamentals of chemical safety. Employers have the 
additional obligation of training their workers on the chemical hazards 
specific to their jobs.
    The GHS would help solve both these problems. Safety data sheets 
prepared under the GHS contain 16 specific elements in a specified 
order. The GHS labeling criteria contain specified hazard and warning 
phrases, which are also applicable to safety data sheets. In addition, 
the GHS specifies a number of pictograms that guide workers who cannot 
read, and provide additional emphasis for those who can.
    The GHS also contains a strong endorsement of training, although it 
does not specify a detailed agenda for training or training methods. I 
understand that the United Nations subcommittee on the GHS will be 
looking at the training issue in the future, and that UNITAR--the 
United Nations Institute for Training and Research--is developing a set 
of general training materials. Adoption of the GHS would give the 
United States an opportunity to upgrade our own training requirements.

The Next Steps

    I want to commend OSHA for its partnership with the Society for 
Chemical Hazard Communication, and for its recent Hazard Communication 
Initiative. The initiative will be more effective if it is informed by 
the views of chemical users, and not just chemical suppliers and 
experts. The initiative should include small businesses that use 
chemicals. Many of them are overwhelmed by the complexity, 
inconsistency and low quality of the safety data sheets they receive, 
and could contribute greatly to OSHA's work. Workers are the ultimate 
consumers of chemical information, and those most at risk from chemical 
hazards. Their voices should be heard as well.
    In addition, Congress should provide an adequate budget for the 
initiative, without detracting from enforcement or other OSHA programs.
    But OSHA's voluntary initiative can only go so far. There is a role 
for the U.S. Congress, and that role is legislative. In the last few 
years, we have heard ideas for tinkering with safety data sheets, or 
establishing yet another group to study the issue. Those ideas are well 
intentioned, but most of them would have little impact.
    One thing, however, would make a dramatic difference. Mr. Chairman, 
we urge the Congress, beginning with your subcommittee, to begin the 
work of adopting the Globally Harmonized System.
    Let me outline what ``adoption'' means. The GHS is described as a 
voluntary system, but it is voluntary only in the context of 
international law. In other words, it is not the subject of a binding 
convention or treaty. No country can be forced to adopt it. A 
government can adopt the GHS and later reject it without violating 
international law. (However, once the GHS is widely adopted, a country 
that tries to enforce a different system for imported chemicals may be 
guilty of a trade violation.)
    Once adopted, however, the GHS would be mandatory within the 
adopting country. Chemical suppliers and employers would be obligated 
to follow it. Within the U.S., for example, the GHS--or more 
accurately, regulations based on the GHS--would replace the OSHA HazCom 
Standard and other labeling rules for some consumer products.
    The only effective way for the U.S. to adopt the GHS is through 
legislation. The ordinary OSHA rulemaking process is too cumbersome and 
constricted for ordinary standards, much less one derived from a decade 
of international negotiations. There will have to be OSHA rulemaking to 
determine how the elements of the GHS best fit into existing U.S. law 
and regulation, but Congress can set the stage by requiring the 
adoption of those elements.
    Fortunately, there is no need to adopt the GHS all at once. In 
fact, the GHS celebrates a building block approach. For example, the 
United States could first adopt the GHS as it applies to workplace 
health and safety, leaving consumer products to a later date.
    While we are at it, the United States should also ratify the ILO 
Convention on Safety in the Use of Chemicals at Work. Nothing in that 
convention is inconsistent with U.S. law, and it would do nothing to 
change U.S. regulations for hazardous chemicals. However, ratification 
would send a message that the U.S. believes in chemical safety 
worldwide, and expects all countries and corporations to provide safe 
working conditions.
    Mr. Chairman, in a period of intense partisanship, this is not a 
partisan issue. Today you heard widespread agreement on the value of 
workplace hazard communication, on the right of workers to good 
information about the chemical hazards they face, and on the virtue of 
U.S. leadership on chemical safety. The participants in this hearing 
often disagree on health and safety issues--but not on this one.
    Mr. Chairman, you and your subcommittee have a rare opportunity. By 
taking the lead on the GHS you can speak to the needs of chemical 
users, especially small businesses, who are so frustrated with 
confusing and misleading safety data sheets. You can support the 
efforts of responsible chemical manufacturers, who have worked to 
supply good information to the users of their products. You can make 
our workplaces safer, and by example, workplaces around the world. You 
can demonstrate strong U.S. leadership on chemical safety. And you can 
contribute to a fundamental right of workers--the right-to-know.
    Thank you again for the chance to testify this morning.

    Senator Enzi. Thank you very much.
    I want to thank the whole panel for the information that 
they have provided. There is a lot of tremendous information 
there, and we will make sure that OSHA looks at it some more, 
and we will also take a look at the Global Harmonizing System 
and see what sorts of legislative things are possible with it.
    I really appreciate all the comments and suggestions on how 
we can do this, and the need for simpler sheets, one page, and 
also the training that needs to go with that, because if the 
employees do not understand how to use the information that is 
there--and it is very complicated information--it still will 
not achieve our objective.
    I do have a few questions. I will start with Mr. Grumbles.
    You said that outreach assistance on Material Safety Data 
Sheet and hazard communication should be provided to small 
business. How do you recommend that OSHA's compliance 
assistance efforts take into account and reach small 
businesses?
    Mr. Grumbles. First of all, I am sure they cannot do it by 
themselves, and I think the efforts that have happened in the 
last 2 years to develop multiple alliances with groups of 
interested parties are the perfect framework for OSHA to use 
to, in essence, multiply their resources and their capabilities 
to deliver the messages, and in fact, as we have heard this 
morning, actually develop the information that can be delivered 
to those small businesses.
    So I think that in working with the alliances and looking 
at the large number of companies that are involved in those 
alliances, no matter how you count, that can be done.
    I also think that in their alliances with associations like 
ours--we have developed infrastructures, for instance, 
electronic infrastructures, to develop telewebs and other 
mechanisms that, with cooperation between the alliances, we can 
develop delivery mechanisms to perhaps even more efficiently 
deliver the messages.
    So I really think that the alliance work that OSHA has done 
in the last 2 years can really pay off and really be a good 
framework to develop this, perhaps in further cooperation with 
the small business development centers.
    Senator Enzi. That is a great idea. I have appreciated the 
mention of electronics that everybody has done. One of the 
things that I had to do in this job was to allow electronic 
data sheets to be acceptable as opposed to paper, so they are a 
recognized means now.
    I would like all of you to think about the question that I 
posed to Mr. Henshaw, which was what do we do about limited 
English proficiency. If you have any specific suggestions on 
that, I would really be interested, because it is a problem out 
there in the work force. You may have run across it with the 
things that you have done.
    Is there anything specific that any of you would like to 
contribute on that at this moment?
    Mr. Wright?
    Mr. Wright. I guess I got my hand up first. I think that in 
many ways, the GHS will help that, because the kind of hazard 
warnings in the GHS are quite standard, so they would be easily 
translated into different languages.
    In addition, a lot of chemical suppliers supply chemicals 
to many different markets, so especially large chemical 
companies probably have MSDSs available in different languages 
already. The problem now is that those MSDSs are not 
standardized, so the MSDS that they send to, say, China is 
going to be quite different from the one they send to the 
United States and different from the one they send to Canada. 
But as the GHS standardizes MSDSs, the only remaining task will 
really be to translate between different languages, and that 
will be made much more easy because of the phrasing of the 
MSDSs--the particular way that you warn about a carcinogen, for 
example, will be standardized. So I think the problem will 
begin to solve itself.
    Senator Enzi. Dr. Sullivan, do you want to comment on that 
as well?
    Ms. Sullivan. Yes. I would just add to what Mike said that 
besides helping with having standardized phrases that will be 
translated sometimes by the international organizations and 
other regional organizations, the GHS will also include 
pictograms, which would be helpful for people who either have 
some illiteracy or language problems. There are pictograms that 
can be used both on labels and on the Material Safety Data 
Sheets, which will at least allow them to understand what the 
hazards are. They represent the hazards, whether it is a 
flammable or whether it is toxic or irritant to the skin or 
those types of things. So there is some help in the GHS.
    Senator Enzi. We have the GHS recommendations now. How many 
countries are participating in that at the moment? We mentioned 
the difference between requirements from one country to 
another. Has this been adopted? We have adopted it kind of 
globally, but as far as country to country, are we getting some 
uniformity there?
    Ms. Sullivan. There are several goals for GHS adoption that 
have been put forward by different organizations. The 
International Forum on Chemical Safety, and the World 
Sustainable Development, the follow-up to the Rio work in 1992, 
have come out with adopting by 2008, and the APIC Ministers 
have recommended adoption of the GHS by 2006. But as yet, as 
far as I understand, there are not any countries that have--
several of them have committed to those dates.
    For example, I just came from the Society for Chemical 
Hazard Communication meeting in New Orleans, and we had 
speakers both from the European Union and from Canada, and they 
are both looking at considering adoption of the GHS in the 
2006-2008 time frame.
    But I have to admit, Mr. Chairman, as several of my 
colleagues have mentioned, they are all waiting to hear what 
the United States is going to do, sine we are a major player in 
the world trade.
    Senator Enzi. I think our Government alone is the world's 
largest customer, so it probably does have an effect.
    Mr. Hanson, I want to thank you for coming all the way from 
Casper, WY. Since I get out there almost every weekend to a 
different place in Wyoming, I understand the travel 
difficulties that you had and will have before you get back, 
with or without the Material Safety Data Sheets that are 
involved with the airlines.
    How many notebooks did you say you had?
    Mr. Hanson. We started with 26 4-inch binders. We have 
since then condensed our system down to one 1\2\-inch ring 
binder with the chemical categorization system. And just like 
GHS, instead of pictograms, it categorizes chemicals 
numerically. All chemicals can fall into the numbers one 
through 36.
    Senator Enzi. And the reason you have the 26 books is for 
different areas, or does everybody have to use all 26?
    Mr. Hanson. That was just our main inventory. You have to 
have a master index of all MSDSs in your organization. So our 
master index made up 26 4-inch ring binders. Now, taking into 
consideration the MSDSs for each individual floor, unit, and 
area where they are required--as per the standard, it has to be 
readily accessible in the area where they work--take that into 
consideration, and patient registration may have just a little 
file folder with three or four MSDSs, where our radiation 
oncology department, where you are getting into anti-
neoplastics and some of the pharmaceuticals that require MSDSs, 
you could have several hundred.
    Senator Enzi. OK. You listed some of the things that you 
thought could help; I think there were five different ones in 
your testimony dealing with the 2,500 different Material Safety 
Data Sheets in your hospital. Can you tell me a little more 
about the clarity, accuracy, and consistency that you are 
seeing on those?
    Mr. Hanson. There is none. That sums it up.
    Senator Enzi. OK. Have you had a chance to look at the 
Globally Harmonized System?
    Mr. Hanson. Yes.
    Senator Enzi. Will that solve some of the problems, from 
your perspective?
    Mr. Hanson. Well, it is definitely going to help identify 
some of the processes that were going to need to help focus on. 
However, MSDSs in the United States still, as it stands, is no 
small issue. You have to format the MSDS first and get 
consistency before we can go to a GHS system. This alone 
suggests that substantial portions of the MSDS have serious 
deficiencies, and unless we correct those, coming on board with 
the GHS is not going to be appropriate. So I think you have to 
almost align the two simultaneously.
    Senator Enzi. Thank you.
    Ms. Jackson, when I think of Pepperidge Farm, somehow I do 
not think of hazardous chemicals--I think more of Milano 
cookie.
    Ms. Jackson. Well, you should.
    [Laughter.]
    Senator Enzi. Well, good. I am on the right track, then. I 
am pleased with that.
    Your testimony demonstrates how widespread and important 
this issue of hazardous communication is to all types of 
employers, and I appreciate the detail that you went into on 
the need for a standard format.
    How do you see that standard format improving the 
communication and protecting your workers?
    Ms. Jackson. I think just the ease of training is one 
aspect; being able to point to an MSDS--which we all do in our 
jobs when we do employee training--this is what it should 
contain, and then, when you actually show them examples, you 
have to really look hard to find one that actually fits what 
you are training to.
    So I think a standardized MSDS format would certainly ease 
that, the employee training, employee communication. We need to 
come up with, as I said, some kind of standardized hazard 
identification system. Whether it is the NFPA diamond or the 
HMIS numbers, we need to stick with one and then make sure that 
they are on the labels that go onto the secondary containers--
all the styrofoam cups, as you mentioned, or the spray bottles 
that are used. Sanitation chemicals, for example, are 
downloaded into smaller spray bottles. Think of your bottle of 
Windex, for example.
    Senator Enzi. But of course, on those bottles, you do not 
have the 12 square feet that we heard about earlier.
    Ms. Jackson. No, but you can convey a lot of information in 
a two-by-two label, which we do.
    Senator Enzi. How does that all fit in with the electronic 
Material Safety Data Sheets that you have been using? How are 
those working?
    Ms. Jackson. Well, the electronic is great as far as 
retrieval. When we do have an issue or we do have employees who 
want to see what it is they are working with, that is a great 
means--within 2 minutes, we can have a faxed copy of that MSDS.
    As far as helping us with the labeling, yes, we can verify 
that how we are labeling is correct per the MSDS. But again, if 
the MSDS sheet is not correct, then, the label that we put onto 
our secondary container is not correct, and employees are not 
getting the proper information.
    Senator Enzi. I think that has been a real consistent 
message today.
    Mr. Hanson, did you want to comment on that?
    Mr. Hanson. Yes. I think one thing that is important to 
understand, too, is that just having an online MSDS system does 
not alleviate the problems. You are taking it from paper in a 
book and putting it on a computer with a more capable search 
function, but the issue still remains. So going back to 
formatting the MSDS first is a key priority.
    Senator Enzi. Thank you.
    I want to thank all of you for your testimony and your 
answers. I do have some other questions here, but we are going 
to have to finish the hearing.
    I really do appreciate all the information, and as we 
gather this together, I think it will be extremely helpful, and 
I will be pushing for us to get this globally harmonized. I do 
recognize that the United States is a leader and has to be a 
leader, and since it fits with all the testimony that we have 
gotten from everybody and, in my opinion, will be driven by the 
small businesses who have the most difficulty working with 
this, I see that as particularly important.
    The reason we held this hearing is because I have had 
extensive complaints about the Material Safety Data Sheets from 
employees and employers, and we do want to come up with a 
system that is actually usable and that saves lives.
    So thank you all for the time that you have given and the 
information.
    The record will remain open. The hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Statement of the American Society of Safety Engineers

    Chairman Enzi and Respected Subcommittee Members: The American 
Society of Safety Engineers (ASSE) is the oldest and largest society of 
safety professionals in the world. Founded in 1911, ASSE represents 
about 30,000 dedicated safety, health and environmental (SHE) 
professionals. Our members are dedicated to excellence, expertise and 
commitment to the protection of people, property and the environment 
worldwide. The Society has thirteen Practice Specialties across every 
type of SHE practice--Academics, Construction, Consultants, 
Engineering, Environmental, Healthcare, Industrial Hygiene, 
International, Management, Mining, Public Sector, Risk Management and 
Insurance, and Transportation. ASSE's members in these specialties are 
leaders in their fields with the knowledge and expertise needed to 
advance occupational safety and health forward on a global level. On 
behalf of our members, ASSE is pleased to submit this statement for 
inclusion in the formal hearing record.
    ASSE commends the subcommittee for addressing the issue of hazard 
communication (HazCom) in the 21st Century workplace, especially as it 
pertains to global harmonization and the HazCom system cooperatively 
developed last year under the auspices of the United Nations with 
significant input from the Occupational Safety and Health 
Administration (OSHA), Environmental Protection Agency (EPA), and the 
Department of State.
    With more than 32 million workers exposed to 650,000 hazardous 
chemical products in more than 3 million American workplaces, HazCom is 
a significant workplace and public safety and health issue. Moreover, 
each year emergency responders are seriously injured or killed because 
of deficient information about chemicals on site when they are 
addressing situations such as fires, explosions or transportation 
disasters. Our expanding multilingual population also requires 
consideration of a HazCom system that has greater utility than the 
present Anglo-centric system in place. Significant challenges face 
Congress and both Federal and State agencies tasked with managing 
HazCom as the United States continues to cooperate with other nations 
in implementing a unified system that can protect individuals across 
international boundaries.

                               BACKGROUND

    All existing HazCom rules and guidance in the United States--
whether codified by various governmental entities or developed by 
consensus organizations--recognize that not only can certain chemicals 
present physical hazards such as fires and explosions, they can cause a 
variety of health problems, including sterility, cancer, chemical and 
thermal burns, and heart, kidney or lung disease.
    In 1983, OSHA enacted its Hazard Communication (HCS) Standard (29 
CFR 1910.1200) to reduce injuries and illnesses related to exposures in 
the chemical industry. Today, the standard covers chemical exposures 
that occur in all nonmining workplaces. In 2002, the Mine Safety and 
Health Administration (MSHA) adopted a system quite similar to OSHA's 
standard (30 CFR Part 47). OSHA's standard is the second most cited 
Federal occupational safety and health standard. More than 7,000 
citations were issued in fiscal year 2003, amounting to more than $1.3 
million in penalties. MSHA's standard, while newer, also ranks among 
the most-often cited rules. In addition, other Federal agencies, 
including the Department of Defense, NASA, and the Department of 
Transportation, have regulations that include hazard communication 
components and/or have published ``hazard communication'' guidance. \1\
---------------------------------------------------------------------------
    \1\ In addition to the OSHA and MSHA standards explained below, 
other codified Federal standards with Hazard Communication implications 
are contained in 10 CFR (Energy), 39 CFR (Postal Service), 40 CFR 
(Protection of Environment), 49 CFR 171.8, 172.101, 172.102 (Hazardous 
Materials Regulations), and DOT-HM-181 Regulations (Dangerous Goods 
Regulations). These cannot be ignored as Congress and the Federal 
Government as a whole explores the best approach to efficiently 
developing a conforming system of hazard communication.
---------------------------------------------------------------------------
    Increasingly, these United States measures must be reviewed against 
international HazCom developments. In 2003, the United States and other 
nations cooperatively developed a Globally Harmonized System (GHS) of 
hazard communication. In addition, the global safety and health 
community has moved into the mainstream a new method termed ``control 
banding'' that can be utilized to minimize potential worker exposures 
to hazardous chemicals. This new method utilizes key statements 
included in MSDSs to assist in the selection of appropriate chemical 
control methods.

                       OSHA/MSHA HAZCOM STANDARDS

    Current U.S. Department of Labor Hazard Communication (HazCom or 
HCS) regulations (29 CFR 1910.1200 and 30 CFR Part 47) apply to all 
employers producing or using a hazardous chemical to which a worker can 
be exposed under normal conditions of use or in a foreseeable 
emergency. If a hazardous chemical is ``known to be present'' by the 
chemical manufacturer or the employer, it is covered by the standard. 
The basic requirements of OSHA/MSHA Hazard Communication mandate that 
employers:
    <bullet> Inventory the chemicals at the workplace and determine 
which are hazardous.
    <bullet> Keep a list of the hazardous chemicals.
    <bullet> Establish a written HCS program.
    <bullet> Prepare a label and Material Safety Data Sheet (MSDS) for 
hazardous chemicals that the employer produces on site.
    <bullet> Make sure that containers of hazardous chemicals are 
labeled.
    <bullet> Keep MSDSs for the hazardous chemicals at the worksite.
    <bullet> Train all employees about the HCS program and the 
hazardous chemicals to which they can be exposed.
    <bullet> Allow workers (and other workers on site) to access at the 
HCS information and provide them with a copy upon request.
    Only chemical manufacturers and importers are required to perform 
hazard determinations on all chemicals they produce or import, although 
distributors and employers may also choose to do so. Hazard 
determination procedures must be in writing and made available, upon 
request, to employees, and to representatives from OSHA/MSHA and/or the 
National Institute for Occupational Safety and Health (NIOSH). 
Employers are responsible for conducting a hazard assessment to 
determine which hazardous chemicals are currently being used by doing a 
``walk-around inspection'' and checking records, obtaining an MSDS for 
each identified chemical hazard, determining which workers may be 
exposed in the normal course of their duties, and providing appropriate 
training. The employer must also, of course, take remedial actions to 
control the hazards, limit worker exposures to the maximum extent 
feasible, and provide workers with appropriate personal protective 
equipment.
    In an effort to harmonize HCS with analogous environmental 
statutes, OSHA and MSHA exempted hazardous substances defined by the 
Comprehensive Environmental Response, Compensation and Liability Act 
(CERCLA) when the hazardous substance is the focus of remedial or 
removal action being conducted under CERCLA. There is some interface 
between chemicals listed in an employer's chemical hazard inventory and 
community right-to-know laws, including the EPA's SARA Title III. The 
standard also exempts consumer products and hazardous substances, which 
are defined in the Consumer Product Safety Act and Federal Hazardous 
Substances Act respectively, where the employer can show that it is 
used in the workplace for the purpose intended by the chemical 
manufacturer or importer, and the use results in a duration and 
frequency of exposure not greater than the range of exposures that 
could reasonably be experienced by consumers when used for the purpose 
intended.
    Labeling requirements--The OSHA/MSHA HCS also includes labeling 
requirements, and the employer must ensure that containers of hazardous 
chemicals are marked, tagged, or labeled with the identity of the 
hazardous chemical and appropriate hazard warnings. The label must be 
in English and prominently displayed, although OSHA and MSHA permit 
employers to add warnings in other languages or use symbols to help 
workers understand the label contents. This is critical in light of the 
growing number of multilingual workplaces in the U.S. The information 
on a container label varies depending on what type of container it is 
and how it is used. Chemical manufacturers, importers, and distributors 
are required to ensure that every container of hazardous chemicals they 
ship is appropriately labeled with such information and with the name 
and address of the producer or other responsible party. Employers 
purchasing chemicals can rely on the labels provided by their 
suppliers, but if the employer subsequently transfers the chemical from 
a labeled container to another, the employer must label that container 
unless subject to the agencies' portable container exemptions.
    The OSHA/MSHA hazard communication standards recognize the use of 
alternative in-plant labeling systems such as the ``HMIS'' (Hazardous 
Materials Information System), National Fire Protection Association 
(``NFPA''), and others that may be used in industry. These systems rely 
on numerical and/or alphabetic codes to convey hazards and are 
generally nonspecific. These agencies permit these types of in-plant 
labeling systems to be used when an employer's overall HCS program is 
proven to be effective despite the potential absence of target organ 
information on container labels. The employer must assure through more 
intensified training that its employees are fully aware of the hazards 
of the chemicals used and that their training program instructs 
employees on how to use and understand the alternative labeling 
systems.
    MSDS--Chemical manufacturers and importers must obtain and develop 
an MSDS for each hazardous chemical they produce or import. Employers 
must maintain and use a material safety data sheet in the workplace for 
each hazardous chemical they use. The MSDS provides information about 
the nature of the chemical, necessary personal protective equipment, 
how to handle unexpected spills or releases, and emergency procedures.
    Under the current Federal standards, each MSDS must be in English, 
although the employer may maintain copies in other languages as well, 
and must contain specific information including contact data for the 
chemical manufacturer, importer, employer or other responsible party; 
the identity used on the label; the substance's chemical and common 
name(s); information on mixture ingredients, information on 
carcinongenicity, physical and chemical characteristics, health 
hazards, routes of entry, permissible exposure limits (PELs) and other 
relevant exposure limits; precautions for safe handling and recommended 
control measures; and, appropriate personal protective equipment for 
workers and emergency responders. The sheets must also be dated and 
note when it was last revised.
    This month, OSHA has launched a multipart initiative of enforcement 
and compliance assistance activities relative to HazCom. From the 
enforcement end, OSHA will focus on MSDSs. Compliance officers will 
have a list of critical information for selected chemicals to be used 
as a reference when reviewing MSDSs on file at a worksite. If an 
inspector finds an MSDS is inaccurate, the manufacturer will be 
notified of the deficiencies, and will be cited if the manufacturer 
does not take corrective action. Employees will also be provided with 
telephone and fax numbers for use to articulate concerns about the 
content of MSDSs.
    ASSE applauds OSHA's initiative in developing guidance materials 
and also in making international chemical safety cards covering over 
1,300 substances available on the agency website, www.osha.gov. 
However, ASSE cautions against over-investing OSHA's limited financial 
resources in developing HazCom materials now that may soon be outdated, 
if modifications to 29 CFR 1910.1200 are determined to be necessary in 
order to achieve conformity with the U.N. global harmonization system.
    OSHA has also solicited public comment on two new publications, 
Draft Guidance for Hazard Determination for Compliance with the OSHA 
Hazard Communication Standard and Draft Model Program for Hazard 
Communication. ASSE plans to participate in the stakeholder process for 
these instructional materials.

                      GLOBAL HARMONIZATION SYSTEM

    The genesis of the Global Harmonization System (GHS) addressing 
hazard communication occurred at the 1992 ``Rio Earth Summit.'' The 
stated goal was to develop a ``globally harmonized hazard 
classification and compatible labelling system, including national 
safety data sheets and easily understandable symbols, should be 
available, if feasible, by the year 2000.'' Although the developers 
missed this target date, the GHS was finalized in early 2003, with a 
final implementation goal of January 2008. The GHS is a voluntary 
system and, as such, does not impose binding treaty obligations on 
countries. However, to the extent that countries adopt GHS into 
national regulatory requirements, it will be binding upon the regulated 
community.
    The United Nations' Recommendations on the Transport of Dangerous 
Goods was predecessor project, which developed criteria for classifying 
and labeling dangerous goods for purposes of transportation but which 
did not address environmental, worker or consumer safety regulations. A 
core concept agreed upon by participants in developing the GHS was that 
the level of protection offered to workers, consumers, general public 
and environment should not be reduced.
    Benefits of the new GHS include
    <bullet> Greater regulatory consistency among countries;
    <bullet> Safer transportation, handling and use of chemicals;
    <bullet> Improved understanding of hazards;
    <bullet> Increased compliance and reduced costs for companies 
involved in international activities; and
    <bullet> Enhanced protection of workers, consumers and potential 
exposed populations.
    The GHS hazard classification criteria were adopted by consensus 
for physical hazards and key health and environmental classes. 
Standardized label elements--symbols, signal words, hazard statements--
were developed along with standard format for Safety Data Sheets (SDS), 
the GHS counterpart to MSDS. The GHS also addresses product 
identifiers, confidential business information, and precedence of 
hazards. Target audiences include consumers, workers, transport workers 
and emergency responders.
    The GHS requires the following information on product and container 
labels:
    <bullet> Signal Words;
    <bullet> Hazard Statements;
    <bullet> Precautionary Statements and Pictograms;
    <bullet> Product Identifier;
    <bullet> Supplier Identification;
    <bullet> Multiple Hazards and precedence of hazard information;
    <bullet> Arrangements for presenting the GHS label elements; and
    <bullet> Special Labeling Arrangements.
    Guidance on the preparation of SDSs was drawn from the following 
sources:
    <bullet> ILO Recommendation 177 on Safety in the Use of Chemicals 
at Work;
    <bullet> ISO Standard 11014;
    <bullet> European Union SDS Directive 91/155/EEC; and
    <bullet> ANSI Standard Z400.1.
    Training is also a critical component of the GHS, and the 
developments encourage such training to address workers, emergency 
responders, and those involved with preparation of labels, SDS and 
HazCom strategies as part of risk management systems.
    Participants in the GHS project agreed that validated data already 
generated for classification of chemicals under existing systems should 
be accepted when reclassifying the chemicals under GHS. However, the 
new harmonized system may require adaptation of existing methods for 
testing of chemicals. Significantly, the GHS was not intended to 
harmonize risk assessment procedures or risk management decisions such 
as the establishment of a PEL for employees). It also leaves to 
participating countries the decision as to which of the GHS ``building 
blocks'' will be applied in different parts of their systems.
    The current OSHA/MSHA standard is much less prescriptive than the 
GHS, which contains specific pictures and phrases that companies must 
place on their goods. Therefore, modification may be required at some 
point in the future as the OSHA/MSHA HCS contains general performance 
requirements for communicating hazards, but allows flexibility for 
companies that have their own hazard labeling system.

                     VOLUNTARY CONSENSUS STANDARDS

    ASSE serves as Secretariat of nine American National Standards 
Institute (ANSI) Committees and projects that develop safety and health 
standards used by private sector organizations and State and Federal 
governmental agencies. ASSE members sit on over forty additional 
standards development committees, including the ASTM E34 Committee that 
addresses occupational safety and health, including hazard 
communication.
    Some voluntary consensus standard organizations, such as ANSI and 
ASTM, have developed standards that address hazard communication. ANSI 
promotes the use of U.S. standards internationally, and encourage the 
adoption of international standards as national standards where 
appropriate to the needs of users. ANSI is also the U.S. representative 
on two major nontreaty international standards organizations--the 
International Organization for Standardization (ISO) and the 
International Electrotechnical Commission (IEC). Therefore, its role 
should not be overlooked in the global harmonization process.
    To the extent that ANSI and ASTM standards have utility and are 
consistent with the GHS, Congress and the Federal regulatory agencies 
should consider them for incorporation in any new government-wide 
hazard communication system. This is consistent with directions given 
by Congress in the Technology Transfer Act of 1995 (P.L. 104-113) and 
the Office of Management and Budget's Circular A-119.
    Some relevant consensus standards include the ANSI Z535 series 
(addressing safety color codes for facility environmental and safety 
systems), ANSI Z-400.1 (Hazardous Industrial Chemicals--Material Safety 
Data Sheets), ANSI Z490.1 (Criteria for Accepted Practices in Safety, 
Health and Environmental Training), ASTM E1445-03 (Standard Terminology 
Relating to Hazardous Potential of Chemicals), and two standards 
developed by the ASTM E34.40 subcommittee on hazard communication, ASTM 
E1628-98 (Standard Practice for Preparing Material Safety Data Sheets 
to Include Transportation and Disposal Data for the General Services 
Administration) and ASTM E2238-02 (Standard Guide for Evacuation Route 
Diagrams).

                            CONTROL BANDING

    For the past year control banding has become a topic of 
international significance and John Henshaw, Assistant Secretary of 
Labor for Occupational Safety and Health, recently has discussed 
publicly the benefits of control banding. Control banding is a risk 
assessment method that couples information on MSDSs with actual usage 
information in order to select one of four control methods--
substitution of less hazardous chemicals, engineering controls, 
ventilation, and containment. Using MSDS information and tables, 
chemicals are placed into exposure classes or ``bands'' based on 
volatility, toxicity, and common properties. Consideration is given to 
the use and quantity of the chemical to select the appropriate control 
method.
    Although this method provides what appears to be a simple and 
largely useful way to select exposure control methods, several 
limitations must be taken into consideration if and when control 
banding is promoted in the U.S. as a leading tool to advance HazCom. 
PELs are not incorporated into the current scheme. Given that OSHA 
regulates exposures and selection of personal protective equipment on 
the basis of PELs, if the method is to be used in the United States, it 
would need to be amended to either incorporate PEL considerations or 
current regulations would need to be amended to eliminate the need for 
PEL measurement. In addition, selection of control methods in the 
United Kingdom is based on inclusion of specific information in MSDSs 
that is not currently incorporated into MSDSs used in the United 
States. Finally, control banding, though useful, does not adequately 
address every chemical in a band. Some chemicals, though included in 
certain bands, may cause reactions outside the norm of the band and 
require unique responses that banding simply will not address. Care 
must be taken to ensure that control banding is used with this kind of 
warning always in mind.

                               CONCLUSION

    In the current economic climate, global harmonization has taken on 
heightened importance, and any issue surrounding HazCom must be 
carefully scrutinized from an international perspective for the purpose 
of helping United States companies and their SHE managers achieve 
greater global conformity and, as a result, competitiveness. ASSE and 
its members were involved throughout the GHS development process and 
recognize that its implementation in the U.S. will require ongoing 
cooperation between the private sector and numerous Federal and State 
agencies. State plan states may also need to revise HazCom programs 
that differ from OSHA's requirements. Moreover, adoption of the GHS 
system will likely require significant revision of EPA standards with 
unique labeling requirements, including the Federal Insecticide, 
Fungicide and Rodenticide Act and chemical ``risk management'' 
provisions of the Clean Air Act. Again, State agencies that have their 
own environmental right-to-know laws may also face challenges in 
properly adapting those statutes to fit the GHS model.
    The issue of whether OSHA should continue a leadership role in this 
regard or delegate its powers in the hazard communication spectrum to a 
single nonregulatory agency that would direct the efforts of other 
regulatory agencies must not be decided without full consideration of 
all ramifications. There is also value in considering how existing 
voluntary consensus standards fit into the framework of HazCom global 
harmonization.
    Although the U.S. Department of State was in charge of the U.S. 
activities on GHS, this is not likely to be the appropriate agency to 
carry out this function in the long-term. Because of the implications 
for modification of existing statutes and realignment of regulatory 
powers, it is likely that congressional action will be warranted. As 
Congress and the affected agencies consider how to create a new 
coordinating body to handle the domestic implementation of GHS, ASSE 
pledges its assistance in advancing this project. It is critical that 
any such committee include input from Certified Safety Professionals, 
Certified Industrial Hygienists and others with the requisite 
demonstrated qualifications to have full understanding of chemical 
safety and related processes. Any such system must achieve the goal of 
being transportable for multinational companies while still providing a 
level of protection for American workers that is equivalent to, or 
greater than, the protections now afforded under Federal and State 
laws.

      Statement of the International Truck and Engine Corporation

    International Truck and Engine Corporation was pleased to see 
Senator Enzi's position on the globally harmonized system for 
classification and labeling (GHS) and would like to support it. Please 
add the following comments to the record of the Committee on Health, 
Education, Labor, and Pensions Subcommittee on Employment, Safety and 
Training March 25, 2004 hearing on ``Hazard Communication in the 21st 
Century Workforce'':
    International Truck and Engine Corporation has been using Material 
Safety Data Sheets (MSDS) for over 30 years as part of a hazardous 
materials control program that predates the OSHA hazard communication 
standard. During this time there has been an evolution in the design 
and content of MSDS documents. Mostly there has been improvement but a 
number of challenges to effective communication remain:
    <bullet> There is a great deal of variability between MSDSs from 
different manufacturers that makes it difficult to compare the degree 
of hazard. Some data sheets seem to be written by the law department, 
others by the marketing department. Operations have substituted a more 
hazardous material for a less hazardous one because the warnings seemed 
less ominous.
    <bullet> Some warnings are excessive. Some data sheets contain 
directions to use personal protective equipment that may only be 
appropriate for the worst case scenario but are unnecessary for 
ordinary uses. This may cause users to discount the instructions on 
other data sheets where specifications are appropriate.
    <bullet> Most materials (over 99 percent) used in our operations 
are mixtures of several ingredients. The hazards of each component are 
listed as the hazard of the product as a whole. For example, a Loctite 
thread sealer sold in hardware stores and used as a glue to keep bolts 
from coming loose contains 2 percent saccharine and must be designated 
as a carcinogen on a par with benzene.
    <bullet> MSDS documents are often six or eight pages long and do 
not work well as training documents. We find it easier to distill the 
pertinent information from each data sheet into a separate one-page 
training summary.
    While not the complete solution to these issues, the globally 
harmonized system for classification and labeling (GHS) would be a 
significant improvement. The GHS could be improved from its current 
form. For example, criteria for listing occupational exposure limits 
should be more clearly specified to only require limits set by 
governmental agencies or as a result of a recognized open consensus 
process. All listed exposure limits or risk characteristics used for 
regulatory purposes should comply with FACA guidelines for review. 
Nevertheless, even in its present form the GHS would bring welcome 
consistency and order to hazard communication.
    Noting the comments of Senator Enzi and Assistant Secretary Henshaw 
at the March 25, 2004 hearing, International Truck and Engine 
Corporation would like to add its support to calls for adopting the 
globally harmonized system.
    Please feel free to contact me or Thomas Slavin (312-836-3929) with 
any questions.

                Prepared Statement of Carolyn W. Merritt

    Mr. Chairman and members of the committee, thank you for the 
opportunity to submit written testimony on behalf of the U.S. Chemical 
Safety and Hazard Investigation Board (CSB) for this hearing to discuss 
the communication of hazards in the workplace.
    This is an issue of great interest to the CSB as the independent 
Federal agency that investigates major chemical accidents at fixed 
facilities around the country. The CSB became operational in 1998 and 
is governed by a five-member board of technical experts, appointed by 
the president and confirmed by the U.S. Senate. Since opening its 
doors, the Board has investigated and issued reports on 19 major 
accidents that killed or injured workers, impacted communities, and 
caused property or environmental damage. CSB has also issued several 
studies and bulletins on broader chemical safety issues.
    Our investigations show that lives continue to be lost in accidents 
because chemical hazards are not being effectively communicated in the 
workplace. Among accidents we have investigated, faulty communication 
of material hazards contributed to 12 deaths among workers and 79 
injuries to workers, first responders, and members of the public.
    Ongoing CSB investigations also raise serious concerns whether the 
hazards of combustible dust products are being communicated effectively 
to users. The Board is currently investigating three catastrophic dust 
explosions that occurred in 2003; together these explosions caused 14 
deaths and scores of injuries.

                          SUMMARY OF FINDINGS

    Accidents rarely result from a single cause, and CSB investigations 
usually uncover several root causes and contributing factors behind 
each accident. In ten of the 19 cases investigated, deficiencies in 
hazard communication were identified. In nine of these ten 
investigations, the deficiencies were found to be a root cause, 
contributing cause, or significant causal factor. In eight cases, CSB 
identified specific deficiencies in Material Safety Data Sheets (MSDSs) 
or found that the required MSDSs did not exist. Descriptions of 
specific accidents follow.

              I. NO MSDSS PROVIDED FOR HAZARDOUS MATERIALS

    BLSR Operating Ltd.: On January 13, 2003, a vapor cloud fire 
erupted at the BLSR Operating Ltd. oilfield waste disposal facility in 
rural Texas, south of Houston. The fire occurred as two tank trucks 
were delivering flammable gas condensate waste for disposal at the 
facility. Three workers were killed, and four others suffered serious 
burns. CSB's investigation found neither the truckers nor the disposal 
company workers knew that the wastes were highly flammable, and allowed 
the waste to run over open ground into a trench, which was their usual 
practice for nonflammable drilling mud. CSB found that the company that 
generated the flammable wastes had not provided any MSDSs to either the 
truck drivers or the disposal company where the fire occurred.
    What CSB Recommended: The Texas Railroad Commission, which 
regulates oil and gas operations in the State, should require that all 
drillers and producers provide accurate MSDSs on waste liquid hazards 
to workers and contractors, in languages they can understand. This 
action would allow State inspectors to help enforce basic MSDS 
requirements. In addition, the Board recommended that OSHA issue a 
Safety and Health Information Bulletin emphasizing the responsibility 
of drillers and producers to identify waste hazards and provide workers 
with MSDSs.
    Kaltech Industries: On April 25, 2002, an explosion occurred at 
Kaltech Industries, a sign manufacturer in the Chelsea neighborhood of 
New York City, injuring 36 people, including 14 members of the public. 
The explosion, which was the result of a reaction between waste 
chemicals, originated in the basement of a mixed-use commercial 
building and caused damage as high as the fifth floor. CSB's 
investigation found that the company had not provided any MSDSs to its 
workers, including the MSDS for nitric acid, the highly reactive 
chemical CSB found was involved in the explosion. CSB also found that 
OSHA had never inspected Kaltech Industries in the previous 10 years. 
Investigators noted that many Kaltech workers had limited proficiency 
in English.
    What CSB Recommended: OSHA Region II should disseminate information 
on the Hazard Communication Standard in the major nonEnglish languages 
spoken by workers in New York City. The Board also recommended that New 
York City modernize its 1918-era fire code to include modern hazardous 
materials controls, such as the requirement that MSDSs be made 
available to the workforce. In March 2004, following two hearings of 
New York City Council where the CSB testified, the New York Fire 
Department said it would institute a modern model fire code, such as 
the International Fire Code. With a modern code in place, city fire 
inspectors would be authorized to enforce MSDS requirements during 
their annual inspections of workplaces.

            II. DESPITE MSDSS, WORKER NOT TRAINED ON HAZARDS

    Georgia-Pacific: On January 16, 2002, highly toxic hydrogen sulfide 
gas leaked from a process sewer manhole at the Georgia-Pacific paper 
mill in Pennington, Alabama. The gas was formed because sodium 
hydrosulfide--a feedstock chemical used at the mill--had been spilled 
and released into an acidic sewer system, where a chemical reaction 
occurred to produce hydrogen sulfide gas. Two contract construction 
workers who were near the sewer were overcome by the gas and killed; 
seven other construction workers and a truck driver were injured.
    CSB's investigation showed that although the supplier's MSDS for 
sodium hydrosulfide contained warnings about its reaction with acid, 
the mill's procedures and training did not include this information. 
Investigators concluded that if workers had understood the risk, they 
would likely have prevented the sodium hydrosulfide from entering the 
sewer system. CSB also found that the construction workers lacked 
appropriate training on the hazards of hydrogen sulfide--such as how to 
identify and respond to a leak of the gas--and did not attempt to 
evacuate the area when the leak began.
    What CSB Recommended: Georgia-Pacific Corporation should require 
all its paper mills to identify hydrogen sulfide risk areas and train 
personnel who work in those areas on how to respond to leaks of the 
gas. The CSB also recommended that the construction company provide 
similar training to its employees.
    Environmental Enterprises: On December 11, 2002, a maintenance 
worker at the Environmental Enterprises hazardous waste treatment plant 
collapsed after he walked near a waste treatment tank and inhaled toxic 
hydrogen sulfide. The worker stopped breathing but was later pulled to 
safety and resuscitated by fellow employees. The gas formed because 
another worker earlier had added sodium sulfide and an acidic substance 
to the treatment tank, causing a chemical reaction. Although the MSDS 
for sodium sulfide warned about this potential reaction, not all 
workers were aware of the hazard or were trained on the warning signs 
of hydrogen sulfide, such as its characteristic rotten-egg odor. The 
victim did not recognize this odor as a sign of life-threatening 
danger.

            III. PRODUCT FLAMMABILITY NOT DESCRIBED IN MSDSS

    Bethlehem Steel: On February 2, 2001, a flash fire at the Bethlehem 
Steel Corporation mill in Chesterton, Indiana, killed two workers and 
injured four others. Workers were attempting to remove a cracked valve 
from a coke oven gas line, when they were suddenly sprayed with highly 
flammable liquid gas condensate, which ignited. CSB's investigation 
found that the workers expected the line to contain condensate but 
believed it was essentially made of water and not flammable. The 
company's own MSDS had not indicated any potential flammability for gas 
condensate, whereas CSB's testing found that material in the line was 
highly flammable with a flash point of 29 +F.
    What CSB Recommended: Bethlehem Steel Corporation should revise the 
Material Safety Data Sheet (MSDS) for gas condensate to highlight its 
potential flammability and provide training and information for its 
workers and contractors.
    Motiva Enterprises: On July 17, 2001, a large sulfuric acid storage 
tank exploded at Motiva Enterprises' Delaware City refinery, killing 
one worker, injuring eight others, and releasing more than a million 
gallons of acid. The work crew had been repairing an overhead catwalk 
when a spark from their welding equipment ignited flammable vapors in 
the tank below. The tank had holes in its roof and shell due to 
corrosion. CSB's investigation found that although the used sulfuric 
acid in the tank was known to contain a significant percentage of 
flammable hydrocarbons, the company's MSDS indicated a flammability 
rating of ``0'' [zero] and stated ``the product is not combustible.''
    What CSB Recommended: The refinery should upgrade its system of 
reporting unsafe conditions to ensure communication of hazards to 
affected plant personnel.

             IV. PRODUCT REACTIVITY NOT DESCRIBED IN MSDSS

    BP Amoco Polymers: On March 13, 2001, three people were killed as 
they opened a process vessel containing hot plastic at the BP Amoco 
Polymers plant in Augusta, Georgia. They were unaware that the vessel 
was pressurized due to a decomposition reaction affecting the plastic 
inside. The workers were killed when the partially unbolted cover blew 
off the vessel and expelled the hot plastic. CSB's investigation found 
that the MSDS for the plastic Amodel, which BP Amoco produced, stated 
it should not be heated above 660 +F to avoid product decomposition but 
did not warn of the hazards of doing so.
    What CSB Recommended: BP Amoco should revise the MSDSs for Amodel 
plastics to warn of the hazards of accumulating large molten masses.
    Morton International: On April 8, 1998, an explosion and fire 
occurred at Morton International's plant in Paterson, New Jersey, when 
a runaway chemical reaction over-pressurized and ruptured a 2,000-
gallon chemical vessel used to produce dye. Nine workers were injured, 
and the surrounding community was showered with chemical residues. 
CSB's investigation found that the dye was chemically reactive and 
could decompose and release heat and gas just above the normal 
processing temperature. However, the company's MSDS for the dye 
indicated ``0'' [zero] reactivity. Investigators found that plant 
personnel were generally unaware of the hazards of a runaway reaction.
    What CSB Recommended: Morton should revise the MSDS for the dye to 
correctly identify its reactivity.
    First Chemical Corporation: On October 13, 2002, a violent 
explosion occurred in a nitrotoluene distillation tower at First 
Chemical Corporation in Pascagoula, Mississippi, sending heavy debris 
over a wide area. The control room was damaged and explosion debris 
narrowly missed a large storage tank that contained highly toxic 
anhydrous ammonia. A nitrotoluene storage tank at the site was 
punctured by debris, igniting a fire that burned for several hours. 
CSB's investigation found that First Chemical's MSDS for nitrotoluene 
lacked warnings about the chemical's tendency to decompose and explode 
when subjected to prolonged heating.
    What CSB Recommended: First Chemical Corporation (now a Dupont 
subsidiary) should revise its warnings about nitrotoluene and other 
process chemicals and train workers appropriately.

            V. LANGUAGE BARRIERS PREVENT UNDERSTANDING MSDSS

    Sierra Chemical: On January 7, 1998, two massive explosions 
destroyed the Sierra Chemical munitions reclamation plant in Mustang, 
Nevada, killing four workers and injuring six others. The company used 
reclaimed military munitions to produce explosive boosters for the 
mining industry. The accident likely occurred when a worker restarted a 
mixer containing solidified explosive material. CSB's investigation 
found that Spanish was the only language understood by most plant 
workers, but MSDSs for the chemicals used on-site were only in English. 
CSB found that workers were not aware of the specific hazards of 
materials at the plant.
    What CSB Recommended: Sierra Chemical should ensure that hazard 
information and safety procedures are communicated in the language 
understood by workers.

         VI. MSDSS NOT RELIABLE FOR REACTIVE HAZARD INFORMATION

    In September 2002, the CSB completed a 2-year study of serious 
incidents that resulted from uncontrolled chemical reactions, which can 
occur when chemicals are improperly combined or heated. The study 
uncovered 167 serious incidents in the U.S. over a 20-year period that 
caused 108 deaths and extensive injuries and property damage. The CSB 
investigation pointed out that OSHA's Process Safety Management 
standard--the main safety standard for highly hazardous chemical 
processes--allows companies to use MSDSs to compile hazard information. 
But in 1996, OSHA itself issued a Hazard Bulletin stating that MSDSs do 
not always contain information about the hazards from mixing or 
blending chemicals.

        CSB INVESTIGATING ADEQUACY OF MSDSS FOR CHEMICAL POWDERS

    CSB is currently investigating three major dust explosions that 
occurred in 2003 at factories in North Carolina, Kentucky, and Indiana. 
In two of these cases, CSB is investigating the adequacy of MSDSs that 
should have warned of the explosion hazards of fine chemical powders 
used at the plants.
    West Pharmaceutical Services: On January 29, 2003, an explosion and 
fire destroyed the West Pharmaceutical Services medical rubber plant in 
Kinston, North Carolina, causing six deaths, dozens of injuries, and 
hundreds of job losses. CSB investigators have found that the fuel for 
the explosion was a fine plastic powder used in producing rubber goods. 
Combustible polyethylene dust--accumulated over a manufacturing area at 
the plant--ignited and exploded.
    The company that produced the powdered polyethylene understood its 
potential to explode and included a warning in the MSDS. However, West 
purchased polyethylene from a formulation company, which bought the 
polyethylene powder and then prepared a slurry with water. Although the 
formulation company was aware of how West intended to ultimately use 
the material, the MSDS for the slurry did not indicate that once it 
dried, potentially explosive dust could be released.
    CTA Acoustics: On February 20, 2003, an explosion and fire damaged 
the CTA Acoustics manufacturing plant in Corbin, Kentucky, killing 
seven workers and injuring more than 30 others. The facility produced 
fiberglass insulation for the automotive industry, using a powdered 
resin as a binder. CSB investigators have found that the explosion was 
fueled by resin dust accumulated in a production area. Although the 
MSDS for the resin powder indicated it was ``combustible,'' it did not 
describe the catastrophic potential if the dust was allowed to 
accumulate, and many plant personnel remained unaware of the danger.
    Based on these events, CSB is concerned that neither the OSHA 
Hazard Communication Standard nor the corresponding American National 
Standards Institute (ANSI) standard contains a definition for 
combustible dust. MSDSs for combustible dusts often lack critical 
technical information on the hazards, including what are known as the 
deflagration index, minimum ignition energy, minimum explosive 
concentration, and volume resistivity. Employers need this information 
to accurately assess the hazards of dust in the workplace.
    In written comments to ANSI on the upcoming revision to the 
consensus standard on preparing MSDSs, the CSB staff on August 22, 
2003, recommended that ANSI incorporate a definition for combustible 
dust. However, on November 19, 2003, ANSI declined to do so stating 
that OSHA had not yet incorporated the concept of combustible dusts 
into the Hazard Communication Standard.

                               CONCLUSION

    Deficiencies in hazard communication and Material Safety Data 
Sheets are among the common causes of major chemical accidents that 
result in loss of life, serious injuries, and damage to property and 
the environment. Approximately half of the CSB's root-cause 
investigations of major accident uncover such deficiencies. Since 1998, 
the Board has identified ten specific accidents where chemical hazard 
communication was inadequate.
    The CSB believes that improving the quality of hazard communication 
and Material Safety Data Sheets will help prevent major chemical 
accidents and should be an important goal of government agencies as 
well as the producers and users of hazardous materials.

                        Statement of Karan Singh

                              INTRODUCTION

    Thank you for inviting me to submit this statement for inclusion in 
the hearing record. There is no question that the Federal Hazard 
Communication Standard is an important vehicle for promoting safety in 
the workplace. However, specific improvements are necessary to ensure 
that public policy represents the spirit of the original regulations. I 
hope this statement provides some clarity on the weaknesses in the 
current standard and the proposed areas for reform.
    As is widely recognized, there is general consensus that the 
current program for evaluating the impact of hazardous chemicals on 
workplace safety is inaccurate, outdated, and complex. This program, 
which relies on Material Data Safety Sheets (MSDSs) developed by 
chemical manufacturers, is based on Federal regulations developed in 
1983 by the Occupational Safety and Health Administration (OSHA).
    While OSHA's intent was admirable in this regard, and extended a 
host of new rights to employees to know the potential chemical threats 
that exist in the workplace, the regulations fall short. There is no 
standard for the format of MSDSs, and a vast majority of them are 
inaccurate. They are drafted in complex and technical language, which 
makes it nearly impossible for the average workplace employee to 
decipher the information embedded in the MSDS to respond correctly to a 
chemical incident. Ironically, the Employee Right-to-Know Act will 
continue to render employees virtually helpless until the Federal 
standard is improved. An improved standard would empower those who use 
chemicals in the workplace with information they can use to make quick, 
informed, and accurate decisions to reduce the threat of acute chemical 
incidents, as well as chronic exposure.

                               BACKGROUND

    The assumption in the Hazard Communication Standard was that 
employees have a right to know the hazards that they are being exposed 
to, and that they will be able to protect themselves once aware of such 
hazards. As I indicated, the tool to communicate hazards of chemicals 
is the MSDS. Over the years, the main objective of MSDSs to communicate 
potential hazards to employees has been obscured by the addition of 
information suitable for emergency responders, toxicologists, 
transporters, and the like. Consequently, the MSDSs no longer 
effectively communicate hazards of chemicals to an average employee, 
and have become documents created by technical people for technical 
people.
    Approximately 33 percent of the adult population in the U.S. reads 
at or below 8th grade level, and 22 percent is functionally illiterate. 
In our multiethnic society, a large immigrant population does not 
comprehend English well enough to comprehend MSDSs written at an 
advanced level of reading, analysis, and interpretation. Lack of 
standardization, incomplete, inaccurate, and contradictory information, 
and hazard warnings inconsistent with relevant and scientific evidence, 
collectively render MSDSs all but irrelevant to an average employee.

                            RECOMMENDATIONS

    In an effort to improve hazard communications, I respectfully 
propose the following recommendations:
    1. Development of standardized phrases that could be translated 
into all of the major world languages. Employees not only have a right 
to know but also a right to understand. This will also bridge the gap 
between our system and the Global Harmonization System (GHS).
    2. Minimum levels of testing for acute hazards such as 
corrosiveness, flammability, and toxicity. A test to determine the 
flash point, pH, and reactivity is inexpensive and costs less than 
$10.00. Chronic health effect determinations are difficult, expensive, 
and time consuming. However, there is no reason why manufacturers 
cannot provide information available from extrapolation of available 
data from compounds with identical functional groups.
    3. The NFPA and HMIS symbols used to designate relative levels of 
hazard are not intended to address the intent of the HCS and, in 
certain circumstances, can be dangerous. When applied by chemical 
manufacturers, almost half the numbers are incorrect and misleading. No 
distinction is made between corrosiveness and toxicity, even though 
both are very different types of hazard and require different 
protective equipment. For example, manufacturers regularly declare 
aerosols to be noncombustible, even though they are filled with 
flammable propellants. There is a need to categorize hazards--as 
primary, secondary, and tertiary--based on relative severity and 
provide explanation in plain English. Additional warnings about the 
potential of chemicals being lethal on any route of exposure should be 
instantly communicated by use of pictograms similar to those used in 
Canada, Europe, and in the Global Harmonization System (GHS).

                            MC TECHNOLOGIES

    A few years ago, I began working with a small company in the 
Midwest on a project to divide a large number of hazardous chemicals 
into a small number of categories and hazard levels. My work revealed 
that most of the chemicals in use today could readily be assigned to 
one of 36 categories, in terms of physical and environmental risks and 
proposed responses to spills or other incidents. It was from this 
research that the MAXCOM program was developed. This patent-pending 
program is now under the license of MC Technologies, where I currently 
serve as Chief Scientific Officer.
    This program provides information on the potential hazards of each 
chemical category, provides effective training on how to safely use the 
chemicals, and prescribes a specific intervention should a spill or 
other incident occur. The language in this program is written at a 6th 
grade level of reading and comprehension. The system reduces a 
facility's paper archive of MSDSs, often times exceeding more than 
20,000 technical pages, into a single, 1-inch binder. It is the only 
system which is fully compliant with OSHA regulations.
    I have appended this statement with a review of the inherent flaws 
in the Federal standard, along with the mechanisms through which MC 
Technologies has addressed them. I would be happy to review these in 
further detail with subcommittee staff.

                               CONCLUSION

    The time has come to renew the Hazard Communication Standard. The 
promulgation of the Employee Right-to-Know regulations put in place a 
bold new standard to promote safety in the workplace. However, this 
addressed only part of the problem. It is one thing for employees to 
know about these hazards, but to understand and act on them when time 
is critical is an entirely different issue. MC Technologies looks 
forward to working with Congress and OSHA in this effort, to promote a 
standard that provides guidance on hazard determination, effective 
training of employees on those hazards, and guidance on preparation of 
chemical-related documents.

            APPENDIX--HAZARD COMMUNICATION IN THE WORKPLACE

``Employee Right-to-Know''
    The assumption in the Hazard Communication Standard, promulgated by 
OSHA in 1983, was that employees in the workplace have a right to know 
the hazards that they are being exposed to, and that they will be able 
to protect themselves once aware of such hazards.
    Currently, the tool to communicate hazards of chemicals is the 
Material Safety Data Sheet (MSDS). Due to the preference of a 
performance-based approach by OSHA, there is no standard format for the 
MSDSs.
    The following is a list of problems inherent in the current MSDS 
model and how MC Technologies has addressed them:
    1. Problem: Hazard warnings are often inconsistent with the weight 
of relevant, scientific evidence.
    Solution: MC Technologies has categorized hazards as primary, 
secondary, and tertiary based on the relative severity. An employee 
would know in an instant, if the hazards could be life-threatening.
    2. Problem: Lack of testing requirement for the finished products 
means that MSDSs often make no distinction between a diluted and a 
concentrated product.
    Solution: The MC Technologies program separates chemical categories 
into Red, Yellow, or Green, representing decreasing levels hazards. Red 
represents properties that could be life threatening, whereas Green, at 
the other extreme, represents relatively safe chemicals. Color blind 
employees further benefit from the use of numbers and letters, in 
addition to color.
    3. Problem: MSDSs for the same chemicals from different companies 
provide different degrees of thoroughness in coverage.
    Solution: MC Technologies provides additional relevant warnings for 
users of MSDSs with inadequate information.
    4. Problem: MSDSs are too long and technical. Generic description 
of symptoms etc., do not often match with the working condition 
exposures.
    Solution: MC Technologies provides an Executive Summary of the MSDS 
in user-friendly terms, avoiding technical language and jargon. 
Similarly, abbreviations and acronyms are avoided.
    5. Problem: Foreign MSDSs. Symbols used in MSDSs from other 
countries do not currently match with those used in the U.S. Data in 
the Metric System in foreign MSDSs can result in misinterpretation of 
the hazard severity.
    Solution: MC Technologies interprets different symbols and 
pictograms for the American audience.
    6. Problem: Redundant information. MSDSs are being used by many 
professionals such as emergency responders, toxicologists, and 
transporters. Additional information provided to meet the needs of 
other professionals has no relevance for an employee. Even the new ANSI 
format of MSDS is full of irrelevant information for the protection of 
the employee.
    Solution: MC Technologies filters out all of the irrelevant 
information, and provides a summary of only the relevant information.
    7. Problem: Incomplete/Inaccurate MSDSs.
    Solution: MC Technologies brings to attention contradictory or 
inaccurate information in its Executive Summary of the chemical. Also, 
if inadequate information is available due to lack of relevant 
scientific research, then a warning is provided.
    8. Problem: Comprehensibility of MSDSs. One-third of the U.S. adult 
population reads at or below the 8th grade level, and 22 percent of the 
population is functionally illiterate. The average MSDS is written at a 
collegiate reading level.
    Solution: MC Technologies provides instructions in short and direct 
sentences, using active voice and phrases that recommend positive 
action. Technical words, whenever used, are provided with an 
explanation in simple English. Employees are tested for their 
comprehension, not their reading abilities. Training materials are 
sensitive to employees without basic language and math skills.
    9. Problem: Legibility. Many chemical manufacturers provide too 
much information in a very small space, often in English, French, and 
Spanish.
    Solution: Hazards of all chemicals and incident response procedures 
are provided in easy to use ``Safe-Use Guides'' that follow the same 
format.
    10. Problem: Effective training. In businesses with hundreds of 
chemicals, it is impossible to provide chemical-specific training for 
each chemical. OSHA has, therefore, recommended category-based 
training.
    Solution: MC Technologies assigns categories based on a step-by-
step hazard determination process. Each category is assigned a Safe-Use 
Guide number. The training program provides instructions in following 
the information in Safe Use Guides followed by a test for 
comprehension.

    [Whereupon, at 11:39 a.m., the subcommittee was adjourned.]


</pre></body></html>
